U.S. Department of Justice
Office of the Inspector General
Evaluation and Inspections Division




                    Coordination of Investigations by
                         Department of Justice
                       Violent Crime Task Forces
                                      May 2007




                          Report Number I-2007-004
                               EXECUTIVE DIGEST


INTRODUCTION

        The Department of Justice (Department) has been making
increasing use of different types of task forces − teams of federal, state,
and local law enforcement officers − to help tribal, state, and local
governments reduce violent crime. At the end of fiscal year (FY) 2005,
there were 84 cities with more than 1 violent crime task force operated
by the Department and its components, up from 20 cities at the
beginning of FY 2003. As the number of cities with multiple task forces
has increased, concerns have also risen among Department officials,
members of Congress, and local police chiefs that the Department’s task
force investigations must be well coordinated to avoid duplication of
effort.

       In the Conference Report on the Department’s FY 2006
appropriations bill, the Appropriations Committees directed that the
Office of the Inspector General (OIG) assess the coordination of
investigations conducted by four types of Department violent crime task
forces: 1

   •   Violent Crime Impact Teams (VCIT) – The Bureau of Alcohol,
       Tobacco, Firearms and Explosives (ATF) had 22 Violent
       Crime Impact Teams operating in 22 cities. Violent Crime
       Impact Teams focus on reducing gun-related violent crime in
       targeted urban areas.

   •   Mobile Enforcement Teams (MET) – The Drug Enforcement
       Administration (DEA) had 22 Mobile Enforcement Teams
       operating in 21 DEA districts. Mobile Enforcement Teams
       focus on reducing drug-related violent crime in targeted
       neighborhoods.

   •   Safe Streets Task Forces (SSTF) – The Federal Bureau of
       Investigation (FBI) had 160 Safe Streets Task Forces in 138
       cities. Safe Streets Task Forces focus on investigating
       violent crimes and apprehending violent fugitives.

       1   See House Report No. 109-272, at 66 (2005).



U.S. Department of Justice                                                    i
Office of the Inspector General
Evaluation and Inspections Division
   •   Regional Fugitive Task Forces (RFTF) – The U.S. Marshals
       Service (USMS) had 6 Regional Fugitive Task Forces
       operating in 23 federal judicial districts. Regional Fugitive
       Task Forces focus on apprehending violent federal and state
       fugitives.

      During FYs 2003 through 2006, ATF, the DEA, the FBI, and the
USMS operated 210 of these violent crime task forces in 256 cities. 2 The
FBI operated 160 of these 210 violent crime task forces, and the FBI is
the only component whose mission includes responsibility for
investigating all types of violent crime and apprehending violent fugitives.

       Our review assessed how well these four types of task forces
coordinate their work, including whether the task forces conduct
duplicate investigations, cooperate in joint investigations, and
“deconflict” law enforcement events to avoid interfering with one
another’s field operations and to ensure officer safety. In conducting this
review, we interviewed officials from the Office of the Deputy Attorney
General; ATF, DEA, FBI, and USMS managers at headquarters and in
field offices; U.S. Attorney’s Office officials; Special Agents and Deputy
Marshals; and state and local law enforcement officials.

       To evaluate the coordination of task force investigations in the
field, we visited eight cities with multiple Department task forces in
different regions of the country (Table 1). The cities we visited were
Los Angeles, California; Las Vegas, Nevada; Chicago, Illinois; Gary,
Indiana; Philadelphia, Pennsylvania; Camden, New Jersey; Atlanta,
Georgia; and Birmingham, Alabama. 3 To identify instances of
cooperation or duplications of effort among the task forces, we also
examined data on all arrests reported by the task forces during FYs 2003
through 2005.




       2  The 256 cities include the cities to which a DEA Mobile Enforcement Team
deployed and the cities in the federal judicial districts in which a USMS Regional
Fugitive Task Force operates. See Appendix I for the locations of the task forces as of
September 30, 2005.

       3 Each site visit included interviews with law enforcement officials from
surrounding jurisdictions. In all, we met with state and local law enforcement officers
from 28 jurisdictions.



U.S. Department of Justice                                                                ii
Office of the Inspector General
Evaluation and Inspections Division
  Table 1: Task Forces in the Eight Cities Visited During FY 2006

                     ATF Violent       DEA Mobile    FBI Safe    USMS Regional
      CITIES           Crime          Enforcement     Streets     Fugitive Task
                    Impact Team          Team       Task Force       Force

 Atlanta, GA
 Birmingham, AL        Planned
 Camden, NJ
 Chicago, IL
 Gary, IN
 Las Vegas, NV
 Los Angeles, CA
 Philadelphia, PA


RESULTS IN BRIEF

       Our review found that the Department’s coordination of its task
force investigations is not fully effective at preventing duplication of
effort. In FY 2005, there were 84 cities with 2 or more violent crime task
forces operated by ATF, the DEA, the FBI, and the USMS. Although the
missions of these task forces overlap, with the exception of anti-gang
task forces, the Department does not require the components to
coordinate operations or investigations, cooperate in joint investigations,
or deconflict law enforcement events conducted by their violent crime
task forces.

       In August 2005, the Department issued a policy requiring the
components to obtain the Deputy Attorney General’s approval to conduct
anti-gang programs and activities in new locations. However, even after
August 2005 coordination issues occurred related to anti-gang task force
activities in at least three cities. The issues arose when the FBI
approached local law enforcement officials in three cities about providing
local officers to participate in new or revitalized FBI Violent Gang Safe
Streets Task Forces. Each of these instances resulted in either the
U.S. Attorney or the local Chief of Police expressing concern about the
coordination of task force activities.

       To improve coordination of the Department’s anti-gang activities,
in June 2006 the Office of the Deputy Attorney General established a
detailed application process for new anti-gang activities requiring
support from and a recommendation by the U.S. Attorney for the


U.S. Department of Justice                                                        iii
Office of the Inspector General
Evaluation and Inspections Division
jurisdiction in which any new anti-gang task forces would operate. On
March 23, 2007, the Associate Deputy Attorney General responsible for
task force coordination reported that, “Since those procedures have been
in place, the Department of Justice components have exhibited 100%
compliance with the policies on new anti-gang task forces and all new
anti-gang task forces have been subject to review by the Anti-Gang
Coordination Committee and approval by the Deputy Attorney General.”

       However, outside of anti-gang activities, there are still no
Department policies requiring the coordination of the operations of other
violent crime task forces. As a result of the lack of Department-level
policies requiring coordination, the components’ coordination of task
force investigations is inadequate. Some components have nation-wide
policies that require coordination of task force operations. ATF, DEA,
and USMS headquarters managers entered into Memorandums of
Understanding that require their task forces to coordinate their
operations. In contrast, the FBI’s policy, issued in 1993, describes the
coordination of investigations by multi-jurisdictional FBI Safe Streets
Task Forces made up of federal, state, and local agencies. The FBI policy
requires that proposals for new FBI Safe Streets Task Forces list other
law enforcement agencies in the area with which the new FBI Safe
Streets Task Force would have to coordinate. The FBI policy does not
address coordination of existing task forces, FBI coordination with new
task forces created by the other Department components, or FBI
participation in or coordination of investigations with violent crime task
forces led by other Department components.

       Our analysis of nation-wide task force arrest data also indicated
that the components’ coordination of task force investigations is uneven.
The components’ arrest data from FYs 2003 through 2005 included
1,288 arrests that were reported by more than one task force. Based on
the components’ descriptions of the circumstances surrounding each
arrest, we concluded that 768 of those arrests resulted from duplicate
investigations by 2 task forces, while only 520 resulted from joint task
force investigations.

      Task force operations in some cities we visited are better
coordinated because the U.S. Attorneys and local task force managers
have local policies on coordination and use information-sharing systems
to coordinate task force operations in their jurisdictions. In other cities,
task forces do not have coordination policies, do not use information-
sharing systems, or operate as independent entities rather than as part


U.S. Department of Justice                                                 iv
Office of the Inspector General
Evaluation and Inspections Division
of a coordinated Department approach for combating violent crime. Task
force operations in these cities were less coordinated, and we found more
instances in which the task forces conducted duplicate investigations.
We also found that failures to coordinate task force investigations
resulted in three “blue-on-blue” incidents – incidents in which the failure
to deconflict events resulted in task force members being misidentified as
criminals by members of other task forces.

        In the sections that follow, we summarize our specific findings
regarding the Department’s and the components’ efforts to coordinate
violent crime task force investigations. We then summarize our
observations of components’ coordination of operations at the task force
level, the investigation level, and the law enforcement event level. In the
final section, we summarize the combined coordination efforts of the
components and the U.S. Attorneys in each of the eight cities we visited.

Department Coordination

      Overall, we found that the Department does not adequately
coordinate the operations of task forces, particularly when creating new
task forces in jurisdictions in which other task forces are already
operating. For example, when Congress directed the Department to
create USMS Regional Fugitive Task Forces beginning in FY 2001, the
Department did not coordinate them with or evaluate the missions of 40
other violent crime task forces that were already operational in the same
geographic areas. The 40 existing task forces included 6 FBI Safe Streets
Task Forces with fugitive apprehension responsibilities. The
congressionally defined mission of the newer USMS Regional Fugitive
Task Forces overlaps with the mission of the six existing FBI Safe Streets
Task Forces with fugitive apprehension responsibilities.

      Similarly, when the Department began establishing ATF Violent
Crime Impact Teams in 2004, it did not evaluate potential operational
overlaps when locating these ATF task forces in cities where DEA and
FBI task forces with similar missions were already operating. For
example, the Department created a new ATF Violent Crime Impact Team
with a gang focus in one city with an established FBI Violent Gang Safe
Streets Task Force. The ATF Special Agent in Charge in that city
acknowledged to the OIG that there was potential for investigations to
overlap with the FBI’s. Similarly, an FBI Supervisory Special Agent
stated, “I am truly concerned that we are seriously going to be
duplicating [each other’s investigations of] gangs.”


U.S. Department of Justice                                                    v
Office of the Inspector General
Evaluation and Inspections Division
       In May 2005, to ensure coordination of Department anti-gang
efforts, the Attorney General created the Anti-Gang Coordination
Committee. Further, in June 2005, the Deputy Attorney General
established a policy that in areas with multiple anti-gang task forces, all
such task forces and initiatives shall be co-located to ensure
coordination, intelligence sharing, and target deconfliction. Where co-
location is not feasible, the district’s Anti-Gang Coordinator is required to
establish a formal mechanism for coordinating anti-gang activities that
includes regular meetings of the federal, state, and local law enforcement
agencies involved in anti-gang investigations.

       In August 2005, the Deputy Attorney General expanded
Department policy to include the creation of new anti-gang task forces
and the conduct of new anti-gang activities. The August 2005 policy
requires that new anti-gang activities and programs, such as new Violent
Crime Impact Teams and Safe Streets Task Forces, be established only
after review by the Anti-Gang Coordination Committee and approval by
the Deputy Attorney General. In June 2006, the Office of the Deputy
Attorney General established a detailed process, provided application
materials, and directed the components to follow the application process
when proposing new anti-gang task forces. This process requires the
components to first submit plans for new anti-gang task forces to the
ATF, DEA, and FBI Special Agents in Charge; the U.S. Marshals; and the
U.S. Attorneys in the proposed geographic areas of responsibility. Only
then can plans for a new anti-gang task force be submitted for review by
the Anti-Gang Coordination Committee.

       We believe that the Deputy Attorney General’s August 2005 anti-
gang policy and detailed related guidance issued in June 2006 are
positive steps that will improve the coordination of anti-gang task force
activities in the Department and help reduce competition among
components’ gang task forces for participation by local law enforcement
officers. However, we believe that guidance is still needed to address a
larger problem with competition for resources among other violent crime
task forces. Several Special Agents in Charge, U.S. Marshals, and task
force managers explained that the components compete for local task
force members because the participation of local officers is critical to the
success of their task forces. As a result, ATF, the DEA, the FBI, and the
USMS try to encourage local law enforcement agencies to participate by
offering significant financial and training incentives. ATF and DEA
Special Agents and USMS Deputy Marshals responsible for task force
operations told us that their components coordinated their task forces’


U.S. Department of Justice                                                 vi
Office of the Inspector General
Evaluation and Inspections Division
requests for local officers, but that the FBI cannot always be relied upon
to do so. In response to this criticism, FBI headquarters managers
pointed out that the Director’s November 16, 1993, memorandum
establishing the FBI’s national gang strategy states that FBI “field offices
will ensure that all [f]ederal, state, and local law enforcement agencies
are provided the opportunity to participate and contribute to this [the
FBI’s] investigative effort.” An FBI Safe Streets Task Force headquarters
manager also pointed out that, “It’s the responsibility of the [Special
Agents in Charge] in the field to always be coordinating, somehow,
someway.”

Component Coordination

       We found that the components’ coordination of task force
operations is uneven. The DEA is the only component that has
instituted nation-wide policies on coordinating new task force operations.
DEA task force managers are required by DEA policy to coordinate
Mobile Enforcement Team operations with other Department
components. DEA task force managers told us that, because Mobile
Enforcement Teams conduct extensive undercover operations in specific
geographic areas, it is important for the other law enforcement
components to be aware of proposed DEA operations. DEA task force
managers were generally effective in coordinating Mobile Enforcement
Team deployments, but coordination issues surrounding the 2005
deployment of a Mobile Enforcement Team in one city created tensions
among the federal law enforcement components in that city.

       The DEA also has a nation-wide policy requiring its task forces to
avoid duplicate investigations and to deconflict events. However, we
found that deconfliction of task force events was uneven because the
other components did not have national policies. For example, High
Intensity Drug Trafficking Area (HIDTA) information-sharing systems,
which can be used to avoid duplicate investigations and to deconflict
events, are available in seven of the eight cities we visited. 4 In
accordance with policy, the DEA task forces use the HIDTA systems to
avoid duplicate investigations and to deconflict events. In six cities, the
local HIDTA system is also used by ATF and FBI task forces to identify

       4  The HIDTA program was created to coordinate efforts by local, state, and
federal law enforcement in specific geographic areas to combat drug-related violent
crime. The program also operates information-sharing systems, some of which have
expanded from drug-related violent crimes to all types of violent crime.



U.S. Department of Justice                                                            vii
Office of the Inspector General
Evaluation and Inspections Division
suspects under investigation by the various task forces. However, no
nation-wide ATF or FBI policy requires the use of HIDTA or other local
information-sharing systems to avoid duplicate investigations or
deconflict events.

      We found similar gaps in the coordination of fugitive investigations.
To coordinate the operations of USMS Regional Fugitive Task Forces, the
USMS negotiated agreements with ATF and the DEA to conduct those
components’ fugitive investigations. However, the FBI and the USMS
have not reached a similar agreement. Instead, under a 1988 Attorney
General memorandum on fugitive apprehensions, the FBI pursues
federal fugitives on warrants that the FBI obtains, and the USMS has
primary responsibility for the apprehension of all other federal fugitives.

       We found that the FBI and the USMS fugitive apprehension efforts
are better coordinated when the FBI obtains federal Unlawful Flight to
Avoid Prosecution warrants. These warrants are recorded in the federal
Warrant Information Network, allowing USMS Deputy Marshals to
coordinate their fugitive investigations. However, FBI Safe Streets Task
Forces often assist state and local law enforcement in their fugitive
investigations without first obtaining a federal Unlawful Flight to Avoid
Prosecution warrant. This sometimes has led to duplicate fugitive
investigations conducted by USMS and FBI task forces. We found that in
three cities where FBI Safe Streets Task Forces do not always obtain
federal Unlawful Flight to Avoid Prosecution warrants, they conducted
investigations on fugitives who were also the subjects of ongoing USMS
fugitive investigations. These duplicate fugitive investigations can create
a risk to officer safety.

      Our analysis of nation-wide task force arrest data also indicates
that the components’ coordination of task force investigations is uneven.
Of the 97,228 arrests the components’ task forces made from FYs 2003
through 2005, we found that 1,288 had been reported by more than one
task force. 5 While this number is small, it represents significant efforts
by two task forces all the way up to arrest. Accordingly, we asked the


       5   While our analysis identified a total of 1,949 arrests in which more than 1
component reported arresting the same individual, we excluded 661 of those arrests
after determining that coordination had not been needed. This included 277 instances
in which two components’ task forces arrested the same individual at different times for
different reasons and 384 instances in which the component concluded that the
reporting of the arrest to the OIG resulted from a recordkeeping error.



U.S. Department of Justice                                                           viii
Office of the Inspector General
Evaluation and Inspections Division
components to review their files and describe their coordination efforts
and the circumstances of these arrests. On the basis of the information
the components provided, we found that the components conducted 768
duplicate investigations (60 percent) and cooperated in 520 joint
investigations (40 percent). The OIG also requested information from the
components on individuals under investigation by the task forces during
FYs 2003 through 2005. However, we found that the data provided by
the components was not sufficient to enable us to reliably identify
duplicate investigations that did not result in an arrest or in which the
arrest was reported by only one of the components that had investigated
the subject. Nonetheless, our analysis of arrests that were reported by
more than one component demonstrated that the task forces were more
likely to duplicate another task force’s investigation than to cooperate in
a joint investigation.

Task Force Coordination

        The level of coordination of task force investigations across the
country is also uneven. U.S. Attorneys and task force managers in some
cities have developed local policies and use information-sharing systems
to coordinate task force operations. In other cities, task forces do not
have local policies, do not use information-sharing systems, and operate
as independent entities rather than as part of a coordinated Department
effort.

       We examined task force efforts at the three operational levels
where specific actions are required for coordination: the task force level,
the investigation level, and the event level. At the task force level, we
examined whether target areas and operations were managed so that
task forces had well-defined areas of responsibility. At the investigation
level, we examined whether task force members cooperated during
individual investigations to avoid duplication of effort and whether they
conducted joint investigations. At the event level, we examined whether
task force members deconflicted specific events – such as undercover
operations, surveillance, or execution of a search warrant or arrest
warrant – during task force investigations to avoid interfering with each
other and to protect officer safety.

      Within each of the three operational levels, we identified critical
factors that were important to coordination and noted the presence or
absence of these factors in each of the eight cities we visited.



U.S. Department of Justice                                                  ix
Office of the Inspector General
Evaluation and Inspections Division
Management of Task Force Operations

       We found the critical factor in task force management is whether
the U.S. Attorney’s Office oversees the coordination of task force
operations. U.S. Attorneys are the chief federal law enforcement officers
in each federal judicial district and, therefore, along with the
components’ task force managers, have a responsibility for coordinating
the four types of violent crime task forces. In four of the eight cities we
visited, task force operations are not well coordinated by U.S. Attorneys
and component task force managers. In Atlanta, Birmingham,
Las Vegas, and Los Angeles, the U.S. Attorneys’ Offices do not actively
coordinate task force operations. Instead, the components manage task
force investigations independently and attempt to resolve duplication of
effort through information-sharing systems or word of mouth.

       In contrast, the U.S. Attorneys’ Offices in the other four cities we
visited actively coordinate task force operations by conducting regular
meetings at which the task forces assume responsibility for specific
investigations or by assigning Assistant U.S. Attorneys to task forces to
provide oversight and coordination. For example, in Philadelphia, ATF,
DEA, FBI, and Philadelphia Police Department task force members
coordinate their operations and investigations of selected violent crimes,
firearms, and narcotics cases in the six Philadelphia Police Department
detective divisions in monthly meetings sponsored by the U.S. Attorney
and the Philadelphia Police Commissioner. The U.S. Attorney’s Offices in
Camden and Chicago also direct task force operations in their areas by
assigning specific investigations of violent or gang crimes to the task
forces at regular meetings. In Gary, the U.S. Attorney’s Office uses a
different coordination technique in which Assistant U.S. Attorneys work
directly with each task force and among themselves to coordinate task
force operations. Task force managers in Philadelphia, Camden,
Chicago, and Gary told us that the involvement of the U.S. Attorney’s
Office contributes greatly to the coordination of violent crime task force
operations.

       Similarly, under the leadership of the U.S. Attorneys, FBI and
USMS task force managers in Camden and Gary negotiated informal
agreements and use these agreements to coordinate local task force
fugitive investigations. Task force fugitive investigations were well
coordinated in only these two of the eight cities we visited. In contrast,
FBI and USMS task forces in the other six cities did not coordinate



U.S. Department of Justice                                                    x
Office of the Inspector General
Evaluation and Inspections Division
fugitive operations, and we found that they sometimes duplicated one
another’s efforts in those six cities.

Cooperation on Investigations by Task Forces

      The critical factor in achieving cooperation on individual task force
investigations is the use of information-sharing systems. While we
recognize that it is more difficult to cooperate using the small amounts of
information available on particular suspects early in investigations, we
found that some task forces used information-sharing systems to identify
opportunities to cooperate with other task forces.

       DEA task force members routinely enter data into information-
sharing systems in seven of the eight cities we visited. ATF, FBI, and
USMS task force members do not consistently use information-sharing
systems, even in locations that have policies requiring their use. These
failures result in duplicate investigations involving the same suspect by
different task forces. During our visits to the 8 cities, 128 task force
members told us of at least 45 duplicate investigations.

       The most common type of information-sharing system used in the
eight cities is a local HIDTA system. In three of the eight cities, all four
components’ task force members use the local HIDTA system to identify
suspects being investigated by various task forces, thereby allowing them
to avoid duplicate investigations. In Birmingham, Philadelphia, and
Las Vegas, members of the FBI Safe Streets Task Force responsible for
fugitive apprehensions do not use the HIDTA system to coordinate
investigations. The USMS Regional Fugitive Task Force members use the
HIDTA system in only three cities.

       The policies requiring coordination of investigations, particularly
through the use of the HIDTA information-sharing systems, are different
for every component. The components do not have nation-wide policies
requiring the use of the HIDTA or any other information-sharing system.
Although the DEA has a nation-wide policy that requires the
coordination of investigations, it has only local policies requiring the use
of HIDTA systems for that purpose. ATF and the FBI have local policies
requiring the use of the HIDTA system in five cities each (although not
the same five cities), and the USMS has a local policy in four cities.
Except for the HIDTA systems, we saw no other information-sharing
system being used by two or more task forces in any of the eight cities we
visited.


U.S. Department of Justice                                                  xi
Office of the Inspector General
Evaluation and Inspections Division
       We also found that the Department’s four types of violent crime
task forces rarely conduct joint investigations. When two task forces
identify a common interest in a suspect, one task force usually stops its
investigation. During our site visits, the 128 task force members we
interviewed reported 10 examples of joint investigations. The task forces
rarely conducted joint investigations even in instances where they
worked on similar investigations involving the same suspect. For
example, the USMS and FBI task forces that conduct fugitive
investigations cooperated with one another in joint investigations in only
one of the eight cities we visited. When we asked why task force
members did not conduct more joint investigations, the most commonly
cited reasons were a lack of trust regarding sharing law enforcement
sensitive information (such as the names of confidential informants),
potential interference with other investigations, and protection of “turf”
from other task forces with overlapping areas of responsibility. Task
force managers also pointed out that their task forces are conducting
investigations within their particular mission the majority of the time.

      Although we did not find that the components often worked
together on joint investigations, when they did, we found examples of
coordination that proved useful:

   •   In Camden, the ATF Violent Crime Impact Team and the DEA
       Mobile Enforcement Team cooperated in joint investigations. The
       ATF Violent Crime Impact Team Special Agent working with the
       DEA’s Mobile Enforcement Team was able to use the threat of
       prosecution on federal gun charges to facilitate investigations,
       while the DEA Mobile Enforcement Team Special Agent working
       with ATF’s Violent Crime Impact Team was able to provide critical
       information to an ongoing investigation. In addition to exchanging
       Special Agents and sharing information, the two task forces
       provided resources and personnel for each other’s specific
       investigations and operations.

   •   In Gary, a fugitive was wanted by the FBI because he was
       suspected of shooting an Indianapolis police officer. The FBI Safe
       Streets Task Force and the USMS Regional Fugitive Task Force
       planned a joint investigation and worked together to complement
       one another’s efforts. The fugitive was arrested in East Chicago,
       Indiana, and the Chief of Police praised the cooperation between
       the FBI and the USMS.



U.S. Department of Justice                                              xii
Office of the Inspector General
Evaluation and Inspections Division
      However, even decisions to conduct joint investigations did not
always lead to full cooperation. In Chicago, for instance, FBI Special
Agents and USMS Deputy Marshals participated in a joint FBI-USMS
murder investigation in which the USMS Regional Fugitive Task Force
and the USMS Electronic Surveillance Unit were supporting the
investigation with electronic surveillance. The supervisor of the USMS
Electronic Surveillance Unit stated that he and the FBI supervisor
coordinated their efforts but that USMS Deputy Marshals reported that
FBI Special Agents working in the field refused to share information
during the investigation. FBI task force managers stated to the OIG that
the FBI only participates in a joint investigation as the overall lead
agency. They also stated that because the FBI is the lead agency, FBI
Special Agents share information in accordance with FBI policy.

Event Deconfliction During Task Force Investigations

       We believe that the critical factor in event deconfliction is task
force compliance with policies mandating the use of a common
deconfliction system for every event. Event deconfliction alerts task force
members that a law enforcement operation they are planning – such as
an undercover operation, surveillance, or execution of a search warrant
or arrest warrant – may conflict with another operation planned by
another law enforcement agency at the same place and time. Unless all
law enforcement agencies operating in a geographic area notify one
another by telephone, radio, or through an information-sharing system of
their planned events, officer safety can be put at risk.

       In all eight cities we visited, DEA task force members deconflict
events as required by DEA national policy. ATF task force members also
deconflict planned events in all eight cities, although deconfliction is
required by local ATF policies in only four of the cities. USMS task force
managers have established local policies to deconflict events in five cities
we visited, and task force members comply with the policies in those
cities. The FBI has local policies to deconflict events in three cities, but
task force members consistently comply with the policy in only one city.

      The gaps in the task forces’ deconfliction efforts have led to
incidents that put officers’ safety at risk, including three blue-on-blue
incidents:

   •   In Atlanta, a USMS Regional Fugitive Task Force member told us
       that he was conducting surveillance in a fugitive’s neighborhood


U.S. Department of Justice                                                  xiii
Office of the Inspector General
Evaluation and Inspections Division
       when members of an FBI Safe Streets Task Force, who were also
       conducting surveillance, pulled him over because he was using a
       car similar to one associated with the fugitive. The USMS Regional
       Fugitive Task Force member stated that the FBI Safe Streets Task
       Force members ordered him to exit his car and identify himself.
       Neither the FBI nor the USMS requires its task force members to
       deconflict events, and neither of the task forces’ members
       voluntarily deconflicted their surveillance.

   •   In Chicago, an ATF Assistant Special Agent in Charge stated that
       an ATF confidential informant and an undercover ATF Special
       Agent bought a loaded gun from an FBI Safe Streets Task Force
       confidential informant. After the buy was completed, the ATF
       undercover agent was arrested. A few weeks earlier, FBI Safe
       Streets Task Force members had checked for investigations that
       overlapped those involving the confidential informant, but had not
       deconflicted the planned gun sale.

   •   In Las Vegas, the ATF Resident Agent in Charge stated that ATF
       conducted an undercover firearms operation at a gun show and
       deconflicted through LA Clear, the HIDTA system that covers
       Las Vegas as well as Los Angeles County. LA Clear did not identify
       any potential conflicts. At the show, ATF arrested an individual
       who made an illegal gun purchase from an undercover ATF agent.
       The individual then claimed to be an FBI confidential informant
       working at the show on behalf of the FBI. According to ATF,
       despite numerous conversations between ATF and the FBI after the
       incident, the FBI refused to explain why FBI Special Agents had
       not deconflicted their undercover operation and refused to confirm
       or deny that the suspect was an FBI confidential informant. An
       FBI Supervisory Special Agent told us that all agencies are
       secretive about their confidential informants and that many
       suspects claim they are confidential informants when they are not.

       We concluded that more consistent efforts by the task forces –
particularly FBI task forces – to deconflict events are needed to ensure
officer safety.

Coordination of Task Force Investigations in Eight Cities

     In this section, we describe the coordination efforts of the
components and the U.S. Attorneys in each of the eight cities we visited.


U.S. Department of Justice                                                 xiv
Office of the Inspector General
Evaluation and Inspections Division
We describe the level of task force coordination in each city, in order of
best coordinated city to least coordinated. In these descriptions, we
present information on task force management, cooperation on
investigations, and event deconfliction for each city.

Gary, Indiana

      The three types of task forces that operate in Gary (DEA, FBI, and
USMS) are well coordinated because of the emphasis placed on
cooperation by the U.S. Attorney’s Office and task force managers. 6

   •   Task Force Management – The U.S. Attorney’s Office has assigned
       one Assistant U.S. Attorney to work directly with each of the three
       task forces, and the three Assistant U.S. Attorneys exchange
       information to coordinate task force operations. Unlike in six of
       the other cities we visited, the FBI and the USMS in Gary have
       established a fugitive apprehension agreement, and task force
       members comply with the agreement.

   •   Cooperation on Investigations – Task force managers stated that
       local policies requiring the use of the HIDTA system to share
       information prevented duplicate investigations, although we were
       told of some overlapping investigations. Task force members do
       not often conduct joint investigations. For example, FBI Safe
       Streets Task Force members stated that they investigated firearms
       crimes discovered during ongoing FBI Safe Streets Task Force
       investigations rather than sharing information and working with
       the local ATF task force.

   •   Event Deconfliction – All task forces comply with local policies to
       use the local HIDTA system to deconflict events. Task force
       members told us there had been no blue-on-blue incidents.




       6 Also in Gary, the ATF operates a violent crime task force but does not have a
Violent Crime Impact Team.



U.S. Department of Justice                                                           xv
Office of the Inspector General
Evaluation and Inspections Division
Camden, New Jersey

      All four types of task forces operate in Camden. We found that
task force investigations are well coordinated.

   •   Task Force Management – Members of all four task forces attend
       monthly Weed and Seed meetings – sponsored by the
       U.S. Attorney’s Office, Camden County Prosecutor’s Office, and
       Camden Police Department – at which task force members
       exchange investigative information to coordinate operations. 7 In
       Camden, the FBI and the USMS have an informal agreement that
       the USMS will take the lead on fugitive investigations, except for
       nation-wide FBI fugitive investigations based on federal Unlawful
       Flight to Avoid Prosecution warrants.

   •   Cooperation on Investigations – Members of all four task forces
       consistently use the local HIDTA system to share information and
       identify opportunities for joint investigations. The DEA does this to
       carry out DEA nation-wide policy. The other three components do
       not have national policies that require task force members to share
       information, but local task force managers nonetheless require
       their members to use the HIDTA system to routinely share
       information on individual investigations. We found several
       examples of joint investigations by the task forces in Camden. For
       example, ATF Violent Crime Impact Team and DEA Mobile
       Enforcement Team members conducted four joint investigations of
       suspects involved in both drug and gun crimes. The DEA Mobile
       Enforcement Team arrests provided evidence and investigative
       leads that the ATF Violent Crime Impact Team used to develop
       firearms cases. The ATF Violent Crime Impact Team made
       undercover gun purchases through two drug organizations,
       developing intelligence that benefited the DEA Mobile Enforcement
       Team.

   •   Event Deconfliction – Special Agents, Deputy Marshals, and local
       police officials told us that they use the local HIDTA system for
       event deconfliction. Task force members told us there had been no
       blue-on-blue incidents.


       7 Weed and Seed is a Department-sponsored, multi-agency strategy devoted to
crime prevention and community revitalization.



U.S. Department of Justice                                                      xvi
Office of the Inspector General
Evaluation and Inspections Division
Philadelphia, Pennsylvania

     The three types of task forces that operate in Philadelphia (ATF,
DEA, and FBI) are generally well coordinated. 8

   •   Task Force Management – Task force members coordinate their
       operations and assign investigations of homicides and aggravated
       assaults to the task forces best situated to investigate the crimes
       during weekly meetings sponsored by the U.S. Attorney and the
       Philadelphia Police Commissioner.

   •   Cooperation on Investigations – ATF, the DEA, and the FBI have
       local policies requiring the use of the HIDTA information-sharing
       system, but the USMS does not. Special Agents and Deputy
       Marshals said they cooperate during individual investigations, but
       they sometimes duplicated one another’s efforts. For example, the
       ATF Violent Crime Impact Team and one FBI Safe Streets Task
       Force, which had overlapping gang investigations, shared
       information to facilitate gang investigations in Philadelphia’s
       12th Police District. In contrast, another FBI Safe Streets Task
       Force and the USMS District Fugitive Task Force, which both have
       fugitive apprehension responsibilities, reported several duplicate
       investigations.

   •   Event Deconfliction – Most of the task forces in Philadelphia have
       an event deconfliction policy that requires the use of the local
       HIDTA system. However, the FBI Safe Streets Task Force that
       focuses on fugitive investigations does not have a policy requiring
       the use of the HIDTA system and does not use the system to
       deconflict events. Instead, the FBI deconflicts through the
       Philadelphia Police Department, from whom the FBI receives its
       local fugitive cases. The FBI Violent Gang Safe Streets Task Force
       has a policy and uses the HIDTA system to deconflict events.
       Overall, most events are deconflicted by using the HIDTA system
       as local policy dictates, and task force members told us there had
       been no blue-on-blue incidents.




       8 Also in Philadelphia, the USMS operates a District Fugitive Task Force, but
does not have a Regional Fugitive Task Force.



U.S. Department of Justice                                                         xvii
Office of the Inspector General
Evaluation and Inspections Division
Los Angeles, California

      All four types of task forces operate in Los Angeles, and we found
that coordination of task force investigations is mixed.

   •   Task Force Management – We found limited direction of task force
       operations and target areas by the U.S. Attorney’s Office in
       Los Angeles. Officials of the U.S. Attorney’s Office told us that they
       do not need to coordinate task force operations because the task
       forces all follow the locally agreed-upon policy that requires task
       forces to use LA Clear for all federal and local investigations.
       However, one FBI Safe Streets Task Force is not using LA Clear to
       share information. Yet, an Assistant U.S. Attorney told us that
       Los Angeles is so large and there is so much criminal activity that
       “overlaps never happen” and that the idea that there could be
       overlaps “is an absurd notion.”

   •   Cooperation on Investigations – Special Agents in Charge, the
       U.S. Marshal, and task force members stated that they worked
       collegially, shared information, and shared resources with other
       task forces. However, task force members do not often conduct
       joint investigations. Task force supervisors and members said that
       because Los Angeles and its gang problem are so large, each task
       force has more than enough work and the chance of overlapping
       investigations is small. Nonetheless, we found some duplication of
       effort.

   •   Event Deconfliction – Even though there are multiple task forces in
       Los Angeles – two FBI Safe Streets Task Forces, two DEA Mobile
       Enforcement Teams, a USMS Regional Fugitive Task Force, and an
       ATF Violent Crime Impact Team – the task forces’ members stated
       that because their task forces use LA Clear to deconflict events,
       there had been no blue-on-blue incidents in Los Angeles.




U.S. Department of Justice                                              xviii
Office of the Inspector General
Evaluation and Inspections Division
Chicago, Illinois

      In Chicago, the DEA, FBI, and USMS operate three types of task
forces. 9 We found that while task force investigations related to gang
crime are well coordinated, other types of task force investigations are
not.

   •   Task Force Management – The U.S. Attorney’s Office sponsors
       monthly meetings to focus task force operations on the
       investigation of the “Top 20” gang members. Task force managers
       told us that these meetings contribute greatly to the coordination
       of anti-gang task force operations. ATF, DEA, and FBI task force
       managers told us that the components and task force members
       have developed close partnerships with the local police department
       and that the local police department serves as a coordinating
       mechanism for task force efforts. As a result of the “Top 20”
       meetings and the coordination efforts of the local police, we found
       little overlap in the anti-gang operations of federal task forces in
       Chicago. However, we found limited efforts to coordinate other
       violent crime task force operations.

   •   Cooperation on Investigations – Task force members stated that
       they are reluctant to work together in joint investigations, and they
       did not identify any examples of joint investigations. An ATF
       Supervisory Special Agent stated that his component “did not
       make a habit out of working with the other federal components.”
       An FBI Supervisory Special Agent stated, “If I can avoid it, I won’t
       work any joint investigations with other federal agencies.” The FBI
       Supervisory Special Agent went on to state that he believed his
       agency does “10 times a better job” than other components. USMS
       Regional Fugitive Task Force members admitted that there had
       been conflicts with the FBI in the past, but they believed that the
       problems were now “almost non-existent.” However, interviews
       with FBI Supervisory Special Agents indicated that problems still
       exist. An FBI Supervisory Special Agent stated that the creation of
       the USMS Regional Fugitive Task Force had caused “nothing but
       problems.”



       9  Also in Chicago, the ATF operates a violent crime task force but does not have
a Violent Crime Impact Team.



U.S. Department of Justice                                                           xix
Office of the Inspector General
Evaluation and Inspections Division
   •   Event Deconfliction – Task force members do not consistently
       deconflict task force events, despite policies requiring them to do
       so. Task force members working on gang-related investigations
       deconflict events, while task force members working on other types
       of investigations, such as fugitive investigations, do not. An FBI
       Supervisory Special Agent stated that, despite a local FBI policy
       requiring deconfliction using the HIDTA system, his task force does
       not use the system because of the possibility that the case will be
       stolen. As a result, there was one blue-on-blue incident (described
       on page xiv). ATF and FBI Special Agents and local officers stated
       that the blue-on-blue incident showed the need for improved
       coordination and deconfliction, and an FBI Supervisory Special
       Agent told us that the FBI strengthened its policy to require
       deconfliction and reiterated the need for deconfliction to all task
       force members “to avoid a similar mistake.”

Las Vegas, Nevada

      All four types of task forces operate in Las Vegas. Task force
investigations, particularly fugitive investigations, are not well
coordinated.

   •   Task Force Management – Although the task forces in Las Vegas
       have overlapping gang missions, the U.S. Attorney’s Office does not
       coordinate task force operations and instead resolves disputes on
       an ad hoc basis. For example, when the ATF Violent Crime Impact
       Team and the FBI Violent Gang Safe Streets Task Force duplicated
       efforts during gang crime investigations, the U.S. Attorney’s Office
       decided which investigation had the best chance of getting a
       conviction and asked that component to take the lead. FBI Special
       Agents and USMS Deputy Marshals recognized the duplication of
       effort in fugitive investigations and acknowledged to us that
       tensions exist between the two components. In addition, the Clark
       County Sheriff, local police supervisors, and the HIDTA Executive
       Director stated that the federal fugitive and anti-gang task forces’
       operations overlap, which creates a coordination problem. 10

   •   Cooperation on Investigations – The cooperation on task force
       investigations in Las Vegas is poor, and task force managers and

        The Clark County Sheriff heads the Las Vegas Metropolitan Police
       10

Department, which is a joint city and county police force.



U.S. Department of Justice                                                 xx
Office of the Inspector General
Evaluation and Inspections Division
       members provided several examples of failures to cooperate. ATF,
       DEA, and FBI Special Agents do not regularly share information on
       specific suspects under investigation and do not conduct joint
       investigations. The DEA specifically declines to work with the FBI
       Safe Streets Task Force because of tensions between the two
       agencies over previous investigations and disputes regarding the
       operation of a local intelligence center. However, DEA
       headquarters reported that the strained relationship in Las Vegas
       did not directly involve DEA Mobile Enforcement Team operations
       and that the cooperation level between the FBI and the DEA in
       Las Vegas is improving. We also found open hostility between FBI
       and USMS fugitive task force members, with both conducting
       investigations of fugitives wanted on state warrants only. The
       HIDTA Executive Director noted the animosity between members of
       the USMS and FBI task forces and stated that “something must be
       done to ensure officer safety.”

   •   Event Deconfliction – ATF, DEA, and USMS task force members
       routinely use the local HIDTA system to deconflict events for all
       investigations, and members of the FBI Violent Gang Safe Streets
       Task Force use the local HIDTA system to deconflict events during
       their gang investigations. FBI Special Agents assigned to the Safe
       Streets Task Force Criminal Apprehension Team told the OIG that
       they do not use the HIDTA system for fugitive operations because
       fugitive operations “happen too fast.” Task force members also told
       us about one blue-on-blue incident in Las Vegas (described on
       page xiv).

Atlanta, Georgia

       All four types of task forces operate in Atlanta. Overall, we found
that task force investigations are not well coordinated in Atlanta.

   •   Task Force Management – We found limited direction of task force
       operations and target areas in Atlanta. The U.S. Attorney’s Office
       holds monthly meetings attended by representatives from all
       federal law enforcement agencies, as well as bimonthly law
       enforcement leadership meetings attended by ATF, DEA, and FBI
       Special Agents in Charge and representatives from the State
       Attorney General’s Office and the Georgia Bureau of Investigation.
       However, task force managers and Assistant U.S. Attorneys told us
       that task force operations are discussed at these meetings only in


U.S. Department of Justice                                               xxi
Office of the Inspector General
Evaluation and Inspections Division
       general terms. Task force managers stated that the U.S. Attorney’s
       Office does not have a significant role in the coordination of task
       force investigations.

   •   Cooperation on Investigations – Only ATF has a local policy to
       coordinate investigations, but all of the components said they
       attempt to coordinate through word of mouth. Cooperative efforts
       are limited because the local Atlanta HIDTA does not have the
       capability to support information sharing to avoid duplicate
       investigations of the same suspect. A HIDTA official reported that
       he had proposed expanding the HIDTA’s deconfliction capability to
       include an information-sharing system to help avoid duplicate
       investigations. However, the FBI declined to participate, and
       because the HIDTA’s operations require consensus by all law
       enforcement agencies involved, the proposal was not implemented.

   •   Event Deconfliction – A DEA national policy and an FBI local policy
       require those components’ task forces to deconflict drug-related
       events. However, neither ATF nor the USMS has a policy requiring
       its task forces to deconflict events in Atlanta. FBI and USMS task
       force managers stated that overlapping fugitive operations among
       the FBI Safe Streets Task Force and the USMS Regional Fugitive
       Task Force created a coordination problem resulting in the blue-
       on-blue incident described on page xiv.

Birmingham, Alabama

      In Birmingham, the FBI and USMS have task forces in operation,
and two more task forces were planned – an ATF Violent Crime Impact
Team and an FBI Violent Gang Safe Streets Task Force. We found that
task force investigations in Birmingham are the least well coordinated of
any city we visited.

   •   Task Force Management – We found limited direction of task force
       operations and target areas in Birmingham. The U.S. Attorney’s
       Office sponsors only two meetings a year to set priorities and
       coordinate investigations that could overlap with Organized Crime
       Drug Enforcement Task Force (OCDETF) investigations. 11 In

       11 OCDETF is a federal drug enforcement program that focuses resources on the
disruption and dismantling of major drug trafficking organizations.




U.S. Department of Justice                                                      xxii
Office of the Inspector General
Evaluation and Inspections Division
       addition, the FBI and the USMS do not work together when
       establishing agreements with local law enforcement agencies
       regarding assistance with fugitive investigations. Instead, the FBI
       Safe Streets Task Force and the USMS Regional Fugitive Task
       Force have separate cooperative agreements with the police
       departments in Birmingham and the adjacent suburb of Hoover.
       At the time of our visit, ATF and the FBI had proposed anti-gang
       task forces in the same precincts, but were not coordinating to
       ensure the task forces do not overlap.

   •   Cooperation on Investigations – Although there is a local HIDTA
       system in Birmingham, task force members do not routinely use it
       to share information or identify opportunities for joint
       investigations. Because the FBI and the USMS did not cooperate
       in establishing the fugitive task force agreements described above,
       when a fugitive flees from Birmingham to Hoover, or vice versa, the
       fugitive task force responsible for assisting local law enforcement
       changes. The U.S. Marshal and the Hoover Chief of Police told us
       that this arrangement made fugitive investigations more difficult.

   •   Event Deconfliction – Only the DEA has an event deconfliction
       policy in Birmingham. The local DEA policy mandates the use of
       the HIDTA information-sharing system; however, the DEA is the
       only component whose task forces use the local HIDTA system.
       The other task forces deconflict operations by calling the local
       police departments individually. One DEA task force officer
       explained that to deconflict a reverse buy, he had to make 10
       phone calls. 12 The USMS Regional Fugitive Task Force’s members
       stated that they deconflict events by running a warrant check and
       then calling the other components and local law enforcement to
       alert them to upcoming operations. There were no reported blue-
       on-blue incidents in Birmingham.

CONCLUSION AND RECOMMENDATIONS

      The Department has operated 2 or more violent crime task forces
with overlapping missions in at least 84 cities without requiring the
components to coordinate task force operations, cooperate during
investigations, or deconflict events. In August 2005, the Department

       12  In a “reverse buy,” an undercover law enforcement officer acts as the seller of
drugs or firearms to apprehend suspected drug or firearm traffickers.



U.S. Department of Justice                                                           xxiii
Office of the Inspector General
Evaluation and Inspections Division
issued a policy requiring the components to obtain the Deputy Attorney
General’s approval to conduct anti-gang programs and activities in new
locations. To implement the 2005 policy, in June 2006 the Office of the
Deputy Attorney General established a detailed application process for
new anti-gang activities requiring support from and a recommendation
by the U.S. Attorney for the jurisdiction in which any new anti-gang task
forces would operate.

       However, outside of anti-gang activities, there are still no
Department policies requiring the coordination of the operations of other
violent crime task forces. As a result, we found inconsistent and
inadequate cooperation and deconfliction among the Department’s
violent crime task forces we reviewed. U.S. Attorneys and component
task force managers in four of the eight cities we visited do not actively
coordinate task force operations. In some cities, task forces fail to use
information-sharing systems and, as a result, conduct duplicate
investigations. Interviews with Special Agents and Deputy Marshals in
six of the eight cities as well as our review of the nation-wide data
showed that task forces do not often cooperate in joint investigations.
While task force members generally deconflict specific events during
investigations, we learned of three serious blue-on-blue incidents that
demonstrated the need to improve deconfliction efforts to ensure officer
safety.

      Our analysis of nation-wide task force arrest data also indicated
that the components’ coordination of task force investigations was
limited. We found 1,288 arrests had been reported by more than one
task force from FYs 2003 through 2005. Only 520 of these arrests
resulted from joint investigations, while 768 resulted from duplicate
investigations by two task forces.

      We believe that the Department should establish policies governing
the coordination of all task forces and their operations. Specifically, we
recommend that the Department:

   1. Require that the U.S. Attorney’s Office and the components’ task
      force managers in each jurisdiction with multiple violent crime
      task forces implement guidance for coordinating task force
      operations.




U.S. Department of Justice                                            xxiv
Office of the Inspector General
Evaluation and Inspections Division
   2. Require each component to use national and local information-
      sharing and deconfliction systems to coordinate investigations and
      protect officer safety.

   3. Require the components to submit all proposed violent crime or
      fugitive task forces to an assessment and approval process similar
      to that used by the Anti-Gang Coordination Committee.

   4. Require each component to examine compliance with Department
      and component policies on task force coordination during periodic
      internal management reviews.




U.S. Department of Justice                                           xxv
Office of the Inspector General
Evaluation and Inspections Division
                                 TABLE OF CONTENTS


BACKGROUND ......................................................................................1
  Department Efforts to Coordinate Task Forces ....................................2
  Four Types of Violent Crime Task Forces .............................................4
  Information Sharing in High Intensity Drug Trafficking Areas..............8
PURPOSE, SCOPE, and METHODOLOGY OF THE OIG REVIEW ........10
RESULTS OF THE REVIEW.................................................................13
  The Department’s Coordination Efforts..............................................14
  Nation-wide Task Force Arrest Data ..................................................24
  Coordination at the Task Force Level.................................................30
  Critical Factors in the Coordination of Task Force Investigations .......36
  Coordination of Task Force Investigations in Eight Cities...................44
CONCLUSION AND RECOMMENDATIONS ..........................................69
APPENDIX I: TASK FORCE LOCATIONS AS OF 9/30/05 ....................71
APPENDIX II: DETAILED METHODOLOGY .........................................79
APPENDIX III: OFFICE OF THE DEPUTY ATTORNEY GENERAL
                    RESPONSE ...................................................................83
APPENDIX IV: OIG ANALYSIS OF THE OFFICE OF THE
                    DEPUTY ATTORNEY GENERAL RESPONSE ..................88
APPENDIX V: ATF RESPONSE .............................................................91
APPENDIX VI: OIG ANALYSIS OF ATF RESPONSE...............................92
APPENDIX VII: DEA RESPONSE.........................................................93
APPENDIX VIII: OIG ANALYSIS OF DEA RESPONSE .........................101
APPENDIX IX: EOUSA RESPONSE ...................................................109
APPENDIX X: OIG ANALYSIS OF EOUSA RESPONSE .......................112
APPENDIX XI: FBI RESPONSE .........................................................118
APPENDIX XII: OIG ANALYSIS OF FBI RESPONSE…..........................125
APPENDIX XIII: USMS RESPONSE...................................................135
APPENDIX XIV: OIG ANALYSIS OF USMS RESPONSE......................138


U.S. Department of Justice
Office of the Inspector General
Evaluation and Inspections Division
                                 BACKGROUND


      The Department of Justice (Department) has been making
increasing use of different types of task forces − teams of federal, state,
and local law enforcement officers − to help tribal, state, and local
governments combat violent crime. In this review of the coordination of
investigations conducted by four types of Department violent crime task
forces, the Office of the Inspector General (OIG) assesses whether the
task force operations are well coordinated to avoid duplication of effort
and protect officer safety.

      This Background Section provides an overview of the Department’s
creation of task forces, the Department’s efforts to coordinate task force
operations, the task forces we reviewed, and the use of information-
sharing systems to coordinate investigations and deconflict law
enforcement events, such as undercover operations, surveillance, or
execution of arrest warrants.

      Table 2 lists various task force initiatives by the Bureau of Alcohol,
Tobacco, Firearms and Explosives (ATF); the Drug Enforcement
Administration (DEA); the Federal Bureau of Investigation (FBI); the
U.S. Marshals Service (USMS); and the U.S. Attorneys’ Offices (USAO).

     Table 2: Department of Justice (DOJ) Task Force Initiatives

     PROGRAM          CREATED     AGENCY                     PURPOSE
                                             Target mid- to upper-level drug
 State and Local                             trafficking using a high degree of local
                         1978         DEA
 Task Forces                                 law enforcement participation and
                                             leadership
                                             Target high-level drug traffickers and
 Organized Crime
                                             money laundering organizations through
 Drug Enforcement        1982         DOJ
                                             individual case collaboration and
 Task Forces
                                             funding
                                             Target fugitives by combining the
 District Fugitive
                         1983         USMS   resources of USMS district offices with
 Task Forces
                                             other federal, state, and local agencies
                                             Target armed violent offenders through
 Project Achilles        1986         ATF    case selection and strict federal firearms
                                             penalties




U.S. Department of Justice                                                              1
Office of the Inspector General
Evaluation and Inspections Division
     PROGRAM             CREATED      AGENCY                     PURPOSE
                                                 Target violent crime by combining
                                                 neighborhood-targeted law enforcement
 Weed and Seed             1991         DOJ
                                                 with human services and economic
                                                 development programs
                                                 Target gangs, violent crime, and violent
 Safe Streets Task
                           1992         FBI      fugitives using teams of federal, state,
 Forces
                                                 and local law enforcement officers
                                                 Develop locally tailored anti-violent
 Anti-Violent Crime
                           1994        USAO      crime strategies that are implemented by
 Initiative
                                                 federal, state, and local task forces
                                                 Provide short-term, collaborative
 Mobile
                                                 assistance to communities that request
 Enforcement               1995         DEA
                                                 DEA help to address drug-oriented
 Teams
                                                 violent crime
 Regional Fugitive                               Apprehend the most dangerous state
                           2000        USMS
 Task Forces                                     and federal fugitives
                                                 Develop locally tailored gun crime
                                                 reduction strategies that are
 Project Safe                                    implemented by local task forces
                           2001        USAO
 Neighborhoods                                   composed of federal, state, and local
                                                 prosecutors and law enforcement; the
                                                 media; and community leaders
                                                 Target homicides and other firearms-
 Violent Crime
                           2004         ATF      related violent crime with locally tailored
 Impact Teams
                                                 strategies


Department Efforts to Coordinate Task Forces

      In 1995, the Department created the Task Force Working Group of
the Department’s Office of Investigative Agency Policies (Task Force
Working Group) in recognition that “the proliferation of task forces
carries with it the risks of duplication of effort, inefficiency, and lack of
coordination at the operational level.” 13 The Task Force Working Group
was responsible for establishing a coordination mechanism and
developing guidelines to ensure that existing or proposed task forces
within a U.S. Attorney’s district did not duplicate one another.

       In 1996, the Task Force Working Group issued the final draft of
the General Guidelines on the Operation of Multi-Agency Task Forces
among Federal, State and Local Entities (Draft Guidelines). The Draft
Guidelines would have required that the component proposing a task
force submit a completed Task Force Information Form to the

       13   See Office of Investigative Agency Policies, Resolution 15, October 30, 1995.



U.S. Department of Justice                                                                  2
Office of the Inspector General
Evaluation and Inspections Division
U.S. Attorney in the federal judicial district where the task force would be
located. The Task Force Information Form would have listed the name of
the task force, the task force’s purpose, the component that would lead
the task force, and other components that would participate. Under the
proposed guidelines, a new task force would have needed written
concurrence from the U.S. Attorney before it could begin operations.

       In April 1998, the Director of the Office of Investigative Agency
Policies advised the Attorney General that the Executive Advisory Board
and the Executive Office for U.S. Attorneys believed that a detailed,
uniform process to coordinate task force operations was not necessary
and recommended that the Draft Guidelines not be issued. As a result,
the Draft Guidelines were not implemented.

      However, concerns regarding the coordination of task force
investigations have continued to the present. In May 2005, the Attorney
General created the Anti-Gang Coordination Committee to ensure the
coordination of anti-gang efforts by the Department. This committee
includes members from all Department components with anti-gang
responsibilities, including ATF, the DEA, the FBI, and the USMS.

       In an effort to ensure coordination, intelligence sharing, and event
deconfliction among anti-gang task forces, in June 2005 the Deputy
Attorney General directed components in federal judicial districts and
cities with multiple anti-gang task forces to co-locate these task forces in
a common facility. If co-location was not feasible, the district’s Anti-
Gang Coordinator (an Assistant U.S. Attorney designated by the
U.S. Attorney) was to establish a formal mechanism for coordinating
anti-gang activities.

      In August 2005, the Deputy Attorney General expanded
Department policy to include the creation of new anti-gang task forces
and the conduct of new anti-gang activities. The policy requires that new
anti-gang activities and programs, such as new ATF Violent Crime
Impact Teams and FBI Safe Streets Task Forces, be established only after
review by the Anti-Gang Coordination Committee and approval by the
Deputy Attorney General. In June 2006, the Office of the Deputy
Attorney General established a detailed process, provided application
materials, and directed the components to follow the application process
when proposing new anti-gang task forces. This process requires the
components to first submit plans for new anti-gang task forces to ATF,
DEA, and FBI Special Agents in Charge; the U.S. Marshals; and the
U.S. Attorneys in the proposed geographic areas of responsibility. Only


U.S. Department of Justice                                                 3
Office of the Inspector General
Evaluation and Inspections Division
then can plans for a new anti-gang task force be submitted for review by
the Anti-Gang Coordination Committee.

       As a result, Department components’ field offices that are seeking
to establish a new anti-gang task force must notify the U.S. Attorney for
that district before filling out the task force application. The field office
then completes a Gang Threat Assessment and presents the results to
the U.S. Attorney for consideration. If the U.S. Attorney agrees that a
new task force is needed, the field office completes the application by
providing a more detailed description of the proposed task force,
including mission, target area, and participating agencies. The field
office must also obtain the concurrence of other federal, state, and local
law enforcement agencies in the area. If a federal agency does not
concur with the proposal, the U.S. Attorney can proceed without the
concurrence of the dissenting agency or cease efforts to establish the new
task force. The U.S. Attorney must concur with the final application and
then forward the application to the Anti-Gang Coordination Committee
for consideration.

       Applications submitted to the Anti-Gang Coordination Committee
are first reviewed by its Task Force Recommendation Subcommittee,
which relies on violent crime statistics, input from local law enforcement
agencies, and other information when recommending to the full
Committee whether to grant or deny the application. Based on the
Subcommittee’s conclusions, the full Committee makes a formal
recommendation to the Deputy Attorney General, who makes the final
decision to grant or deny the application. Since the Anti-Gang
Coordination Committee’s inception, the Deputy Attorney General has
approved three ATF Violent Crime Impact Teams, one ATF-led anti-gang
task force, and eight FBI Safe Streets Task Forces. The Committee has
denied one application by ATF for a Violent Crime Impact Team in
Denver, Colorado.

Four Types of Violent Crime Task Forces

      The Department has been making increasing use of four types of
task forces. At the end of fiscal year (FY) 2005, 84 cities had more
than 1 violent crime task force operated by the Department and its
components, up from 20 cities at the beginning of FY 2003. At the
beginning of FY 2006, Department components operated 210 of these
4 types of task forces:




U.S. Department of Justice                                                 4
Office of the Inspector General
Evaluation and Inspections Division
   •   Violent Crime Impact Teams – ATF had 22 Violent Crime
       Impact Teams designed to reduce gun-related violent crime
       in 22 cities. 14

   •   Mobile Enforcement Teams – The DEA had 22 Mobile
       Enforcement Teams designed to reduce drug-related violent
       crime in target areas selected by the 21 DEA Field Offices.

   •   Safe Streets Task Forces – The FBI had 160 Safe Streets
       Task Forces that focused on investigating violent crimes and
       apprehending violent fugitives in 138 cities.

   •   Regional Fugitive Task Forces – The USMS had 6 Regional
       Fugitive Task Forces that focused on apprehending violent
       federal and state fugitives, including fugitives wanted by ATF
       and the DEA, in 23 federal judicial districts. 15

       Appendix I lists the locations of these task forces.

ATF Violent Crime Impact Teams

       The Deputy Attorney General created ATF’s Violent Crime Impact
Teams in June 2004 as a pilot program designed to reduce homicides
and other firearms-related violent crime in 15 cities. 16 In December
2004, ATF extended the initiative indefinitely. At the beginning of
FY 2006, there were ATF Violent Crime Impact Teams in 22 cities. The
Office of the Deputy Attorney General and ATF selected the initial cities
based on an examination of crime statistics, particularly homicide and
other violent crime. Since August 2005, the Deputy Attorney General
has required that the Anti-Gang Coordination Committee review plans
for new ATF Violent Crime Impact Teams.


       14    The OIG recently evaluated the Department’s ATF Violent Crime Impact Team
Initiative. See Department of Justice, Office of the Inspector General, Review of the
Bureau of Alcohol, Tobacco, Firearms and Explosives’ Violent Crime Impact Team
Initiative, I-2006-005, May 2006.

       15 The OIG has evaluated the performance of some USMS Regional Fugitive

Task Forces. See Department of Justice, Office of the Inspector General, Review of the
United States Marshals Service’s Apprehension of Violent Fugitives, I-2005-008, July
2005.

       16   28 U.S.C. § 599A.



U.S. Department of Justice                                                               5
Office of the Inspector General
Evaluation and Inspections Division
       Several elements are meant to differentiate the ATF Violent Crime
Impact Team initiative from standard ATF law enforcement operations.
These elements include: (1) targeting specific geographic areas, such as
neighborhoods or communities, with a high rate of firearms violence;
(2) targeting the worst violent offenders in those areas; (3) building
effective working relationships with community leaders; and (4) working
in partnership with other Department components. The DEA, the FBI,
the USMS, and the Executive Office for U.S. Attorneys agreed to provide
assistance to ATF Violent Crime Impact Teams in each city, as resources
allowed.

DEA Mobile Enforcement Teams

       The DEA established the DEA Mobile Enforcement Team program
in 1995 to help local law enforcement agencies, particularly in rural
areas, confront drug trafficking problems that were beyond their
immediate capabilities. 17 Each of the DEA’s 21 field divisions has a DEA
Mobile Enforcement Team, consisting of approximately 10 DEA Special
Agents and a supervisor. 18 The DEA Mobile Enforcement Team can be
deployed to any location within the field division’s jurisdiction. Local law
enforcement officials, including chiefs of police, sheriffs, district
attorneys, and state attorneys, can submit a written request to the DEA
for a DEA Mobile Enforcement Team deployment. DEA supervisors can
also recommend deployments. DEA Mobile Enforcement Teams can be
requested for many reasons, including budget limitations that make it
difficult for local jurisdictions to conduct a comprehensive investigation
of the targeted drug trafficking organization or the inability to conduct
undercover operations because local drug dealers recognize the local
jurisdiction’s narcotics officers.

       Prior to a deployment, DEA Mobile Enforcement Team Special
Agents visit the proposed city to meet with local law enforcement
officials, the nearest DEA field office, local prosecutors, and the
U.S. Attorney’s Office. This pre-deployment review determines the extent
of violence in the community, ensures that there are clear ties between
the violence and the targeted drug trafficking organization, and confirms
that the problem is beyond the immediate capabilities of both the local
law enforcement agencies and the nearest DEA field office. If the DEA
Special Agents agree that a deployment is warranted, they submit a

       17   21 U.S.C. § 801 et seq.

       18   The Los Angeles Field Division has two Mobile Enforcement Teams.



U.S. Department of Justice                                                     6
Office of the Inspector General
Evaluation and Inspections Division
formal, intelligence-based assessment to DEA headquarters for approval
and funding. During FYs 2003 through 2005, the DEA completed 110
DEA Mobile Enforcement Team deployments. The average deployment
lasted 6.2 months.

FBI Safe Streets Task Forces

      The FBI created the FBI Safe Streets Task Force program in 1992
to reduce violent crime associated with: (1) gangs whose activities
constitute criminal enterprises; (2) fugitives; and (3) individuals who
commit federal crimes such as bank robbery, kidnapping, or assaults on
federal officers. 19 There are three types of FBI Safe Streets Task Forces:
Violent Gang, Violent Crime, and Major Theft. The mission of the FBI
Violent Gang Safe Streets Task Forces is to reduce gang-related violence
by targeting the most violent gangs whose activities constitute criminal
enterprises. The FBI Violent Crime Safe Streets Task Forces focus on
reducing violent crime associated with violent fugitives, bank robberies,
and interstate commerce. The mission of the FBI Major Theft Safe
Streets Task Forces is to reduce major thefts conducted by criminal
enterprises whose targets include cargo, jewelry, and art that cross state
or national boundaries. At the beginning of FY 2006, there were 160 FBI
Safe Streets Task Forces. FBI Safe Streets Task Forces are primarily
made up of FBI Special Agents and local law enforcement officers.

       In 2004, FBI headquarters began requiring that FBI Special Agents
in Charge of its field offices develop proposals for new FBI Violent Gang
and Violent Crime Safe Streets Task Forces that FBI headquarters must
approve before any new task forces are established. The proposals
include an analysis of the crime problem within the FBI Safe Streets
Task Force area; a list of the federal, state, and local agencies that would
participate on the FBI Safe Streets Task Force; and a list of existing task
forces in the area with which the new FBI Safe Streets Task Force would
have to coordinate. Since August 2005, new FBI Violent Gang Safe
Streets Task Force activities have also been subject to approval by the
Deputy Attorney General.




       19   28 U.S.C. § 533.




U.S. Department of Justice                                                 7
Office of the Inspector General
Evaluation and Inspections Division
USMS Regional Fugitive Task Forces

       Congress created the USMS Regional Fugitive Task Forces through
the Presidential Threat Protection Act of 2000. 20 Run by the USMS, their
purpose is to apprehend the most dangerous fugitives by combining the
efforts of federal, state, and local law enforcement personnel in two or
more federal judicial districts. USMS Regional Fugitive Task Forces
apprehend fugitives wanted on USMS warrants or warrants issued by
any of the federal, state, and local law enforcement agencies with which
the USMS has established a fugitive apprehension Memorandum of
Understanding.

      At the end of FY 2005, there were five USMS Regional Fugitive
Task Forces covering the New York/New Jersey, Pacific Southwest, Great
Lakes, Southeast, and Capital Area regions. In FY 2006, Congress
created the Gulf Coast Regional Fugitive Task Force.

Information Sharing in High Intensity Drug Trafficking Areas

       Of particular note to our review is the task forces’ use of High
Intensity Drug Trafficking Areas (HIDTA) information-sharing systems to
coordinate investigations. In 1988, Congress authorized the Director of
the White House’s Office of National Drug Control Policy to designate
HIDTAs within the United States. HIDTAs are cooperative efforts of the
law enforcement community in particular areas that exhibit serious drug
trafficking problems that harmfully affect other areas of the country.
Each HIDTA is controlled by an Executive Board that is made up of
officials from federal agencies and state or local agencies. Federal, state,
and local law enforcement agencies use HIDTA funds for infrastructure
and joint initiatives (including task forces) to combat drug trafficking
organizations in specific geographic areas. Since 1990, 28 areas have
been designated as HIDTAs.

      The HIDTA Program also facilitates cooperation and coordination
among federal, state, and local law enforcement agencies by funding
information-sharing systems. Law enforcement agencies can use these
systems to coordinate their drug-related violent crime investigations.
Some HIDTAs have the capability to support information sharing on all
violent crime investigations.



       20   Pub. L. 106–544 § 6.



U.S. Department of Justice                                                 8
Office of the Inspector General
Evaluation and Inspections Division
       Some HIDTAs’ information-sharing systems include databases that
allow law enforcement officers to search for a suspect by name, date of
birth, or other identifiers to determine whether any other law
enforcement agencies have expressed an interest in the same suspect.
Generally, HIDTAs with suspect databases require law enforcement
officers querying the database to record their interest in the suspect in
the database in case other officers search for the same suspect later. A
significant exception to the general practice is LA Clear, the Los Angeles
and Las Vegas HIDTA information-sharing system. LA Clear permits law
enforcement officers or Special Agents to make a suspect inquiry without
submitting any information that would alert others that the inquiry was
made.

       Some HIDTAs’ information-sharing systems also include event
deconfliction databases that track the time and location of all law
enforcement events, such as surveillance, warrant sweeps, buy-busts,
and reverse buys in a geographic area. 21 A law enforcement officer
reports an event to the HIDTA by providing the time and location of the
planned event, as well as a cell phone number where the officer can be
reached immediately. The database searches a specified radius to
determine if there is a conflict or “hit” with any other events. 22 If there is
a hit, a HIDTA analyst telephones the officers that submitted the
overlapping event and provides them with one another’s contact
information. The officers involved are responsible for contacting each
other and working out the potential conflict directly.




       21 In a “reverse buy,” an undercover law enforcement officer acts as the seller of

drugs or firearms to apprehend suspected drug or firearm traffickers.

        22 Each HIDTA sets its own radius for what constitutes a “hit.” For example,

the Philadelphia/Camden HIDTA reports a hit only if the address of an event matches
exactly. The Los Angeles and Nevada HIDTAs report a hit if events are occurring less
than 1,000 yards apart.



U.S. Department of Justice                                                              9
Office of the Inspector General
Evaluation and Inspections Division
    PURPOSE, SCOPE, AND METHODOLOGY OF THE OIG REVIEW


Purpose

      In the Conference Report on the Department’s FY 2006
appropriations bill, the House and Senate Appropriations Committees
directed that the OIG assess the coordination of investigations conducted
by four types of violent crime task forces: ATF Violent Crime Impact
Teams, DEA Mobile Enforcement Teams, FBI Safe Streets Task Forces,
and USMS Regional Fugitive Task Forces. 23 This report responds to
Congress’s request and assesses whether the task force operations are
well coordinated. In this report, “well coordinated” means that task
forces avoided duplicate investigations, cooperated in joint investigations,
and deconflicted events to protect officer safety.

Scope

       We reviewed the Department’s and the components’ policies on
task force coordination, compliance with these policies, and local task
force and field office efforts to coordinate investigations through FY 2006.
We also analyzed nation-wide arrests reported in FYs 2003 through 2005
by the ATF Violent Crime Impact Teams, the DEA Mobile Enforcement
Teams, the FBI Safe Streets Task Forces, and the USMS Regional
Fugitive Task Forces and assessed local task force operations in eight
cities through the time of our site visits to each city. This report also
includes some of the information the components provided in response to
our request for comments on the draft report.

Methodology

       To assess the components’ coordination efforts, we conducted
interviews, site visits, and data analyses.

      Interviews. We conducted 234 in-person and telephone interviews
with officials from the Office of the Deputy Attorney General; the
Department’s Office of the Chief Information Officer; senior ATF, DEA,
FBI, and USMS managers in headquarters units and in field offices; non-
supervisory Special Agents and Deputy Marshals in field offices; and
U.S. Attorney’s Office officials. Additionally, we interviewed non-


       23   See House Report No. 109-272, at 67 (2005).



U.S. Department of Justice                                               10
Office of the Inspector General
Evaluation and Inspections Division
Department personnel from the Office of National Drug Control Policy
and the HIDTAs, and local and state law enforcement officials who
participated on the task forces.

       Site Visits. We conducted site visits to eight cities with two or
more task forces from February 2006 through May 2006 (Table 3). The
primary criterion for site selection was the variety of task forces operating
in the city. We identified the names and locations of task forces
operating within cities across the country. Our final selection took into
account geographic diversity (i.e., East coast, Midwest, South, and West
coast), the population of the cities, and the components’
recommendations. We selected four cities that have all four task forces
(Atlanta, Georgia; Camden, New Jersey; Las Vegas, Nevada; and
Los Angeles, California), three cities that have three task forces (Chicago,
Illinois; Gary, Indiana; and Philadelphia, Pennsylvania), and one city that
has two task forces and one planned task force (Birmingham, Alabama).

  Table 3: Task Forces in the Eight Cities Visited During FY 2006

                     ATF Violent       DEA Mobile    FBI Safe    USMS Regional
      CITIES           Crime          Enforcement     Streets     Fugitive Task
                    Impact Team          Team       Task Force       Force

 Atlanta, GA
 Birmingham, AL        Planned
 Camden, NJ
 Chicago, IL
 Gary, IN
 Las Vegas, NV
 Los Angeles, CA
 Philadelphia, PA


      In each city, we interviewed personnel from ATF, the DEA, the FBI,
the USMS, the U.S. Attorney’s Office, HIDTA, and state and local law
enforcement agencies from the city and surrounding jurisdictions to
evaluate the coordination among the components’ field and task force
operations. Some cities did not have all four types of task forces within
the scope of our review. In those cities, we assessed the components’
coordination of violent crime operations with the task forces within the
scope of this review.

       Based on our site visits and other field work, we developed 28
criteria that indicated the presence or absence of coordination. Using


U.S. Department of Justice                                                    11
Office of the Inspector General
Evaluation and Inspections Division
these criteria, we analyzed the data we collected in each city we visited to
assess the coordination of task force investigations by each component in
each city and to rank the components’ combined coordination efforts in
the eight cities.

       Data Analysis. To identify instances of cooperation or duplication
of effort among the task forces, we also examined data from FYs 2003
through 2005 to find instances in which more than one component task
force investigated the same individual. Because task forces often do not
know the identity of the individual they are seeking early in an
investigation (which precludes fully identifying overlapping ongoing
investigations), and because of the components’ sensitivity regarding
data related to their ongoing investigations, we focused our analysis on
investigations that had culminated in the arrest of an individual. We
used statistical analysis software to compare lists of arrestees provided
by each component to identify instances in which more than one task
force reported making the same arrest. We identified arrests reported by
more than one task force based on one of three methods: matching
Social Security Numbers recorded by both components, matching FBI
Numbers recorded by both components, or matching names and dates of
birth recorded by both components. 24 We provided the results to the
components and asked them to review their case files and provide
explanations for arrests reported by more than one task force. We
analyzed the components’ responses and identified duplicate
investigations, in which at least one task force did not report any efforts
to cooperate, and joint investigations, in which both task forces reported
working together. A detailed methodology is included in Appendix II.

      Background Research. Our background research included reviews
of reports, Department policies, congressional testimony and
appropriations legislation, press releases, speech transcripts, and
newspaper articles.




        24 The FBI Number is a unique identification number assigned to each

individual who has a record in the FBI’s Integrated Automated Fingerprint Identification
System, a nation-wide database of fingerprint and criminal history records of
individuals who have been arrested. Because it is tied to fingerprint records, an
individual’s FBI Number is less susceptible to identity fraud than a date of birth or a
Social Security Number.



U.S. Department of Justice                                                           12
Office of the Inspector General
Evaluation and Inspections Division
                          RESULTS OF THE REVIEW


     Department coordination of task force investigations was
     not fully effective in preventing duplication of effort. In
     FY 2005, there were 84 cities with 2 or more violent crime
     task forces operated by ATF, the DEA, the FBI, and the
     USMS. Although the missions of these task forces overlap,
     the Department does not require the components to
     coordinate    task    force   operations,   cooperate    on
     investigations, or deconflict law enforcement events. In
     August 2005, the Department issued a policy requiring the
     Deputy Attorney General’s approval for new anti-gang
     activities.   However, coordination issues continued to
     occur, and in June 2006 the Department began requiring a
     recommendation by the U.S. Attorney for the jurisdiction in
     which any new anti-gang task force would operate.

     As a result of the lack of Department-level policies
     requiring coordination, the components’ coordination of
     task force investigations is inadequate. Some components
     have nation-wide policies that require coordination of task
     force operations.     ATF, DEA, and USMS headquarters
     managers entered into Memorandums of Understanding
     that require their task forces to coordinate their
     operations. In contrast, the FBI’s policy does not address
     FBI coordination with new task forces created by the other
     Department components or FBI participation in or
     coordination of investigations with violent crime task
     forces led by other components.

     Our analysis of nation-wide task force arrest data and our
     site visits indicated that the components’ coordination of
     task force investigations is uneven. The nation-wide arrest
     data showed that the task forces duplicated one another’s
     efforts more often than they cooperated in joint
     investigations. At the local level, task force operations in
     some     cities  are   better   coordinated    because   the
     U.S. Attorneys and local task force managers have local
     policies on coordination.      In other cities, task forces
     conducted duplicate investigations and failed to deconflict
     events, resulting in three “blue-on-blue” incidents.



U.S. Department of Justice                                          13
Office of the Inspector General
Evaluation and Inspections Division
       In the sections that follow, we present our findings regarding the
Department’s and the components’ efforts to coordinate task force
investigations. We then present our observations of task force operations
at the task force level, the investigation level, and the law enforcement
event level. In the final section, we describe the combined coordination
efforts of the components and the U.S. Attorneys in each of the eight
cities we visited.

The Department’s Coordination Efforts

      Overall, the Department did not adequately coordinate the
operations of existing and new task forces created in the same
jurisdictions. As the number of cities with multiple task forces has
increased, concerns have arisen among Department officials, members of
Congress, and local police chiefs that the Department’s task force
investigations must be well coordinated to avoid duplication of effort.

       Although the number of violent crime task forces operated by the
Department was steadily increasing, before May 2005 there were no
Department-level policies requiring the components to coordinate the
operations or investigations of violent crime task forces. In August 2005,
the Department issued a policy requiring the components to obtain the
Deputy Attorney General’s approval to conduct anti-gang programs and
activities in new locations. However, even after August 2005
coordination issues occurred related to anti-gang task force activities in
at least three cities.

       The issues arose when the FBI approached local law enforcement
officials in three cities about providing local officers to participate in new
or revitalized FBI Violent Gang Safe Streets Task Forces. Each of these
instances resulted in either the U.S. Attorney or the local Chief of Police
expressing concern about the coordination of task force activities. To
improve coordination of the Department’s anti-gang activities, in June
2006 the Office of the Deputy Attorney General established a detailed
application process for new anti-gang activities requiring support from
and a recommendation by the U.S. Attorney for the jurisdiction in which
any new anti-gang task force would operate. However, the current anti-
gang task force guidance does not address the larger problem of the
coordination among other violent crime task forces.




U.S. Department of Justice                                                  14
Office of the Inspector General
Evaluation and Inspections Division
The Department operated task forces with overlapping missions without
requiring them to coordinate their operations.

       From FYs 2003 through 2005, the number of cities with more than
one violent crime task force more than quadrupled. In FY 2005, the
Department and its components operated more than 1 violent crime task
force in 84 locations, up from 20 in FY 2003. ATF, the DEA, the FBI,
and the USMS and their task forces have overlapping violent crime
jurisdictions and missions, as illustrated in Table 4.

             Table 4: Violent Crime Missions by Component

 MISSIONS                             ATF    DEA         FBI       USMS
 Armed violent offenders
 Narcotics traffickers/drugs
 Violent gang crime
 Arms traffickers
 Homicide/murder
 Interstate robbery
 Racketeering
 Money laundering
 Federal fugitives
 State and local fugitives


      Despite the overlapping missions, the Department did not
adequately coordinate the operations of existing and new task forces
created in the same jurisdictions. Specifically, the Department did not
require coordination of the operations of the ATF Violent Crime Impact
Teams or the USMS Regional Fugitive Task Forces even though other
task forces were already operating in the same cities. As a result, prior
to FY 2006, 5 USMS Regional Fugitive Task Forces and 13 ATF Violent
Crime Impact Teams were created in the same cities as 58 existing FBI
Safe Streets Task Forces with overlapping missions.

       When Congress directed the Department to create the USMS
Regional Fugitive Task Forces, the Department did not evaluate the
missions of 40 task forces that were already operational in the same
cities. The 40 existing task forces included 6 FBI Safe Streets Task
Forces with fugitive apprehension responsibilities. The congressionally
defined mission of the newer USMS Regional Fugitive Task Forces
overlaps with the mission of the six existing FBI Safe Streets Task Forces
with fugitive apprehension responsibilities. The overlapping missions of
these task forces increased the need to coordinate task force operations.


U.S. Department of Justice                                                15
Office of the Inspector General
Evaluation and Inspections Division
In two of the eight cities we visited, FBI Safe Streets Task Forces and
USMS Regional Fugitive Task Forces effectively coordinated their
operations by agreeing that the USMS task force would pursue most
state and local fugitives while the FBI would lead and the USMS task
force would support more complex criminal investigations. Relations
between the task forces in these two cities were excellent, as
demonstrated by the following remarks made to the OIG review team:

   •   A Chief Deputy U.S. Marshal stated, “We have a great relationship
       with the [the FBI Safe Streets Task Force].”

   •   An FBI Special Agent assigned to a USMS Regional Fugitive Task
       Force stated, “I bring my caseload here. My caseload is guys we
       know have skipped, and we’re using the USMS resources to catch
       the guy.”

      In the other cities, however, relations between the fugitive task
forces were tenuous, as demonstrated by the following remarks made to
the OIG review team:

   •   An FBI Supervisory Special Agent stated that the USMS “doesn’t
       have the capability to chase fugitives in this town.”

   •   A USMS Chief Inspector stated, “The [Regional Fugitive Task Force]
       does a better job with fugitives.”

   •   A USMS Chief Inspector stated that the FBI works “differently” and
       a partnership with them is not always a “good marriage.”

   •   An FBI Supervisory Special Agent described the fugitive task
       forces’ relationship this way: “Essentially, they try to stay out of
       each other’s way.”

   •   An FBI Supervisory Special Agent stated that the creation of the
       Regional Fugitive Task Force had caused “nothing but problems.”

   •   An FBI Supervisory Special Agent stated that the USMS
       misrepresented the FBI when meeting with other law enforcement
       agencies: “The USMS tells the locals that the FBI isn’t doing
       fugitives anymore, but that’s not true.”




U.S. Department of Justice                                                    16
Office of the Inspector General
Evaluation and Inspections Division
   •   A U.S. Marshal stated that the FBI “condescendingly” asked the
       USMS to “roll” the Regional Fugitive Task Force into the FBI’s
       fugitive efforts. “It was an insult to us.”

   •   A Chief Deputy U.S. Marshal stated that the Regional Fugitive Task
       Force obtains federal warrants for some state and local fugitives “to
       keep the FBI from getting the case.”

   •   A HIDTA Executive Director stated that tensions between the FBI
       and USMS fugitive task forces had escalated to the point that he
       was concerned about officer safety.

       The Department’s creation of ATF Violent Crime Impact Teams
with missions similar to existing task forces also created coordination
problems. The Department did not require ATF to coordinate the
locations or operations of ATF Violent Crime Impact Teams with the DEA
and the FBI task forces already operating in the same cities. For
example, the Department created a new ATF Violent Crime Impact Team
with a gang crime focus in one city with an established FBI Violent Gang
Safe Streets Task Force. The ATF Special Agent in Charge admitted that
there was potential for their investigations to duplicate one another. An
FBI Supervisory Special Agent stated, “I am truly concerned that we are
seriously going to be duplicating [each other’s investigations of] gangs.”

      The lack of Department-level coordination of new task forces
sometimes reduced existing cooperative efforts. For example, in one city,
the ATF Special Agent in Charge assigned an ATF Special Agent to the
USMS Regional Fugitive Task Force when it was created. The ATF
Special Agent served as a member of the USMS task force for 3 years.
However, the ATF Special Agent stated that he was pulled off the USMS
Regional Fugitive Task Force when the ATF Special Agent in Charge
disagreed with the U.S. Marshal’s decision not to provide a full-time
Deputy Marshal to the newly established ATF Violent Crime Impact
Team.

       In another city, the USMS and local law enforcement agencies were
members of an FBI Safe Streets Task Force that focused on fugitives.
When the USMS established its USMS Regional Fugitive Task Force, its
members left the FBI Safe Streets Task Force, and the majority of the
local law enforcement officers agreed to work with the USMS task force.
The FBI did not join the USMS Regional Fugitive Task Force. Instead, it
continued to focus on fugitives with a smaller FBI Safe Streets Task
Force.


U.S. Department of Justice                                               17
Office of the Inspector General
Evaluation and Inspections Division
The Anti-Gang Coordination Committee tried to coordinate the
overlapping missions of some task forces and was partially effective.

       We found that the August 2005 policy was not fully effective at
eliminating coordination concerns related to anti-gang task forces. Of
the four components, at least two initiated new anti-gang activities
between the time the Deputy Attorney General’s memorandum was
issued in August 2005 and the time the more detailed procedures were
issued in June 2006. In two cities, ATF and U.S. Attorneys proposed
new ATF Violent Crime Impact Teams to the Office of the Deputy
Attorney General for approval pursuant to the August 2005 policy. In
three other cities, the FBI approached local law enforcement officials
about participating in FBI Violent Gang Safe Streets Task Force activities
prior to discussing its plans with local U.S. Attorneys.

       The Acting Chairwoman of the Department’s Anti-Gang
Coordination Committee reported that after issuance of the August 2005
policy, the U.S. Attorneys for Tulsa, Oklahoma, and Spokane,
Washington, expressed concern that anti-gang task force activities in
their cities were not coordinated. We contacted the U.S. Attorneys and
they confirmed that they had expressed concern over the FBI’s anti-gang
task force activities. We also found that the FBI planned to conduct new
anti-gang activities in Birmingham, Alabama, and the Chief of Police
there confirmed that she had assigned police officers to a revitalized FBI
Safe Streets Task Force. In each of the three cities, the lack of
coordination resulted in competition with other components’ task forces
for the participation of local law enforcement officers.

       In Tulsa, the FBI planned to establish a Violent Gang Safe Streets
Task Force. The U.S. Attorney stated that the FBI did not coordinate
efforts to establish this task force through the U.S. Attorney’s Office. The
U.S. Attorney learned about the FBI’s efforts when the Chief of Police
complained to him after being approached by the FBI. The Chief told the
U.S. Attorney that an FBI Supervisory Special Agent had requested police
officers for a new FBI Safe Streets Task Force. The FBI Supervisory
Special Agent had indicated to the Chief that the Sheriff’s Office had
already signed a Memorandum of Understanding and provided task force
officers. The Chief of Police also stated that the FBI Supervisory Special
Agent represented that the U.S. Attorney was aware of the new FBI Safe
Streets Task Force. The Chief said that he told the U.S. Attorney that he
preferred to continue the joint anti-gang efforts between his department
and the ATF Violent Crime Impact Team, established in 2004. A few
weeks after the Chief complained, the FBI Resident Agent in Charge met


U.S. Department of Justice                                               18
Office of the Inspector General
Evaluation and Inspections Division
with the U.S. Attorney to let him know that the FBI planned to request
local task force members from the police department. The U.S. Attorney
reported that the FBI’s efforts stalled because the police department was
reluctant to join the task force.

        In Spokane, the FBI planned to create an FBI Violent Gang Safe
Streets Task Force and contacted local law enforcement officers in the
fall of 2005. The U.S. Attorney for the Eastern District of Washington
told the OIG that, as the result of the FBI’s attempt to form a new anti-
gang task force in Spokane, he received many calls from multiple law
enforcement sources expressing concerns. Because local law
enforcement personnel and resources were limited, the U.S. Attorney told
us that he did not want “proven and successful task forces to be robbed
of their officers.” An Assistant U.S. Attorney stated that he informed FBI
task force officials that they had to coordinate the creation of the new
task force and their request for local personnel with the other
components and the U.S. Attorney’s Office in accordance with the
Deputy Attorney General’s August 2005 memorandum. According to the
Assistant U.S. Attorney, FBI task force managers stated that they were
not aware of the memorandum. The U.S. Attorney therefore spoke with
the components’ Special Agents in Charge and explained that if they were
going to create new task forces, they had to be coordinated. Ultimately,
the FBI decided not to create a Safe Streets Task Force in Spokane.

       We also identified a coordination problem in Birmingham. The FBI
Assistant Special Agent in Charge in Birmingham stated that in early
2006 the FBI revitalized the activities of its Violent Crime Safe Streets
Task Force, changed its focus to gang crime investigations, and
requested local police officers for the revitalized task force. The
Birmingham Chief of Police stated that the FBI asked her to provide local
officers for its “new” FBI Violent Gang Safe Streets Task Force. The Chief
granted the FBI’s request. She said this later prevented her from
assigning officers to the USMS Regional Fugitive Task Force created in
2006. The Chief stated that she would not have assigned as many
officers to the FBI Safe Streets Task Force if she had known that the
USMS would also be requesting local task force officers.

      In June 2006, the Office of the Deputy Attorney General issued
procedures to improve the coordination of anti-gang task force activities
and reduce the competition for local law enforcement participants. On
March 23, 2007, the Associate Deputy Attorney General responsible for
task force coordination reported that, “Since those procedures have been
in place, the Department of Justice components have exhibited 100%


U.S. Department of Justice                                             19
Office of the Inspector General
Evaluation and Inspections Division
compliance with the policies on new anti-gang task forces and all new
anti-gang task forces have been subject to review by the Anti-Gang
Coordination Committee and approval by the Deputy Attorney General.”

       The current guidance does not address the larger problem of
competition for resources among other violent crime task forces. Special
Agents in Charge, U.S. Marshals, and task force officials we interviewed
stated that competition for local task force members exists because local
task force officers are critical to the success of the Department’s task
forces. Local law enforcement agencies are therefore offered significant
financial and training incentives to encourage them to participate.
Several ATF and DEA Special Agents and Deputy Marshals responsible
for task force operations told us that ATF, the DEA, and the USMS
coordinated their requests for local task force members, but that FBI
Special Agents cannot always be relied upon to do so. In response to this
criticism, FBI headquarters managers pointed out that under the
Director’s November 16, 1993, memorandum establishing the FBI’s
national gang strategy, FBI “field offices will ensure that all [f]ederal,
state, and local law enforcement agencies are provided the opportunity to
participate and contribute to this [the FBI’s] investigative effort.” An FBI
Safe Streets Task Force headquarters manager also pointed out that, “It’s
the responsibility of the [Special Agents in Charge] in the field to always
be coordinating, somehow, someway.”

The Components’ Coordination Efforts

       We found that some components created their own policies on
coordinating task force operations, but they did not always follow the
policies. FBI headquarters managers reported the most difficulty in
coordinating their task force operations. One FBI official stated:

       How do we coordinate with federal agencies that have
       specific jurisdictions when we have jurisdiction for all of this
       [violent crime]? We aren’t going to give up a case. We’ll let
       the other agencies know [the FBI’s plans].

Detailed descriptions of the components’ coordination policies and their
compliance with these policies follow.




U.S. Department of Justice                                                20
Office of the Inspector General
Evaluation and Inspections Division
ATF, the DEA, and the FBI did not effectively coordinate the operations of
their violent crime task forces.

      The DEA’s nation-wide policies require task force managers to
coordinate with other components before they deploy a DEA Mobile
Enforcement Team. Nation-wide DEA policy also requires task forces to
coordinate investigations and deconflict events, usually through the local
HIDTA information-sharing systems. DEA task force managers were
generally effective in coordinating Mobile Enforcement Team
deployments, but coordination issues surrounding the 2005 deployment
of a Mobile Enforcement Team in one city created tensions among the
federal law enforcement components in that city.

       ATF does not have a nation-wide coordination or event
deconfliction policy. Instead, according to an ATF headquarters
manager, coordination is done in the field without a “step-by-step
coordination directive” from ATF headquarters. When ATF created its
first ATF Violent Crime Impact Teams in 2004, ATF headquarters
managers did not coordinate the target areas and operations of their task
forces with other components. An ATF headquarters manager stated
that the presence of other task forces in a city was not a factor in
deciding whether to create a new task force:

       If there are already task forces present in the city [where an
       ATF Violent Crime Impact Team has been proposed], then
       they are not effective. If other task forces were handling [a
       city’s] problem, then there would be no need for an ATF
       Violent Crime Impact Team.

      Since August 2005, however, new ATF Violent Crime Impact Teams
have been coordinated with the other components through the Anti-Gang
Coordination Committee. In addition, ATF requested that the DEA and
the FBI provide Special Agents to work on ATF Violent Crime Impact
Teams. In response to ATF’s request, the DEA is working to obtain
funding for DEA participation on ATF Violent Crime Impact Teams.
However, nation-wide efforts by ATF and the FBI to coordinate task force
operations have failed. An ATF headquarters manager stated,
“Coordinating with the FBI is a national problem.”

      The FBI’s national policy on Safe Streets Task Forces does not
require coordination and event deconfliction. FBI policy requires that
proposals for new FBI Safe Streets Task Forces list other law
enforcement agencies in the area with which the new task force would


U.S. Department of Justice                                               21
Office of the Inspector General
Evaluation and Inspections Division
have to coordinate. However, the policy does not address coordination of
existing task forces or FBI coordination with new task forces other
components create. The FBI’s policy, issued in 1993, describes the
coordination of investigations by multi-jurisdictional FBI Safe Streets
Task Forces made up of federal, state, and local agencies. The policy
does not cover participation in or coordination of investigations with
federal violent crime task forces led by other Department components.
An FBI Safe Streets Task Force headquarters manager stated that, “It’s
the responsibility of the [Special Agents in Charge] in the field to always
be coordinating, somehow, someway.”

       In early 2006, an Associate Deputy Attorney General specifically
asked ATF and the FBI to work together to coordinate and co-locate their
task forces. An FBI Safe Streets Task Force headquarters manager
stated that the FBI proposed joint FBI Safe Streets and ATF Violent
Crime Impact Team task forces in several cities but that ATF declined its
offer because they could not agree on which component would lead the
task forces. An ATF headquarters manager acknowledged the FBI’s offer.
He stated that ATF declined the FBI offer because it included a
requirement that FBI Special Agents lead at least half of the proposed
joint task forces. The ATF manager stated that he pointed out to his FBI
counterpart that the FBI, whose first priority is terrorism, leads all of the
Joint Terrorism Task Forces, and that it would be appropriate for ATF,
whose first priority is violent crime, to lead all of the violent crime task
forces.

The FBI and the USMS did not coordinate fugitive task force operations.

      We found that the FBI and USMS fugitive task forces have
duplicated one another’s efforts and that these duplicate investigations
can create a risk to officer safety. To coordinate the operations of USMS
Regional Fugitive Task Forces with ATF and the DEA, the USMS
negotiated agreements to conduct fugitive investigations for them. The
USMS does not have a similar agreement with the FBI. Instead, under a
1988 Attorney General memorandum on fugitive apprehensions, the FBI
pursues federal fugitives on warrants the FBI obtains, and the USMS has
primary responsibility for the apprehension of all other fugitives.

       USMS Regional Fugitive Task Forces can attempt to apprehend
federal, state, and local fugitives based on any valid warrant. The FBI
Unit Chief for the Violent Crimes and Fugitive Safe Streets Task Forces
told the OIG that FBI Safe Streets Task Forces are authorized to
apprehend state and local fugitives if the state or local jurisdiction


U.S. Department of Justice                                                22
Office of the Inspector General
Evaluation and Inspections Division
requests FBI assistance and the FBI obtains a federal Unlawful Flight to
Avoid Prosecution warrant in accordance with FBI policy. When FBI
Special Agents obtain federal Unlawful Flight to Avoid Prosecution
warrants, the warrants are recorded in the federal Warrant Information
Network used by Deputy Marshals to coordinate fugitive investigations.

       However, we learned of two ways in which FBI headquarters
managers permit FBI Safe Streets Task Forces to conduct state and local
fugitive investigations that may duplicate ongoing USMS fugitive
investigations without first obtaining federal Unlawful Flight to Avoid
Prosecution warrants. 25 FBI Special Agents can conduct preliminary
investigations without a warrant for up to 90 days to determine whether
a state or local fugitive has fled the state. Preliminary investigations do
not require federal Unlawful Flight to Avoid Prosecution warrants and are
not tracked in the federal Warrant Information Network. FBI Special
Agents may also provide “domestic police cooperation” without a warrant
to state or local fugitive investigations. The FBI does not have a policy
that requires FBI Special Agents to coordinate preliminary investigations
or domestic police cooperation with Deputy Marshals.

       An FBI headquarters manager stated that obtaining Unlawful
Flight to Avoid Prosecution warrants in every case and checking the
Warrant Information Network are not critical and that when local law
enforcement agencies request FBI assistance the USMS will know about
it. In contrast, Deputy Marshals stated that they are sometimes
informed about FBI investigations by state or local law enforcement
agencies, but that they do not always know when the FBI is conducting a
preliminary fugitive investigation or is providing domestic police
cooperation because these investigations are not tracked in the Warrant
Information Network.

       In June 2005, FBI officials met with USMS officials to discuss and
attempt to better coordinate their fugitive investigations, but the FBI and
the USMS could not reach an agreement. An FBI headquarters manager
told the OIG that the meeting was to reconcile the two components’
different approaches to fugitive investigations. However, a USMS


        25 FBI headquarters managers stated that only one Safe Streets Task Force is

dedicated solely to fugitive investigations. This task force is located in Boston in order
to apprehend a single fugitive, James Bulger, an organized crime boss who has been a
fugitive since 1995. However, we identified eight FBI Violent Crime Safe Streets Task
Forces that routinely attempted to apprehend federal, state, and local fugitives, with
and without federal warrants.



U.S. Department of Justice                                                              23
Office of the Inspector General
Evaluation and Inspections Division
headquarters manager stated to the OIG that the FBI wanted to discuss
how to “divide the fugitive pie” between the two components. Regardless
of what the meeting’s purpose was, the two sides agreed to disagree. An
FBI headquarters manager stated, “We walked out with us continuing
doing what we’re doing and them continuing what they're doing.”

Nation-wide Task Force Arrest Data

       Our analysis of nation-wide task force arrest data indicated that
the components’ coordination of task force investigations was uneven.
Of the 97,228 arrests the components’ task forces made from FYs 2003
through 2005, we found that 1,288 had been reported by more than one
task force. We asked the components to review their files and describe
their coordination efforts and the circumstances of these arrests. On the
basis of the information the components provided, we concluded that the
components had conducted duplicate investigations in 768 of the arrests
(60 percent) and had cooperated in joint investigations in 520 of the
arrests (40 percent).

      The number of duplicate and joint investigations among the
remaining 95,940 arrests reported by one task force could not be
determined. The data provided by the components could not be used to
assess whether any of these arrested individuals were investigated – but
not arrested – by a second task force. This was due to insufficient
information in the components’ databases to match individuals under
investigation who had not been arrested. 26 For example, prior to arrest,
an individual may be identified by different names in different component
databases. One database may have the individual’s first name and
another database may have only the individual’s last name or nickname.

      Our analysis also showed that the components increasingly
duplicated efforts as the number of cities with 2 or more task forces
increased from 20 in FY 2003 to 84 in FY 2005. The number of duplicate
investigations increased by 167 percent, from 153 in FY 2003 to 409 in
FY 2005. During the same period the number of joint investigations
increased by 117 percent, from 101 to 219 (Figure 1).




        26 Matching individuals under investigation by the task forces requires matching

Social Security Numbers recorded by both components, matching FBI Numbers
recorded by both components, or matching names and dates of birth recorded by both
components.



U.S. Department of Justice                                                           24
Office of the Inspector General
Evaluation and Inspections Division
       Further, the increase in duplicate fugitive investigations involving
the FBI and USMS task forces, 131 percent, was four times greater than
the increase in joint fugitive investigations, 33 percent, from FYs 2003
through 2005. During the same period, the number of duplicate fugitive
investigations increased from 143 to 330, and the number of joint
fugitive investigations increased from 98 to 130. These numbers reflect
the problems of coordination and cooperation between the FBI and the
USMS that we found during our site visits. The components’
descriptions of their task forces’ duplication of effort and cooperation in
joint investigations are set out in detail in the following two sections.

                   Figure 1: Increases in Task Force Duplicate
                             and Joint Investigations
    450
       400
    350
       300
    250
       200
    150
       100
       50
         0
                     FY 2003                 FY 2004                FY 2005
             Duplicate Investigations             Joint Investigations
             Duplicate Fugitive Investigations    Joint Fugitive Investigations


The task forces duplicated one another’s investigations 768 times during
FYs 2003 through 2005.

       On the basis of the information the components provided, we
identified four ways in which the components reported duplicated efforts.

   •    In 332 arrests, neither component acknowledged the participation
        of the other component in the investigation. Of these, 270 were
        instances in which a USMS Regional Fugitive Task Force reported
        that it made an arrest without the assistance of the FBI and an FBI
        Safe Streets Task Force stated that it made the same arrest
        without the assistance of the USMS.


U.S. Department of Justice                                                        25
Office of the Inspector General
Evaluation and Inspections Division
   •   In 242 arrests, one component reported that the arrest was
       the result of a joint investigation by two task forces, while
       the other component reported that the arrest was made only
       by its task force.

   •   In 113 arrests, one component provided an explanation,
       while the other component either could not provide any
       information on the arrest or provided a widely divergent
       explanation of the circumstances surrounding the arrest. 27

   •   In 81 arrests, one component reported that its task force
       became involved after the arrest to prepare additional federal
       charges against the defendant or to arrange for the
       defendant’s transfer from state to federal custody. However,
       the component that conducted the pre-arrest investigation
       and made the arrest did not acknowledge the post-arrest
       participation of the other task force.

The task forces conducted 520 joint investigations during FYs 2003
through 2005.

       On the basis of the information the components provided, we
identified six categories of cooperation on investigations among the task
forces.

   •   In 287 arrests, both components’ task forces reported working
       together prior to the suspect’s arrest. Most of these arrests (225)
       were made by an FBI Safe Streets Task Force and a USMS
       Regional Fugitive Task coordinating their actions during fugitive
       investigations in a single federal judicial district.

   •   In 98 arrests, both components reported working together
       after the suspect’s arrest. Most of these arrests (62)
       occurred when an ATF Violent Crime Impact Team obtained
       a federal warrant for a suspect who was already in state
       custody and a USMS Regional Fugitive Task Force arranged
       for the suspect to be transferred into federal custody.



       27 For example, the FBI reported that a Safe Streets Task Force arrested one

individual on September 15, 2003, in Michigan. The USMS reported that a Regional
Fugitive Task Force arrested that same individual on the same date in Georgia.



U.S. Department of Justice                                                            26
Office of the Inspector General
Evaluation and Inspections Division
   •   In 92 arrests, the USMS task force used an information-
       sharing system to identify fugitives and close additional
       warrants after an ATF, DEA, or FBI task force arrested a
       suspect for a federal crime and the suspect’s identity was
       established using the federal Warrant Information Network.

   •   In 30 arrests, a DEA Mobile Enforcement Team was assisted
       by FBI Special Agents from an FBI Safe Streets Task Force.
       Notably, most of these arrests (26) were made by a single
       DEA Mobile Enforcement Team.

   •   In seven arrests, the FBI arrested a fugitive outside the
       United States and transferred that fugitive to the custody of
       the USMS upon return to the United States.

   •   In six arrests, both the FBI and the USMS reported that
       during a USMS Regional Fugitive Task Force search for a
       fugitive, an FBI Special Agent assigned to a USMS Regional
       Fugitive Task Force served as the lead investigator and used
       FBI information systems not available to the USMS to
       further the investigation.

Nation-wide data on FBI and USMS task force arrests showed the most
duplication and the least cooperation.

       Because FBI Special Agents and USMS Deputy Marshals we
interviewed reported widespread tensions between the two components,
we conducted a separate analysis of FBI and USMS task force arrests to
compare the duplication of effort in their investigations to the other
components’ investigations. FBI and USMS task forces accounted for
77 percent of the arrests reported by more than one task force (Figure 2).
We identified 997 arrests reported by both the FBI Safe Streets Task
Forces and the USMS Regional Fugitive Task Forces.




U.S. Department of Justice                                             27
Office of the Inspector General
Evaluation and Inspections Division
              Figure 2: Distribution of Arrests Reported by
                       More Than One Task Force

         Total Arrests: 1,288


                                        997




                                                               6
                                140               66   44
                                           35
                       FBI - USMS     ATF - DEA   DEA - FBI
                       DEA - USMS     ATF - FBI   ATF - USMS


       Based on the information on coordination that the FBI and the
USMS provided to us, we concluded that they had conducted duplicate
investigations in 643 of the arrests (64 percent) and had cooperated in
joint investigations in 354 of the arrests (36 percent). Further, the trend
of FBI and USMS investigations indicates that between FY 2003 and
FY 2005, the number of duplicate investigations more than doubled,
increasing from 143 to 330, while the change in the number of joint
investigations was much smaller, from 98 to 130 (Figure 3).




U.S. Department of Justice                                               28
Office of the Inspector General
Evaluation and Inspections Division
      Figure 3: USMS and FBI Duplicate Investigations Increased
         While Joint Investigations Remained Relatively Static

     350

     300

     250

     200

     150

     100

      50

       0
                   FY 2003                  FY 2004                 FY 2005
                        Duplicate Investigations       Joint Investigations


Although the USMS made 184 reporting errors, there was no indication
of a systematic effort by the USMS to report arrests made by other task
forces.

       A number of ATF, DEA, and FBI Special Agents expressed to us
suspicions that the USMS was using its role in the federal prisoner
booking process as an opportunity to claim credit for arrests made by
other task forces. 28 The Deputy Marshals we interviewed denied such an
effort. Because the USMS is responsible for recording the arresting
agency and the date of the arrest in the federal Warrant Information
Network, we analyzed all of the components’ explanations of overlapping
arrests to assess these complaints.




        28 Suspects are booked up to three times after a single federal arrest: (1) by the

agency that makes the arrest; (2) by the USMS prior to confinement and transportation;
and (3) by the Federal Bureau of Prisons. See Department of Justice, Office of the
Inspector General, The Joint Automated Booking System, Audit Report Number 05-22,
May 2005, pp. 2-3.




U.S. Department of Justice                                                             29
Office of the Inspector General
Evaluation and Inspections Division
      We found that the USMS reported 184 arrests that USMS task
forces did not make. 29 ATF, DEA, and FBI explanations for their arrests
confirmed that the arrests were made without USMS involvement. The
USMS reported these 184 arrests based on Warrant Information Network
data. A case file review conducted by the USMS showed that these 184
arrests were actually made by other components’ task forces and that a
USMS task force had not been involved in the investigations. After the
components’ case file reviews, the USMS acknowledged to the OIG that it
had erred in reporting these arrests.

       We did not find the 184 erroneously reported arrests to be
indicative of a systematic effort by the USMS to inflate its arrest statistics
by claiming credit for arrests made by other components’ task forces.
The 184 arrests the USMS erroneously reported represent less than
1 percent of the 29,967 arrests made by the other components’ task
forces. The erroneously reported arrests are an even smaller percentage
of the 67,261 arrests reported by the USMS task forces.

Coordination at the Task Force Level

       We also attempted to assess task force coordination on a local task
force level. In each city, we interviewed personnel from ATF, the DEA,
the FBI, the USMS, the U.S. Attorney’s Office, HIDTA, and state and local
law enforcement agencies from the city and surrounding jurisdictions to
evaluate the coordination among the components’ field and task force
operations. If a city did not have all four types of task forces within the
scope of our review, we interviewed personnel in the field offices about
their other task force operations and their coordination with the other
component’s task forces.

       In several of the eight cities we visited, U.S. Attorneys and local
task force managers developed local policies and used information-
sharing systems to increase coordination of task force operations in their
jurisdictions. In other cities, task forces did not have coordination
policies, did not use information-sharing systems, and operated as
independent entities rather than as part of a coordinated Department
approach for combating violent crime. In these cities, we found that task
forces conducted duplicate investigations and wasted resources. We also

        29 The FBI also acknowledged that based on its case file review, two arrests were

erroneously reported to the OIG because they were improperly coded as FBI arrests in
the FBI’s database. The FBI reported that USMS task forces actually made these two
arrests.



U.S. Department of Justice                                                            30
Office of the Inspector General
Evaluation and Inspections Division
found that failures to coordinate task force investigations resulted in
three blue-on-blue incidents in which the failure to deconflict events
resulted in task force members being misidentified as criminals.

       To systematically assess the components’ efforts to coordinate their
task force investigations, we developed criteria on three levels – task force
management, cooperation on investigations, and law enforcement event
deconfliction. Our task force management criteria assessed the ways in
which task force managers accomplished local coordination, whether the
components participated on one another’s task forces, and whether they
effectively used training and other incentives to increase local
participation on federal task forces. The cooperation on investigations
criteria examined whether the task forces had policies to cooperate on
investigations by sharing information with other law enforcement
agencies and whether task force officers complied with these policies.
The event deconfliction criteria included whether the task forces had
policies to deconflict all events with other law enforcement agencies and
whether task force officers complied with those policies.

       The task force management criteria were:

   •   Do violent crime task force missions overlap?
   •   Do fugitive task force missions overlap?
   •   Do the components routinely invite local agencies to participate on
       task forces?
   •   Do the components routinely invite other federal agencies to
       participate on task forces?
   •   Do the components routinely participate on other federal agencies’
       task forces?
   •   Do the components coordinate task force locations with local or
       other federal agencies?
   •   Do the components routinely attend coordination meetings?
   •   Do the components use training as an incentive to encourage task
       force participation by local law enforcement agencies?
   •   Do the components provide other incentives to encourage task
       force participation by local law enforcement agencies, for example
       cars, overtime, and phones?

      Figure 4 shows the components’ scores based on whether they met
the task force management level criteria across the eight cities we visited.




U.S. Department of Justice                                                31
Office of the Inspector General
Evaluation and Inspections Division
                     Figure 4: Task Force Management


            Maximum Score                       72


                       ATF                 42


                     USMS              37


                       DEA            35


                        FBI           33


                              0        20            40      60          80

       NOTE: The maximum score for each component is based on the number
       of criteria and the number of cities. For task force management, there
       are nine criteria for each component in each of the eight cities.

       The criteria for cooperation on investigations were:

   •   Do the task forces have a policy to coordinate all suspects?
   •   Do the task forces routinely comply with the policy?
   •   Do the task forces routinely share intelligence with existing or new
       task forces?
   •   Has coordination ever prevented a duplicate investigation?
   •   Do the task forces conduct joint investigations if duplication is
       found?
   •   Does the HIDTA have the information-sharing capabilities to
       support cooperation on individual investigations?
   •   Do the task forces use HIDTA resources for suspect coordination?
   •   Do agents have to leave information with the local coordination
       resource every time they make an inquiry?
   •   Have there been disputes over investigations that had to be
       resolved by the field agents?
   •   Have there been disputes over investigations that had to be
       resolved by field management?

      Figure 5 shows the components’ scores based on whether they met
the cooperation on investigations criteria.



U.S. Department of Justice                                                      32
Office of the Inspector General
Evaluation and Inspections Division
                 Figure 5: Cooperation on Investigations


       Maximum Score                              80


                    DEA                      66


                    ATF                 58


                    FBI                 55


                  USMS                  54


                          0        20             40   60        80        100
       NOTE: The maximum score for each component is based on the number
       of criteria and the number of cities. For cooperation on investigations,
       there are 10 criteria for each component in each of the 8 cities.

       The criteria for event deconfliction were:

   •   Do the task forces have an event deconfliction policy?
   •   Do the task forces comply with the event deconfliction policy?
   •   Do the task forces use HIDTA resources for event deconfliction?
   •   Do task force members deconflict events by notifying local law
       enforcement agencies?
   •   Have there been any blue-on-blue incidents?

      Figure 6 shows the components’ scores based on whether they met
the event deconfliction criteria.




U.S. Department of Justice                                                        33
Office of the Inspector General
Evaluation and Inspections Division
            Figure 6: Law Enforcement Event Deconfliction


        Maximum Score                           40


                    DEA                         40


                  USMS                     30


                    ATF                    29


                     FBI           19


                           0          10        20     30        40        50
       NOTE: The maximum score for each component is based on the number
       of criteria and the number of cities. For event deconfliction, there are
       five criteria for each component in each of the eight cities.

       Each level of coordination can operate independently of the others.
Figure 7 compares the components’ scores on coordination of their task
force investigations on each of the three levels – task force management,
cooperation on investigations, and law enforcement event deconfliction.




U.S. Department of Justice                                                        34
Office of the Inspector General
Evaluation and Inspections Division
    Figure 7: Component Scores on Three Levels of Coordination


                                       Maximum Score
                               ATF
     Task Force
                             USMS
     Management              DEA
                             FBI

                                           Maximum Score
   Cooperation on                      DEA
                                    ATF
   Investigations                  FBI
                                  USMS

                           Maximum Score
                                DEA
        Event
                            USMS
     Deconfliction           ATF
                          FBI

                     10      20       30      40     50    60      70      80      90
   NOTE: The maximum score for on each level is based on the number of criteria
   for that level multiplied by the number of cities, eight. For task force
   management, there are 9 criteria; for cooperation on investigations, 10; for event
   deconfliction, 5.

       Because the components can emphasize or neglect coordination at
any of the three levels, the total scores for components based on all the
criteria reflect the components’ overall efforts to coordinate task force
investigations. Figure 8 shows the components’ total coordination scores
based on all the criteria.




U.S. Department of Justice                                                              35
Office of the Inspector General
Evaluation and Inspections Division
       Figure 8: Component Scores on Task Force Coordination


        Maximum Score                             192


                    DEA                     141


                    ATF                    129


                  USMS                 121


                    FBI               107


                          0           50          100      150          200
       NOTE: The maximum score is the 24 criteria multiplied by the number of
       cities, 8.

Critical Factors in the Coordination of Task Force Investigations

       The U.S. Attorneys’ oversight of the management of violent crime
task force operations and the task forces’ use of information-sharing
systems and adherence to deconfliction policies were the critical factors
in the coordination of task force investigations. In the absence of
Department and component coordination policies applicable to all violent
crime task forces, U.S. Attorneys and task force managers in several
cities developed local policies and coordinated task force operations. In
other cities, U.S. Attorneys and task force managers did not develop
policies and did not require the task forces to use information-sharing
systems. In these cities, the task forces operated as independent entities
rather than as part of a coordinated Department approach for combating
violent crime. In addition, lack of coordination in these cities led to
duplicate investigations and failures to deconflict events, resulting in
three blue-on-blue incidents in which task force members were
misidentified as criminals.




U.S. Department of Justice                                                      36
Office of the Inspector General
Evaluation and Inspections Division
The U.S. Attorneys’ efforts were a critical factor in the cities with the best
task force coordination.

       U.S. Attorneys are the chief federal law enforcement officers in
each federal judicial district and, therefore, along with task force
managers, have a responsibility for coordinating Department task forces.
To evaluate the role of the U.S. Attorneys in coordinating task force
operations in each city we visited, we examined the following four
criteria:

   •   Does the U.S. Attorney sponsor a regular meeting for local, state,
       and federal agency leaders?
   •   Does the U.S. Attorney sponsor a regular meeting to coordinate
       task force investigations?
   •   Does the U.S. Attorney have internal coordination resources or
       methods (other than meetings)?
   •   Has the U.S. Attorney resolved jurisdictional disputes over specific
       investigations?

       Based on these criteria, each of the U.S. Attorneys in the eight
cities we visited provided some coordination for violent crime task force
operations. For example, in Gary, Assistant U.S. Attorneys worked
directly with each task force and met regularly with task force managers
to coordinate task force operations. In Philadelphia, the U.S. Attorney
and the Philadelphia Police Commissioner sponsored monthly meetings
where ATF, DEA, FBI, and Philadelphia Police Department task force
members coordinated their operations and investigations of selected
violent crimes, firearms, and narcotics cases.

       However, we found that U.S. Attorneys were not effective in
coordinating fugitive task force operations in six cities. Both FBI and
USMS fugitive task forces were operating in Atlanta, Birmingham,
Chicago, Las Vegas, Los Angeles, and Philadelphia, but the
U.S. Attorneys in those cities did not direct the coordination of the
fugitive task forces’ operations.

      Figure 9 shows the total of the U.S. Attorneys’ and the
components’ coordination scores for each of the eight cities we visited.
The following sections explain the higher coordination scores achieved by
the components’ task forces in several of the eight cities.




U.S. Department of Justice                                                 37
Office of the Inspector General
Evaluation and Inspections Division
           Figure 9: Task Force Coordination by U.S. Attorneys
                     and Components in Eight Cities


         Gary

       Camden

 Philadelphia

 Los Angeles

       Chicago

   Las Vegas

       Atlanta

 Birmingham

                 0         20           40            60            80         100
 NOTE: The task force coordination score in each city is the sum of the four
 components’ scores and the U.S. Attorney’s score.

The use of information-sharing systems was the critical factor in
achieving cooperation on individual task force investigations.

      Task forces need to share information and coordinate individual
investigations to avoid duplicate investigations. DEA task forces
consistently used information-sharing systems, but ATF, FBI, and USMS
task forces did not consistently use information-sharing systems and
sometimes duplicated investigations as a result. For example:

   •    In Philadelphia, Deputy Marshals reported three examples in 2006
        in which FBI Safe Streets Task Force members duplicated ongoing
        USMS fugitive investigations. The FBI coordinates its fugitive
        investigations with the Philadelphia Police Department Major
        Crimes and Homicide Divisions. However, FBI Safe Streets Task
        Force members duplicated ongoing USMS fugitive investigations
        when they attempted to apprehend fugitives under investigation by
        the USMS task force without first obtaining federal Unlawful Flight
        to Avoid Prosecution warrants, which are entered into the Warrant
        Information Network.



U.S. Department of Justice                                                      38
Office of the Inspector General
Evaluation and Inspections Division
   •   In Philadelphia, the FBI conducted a preliminary investigation to
       obtain a federal Unlawful Flight to Avoid Prosecution warrant and
       duplicated a fugitive investigation the USMS task force was
       conducting. The FBI Special Agent reported that he checked the
       National Crime Information Center (NCIC) database before seeking
       the warrant to see if another warrant had been issued for the
       fugitive, but “nothing showed up.” 30 He did not contact the USMS
       to check the federal Warrant Information Network or use the local
       deconfliction system.

   •   In Atlanta, members of the FBI Safe Streets Task Force told us that
       in 2005 the Atlanta Police Department called them for help on a
       gang arrest. While the FBI Safe Streets Task Force was conducting
       the operation, Atlanta Police Department officers asked eight ATF
       Special Agents to help out. The ATF Special Agents went to the
       scene without coordinating their participation in the arrest with
       the FBI.

       Not all of the components’ task forces in the cities that we visited
have a policy requiring the sharing of information, and when they do
have a policy, not all the task forces comply with it. Table 5 shows
whether the task forces have a policy to share information on
investigations, the task forces’ compliance with the policy, and the task
forces’ use of HIDTA information-sharing systems.




        30 NCIC is a database that provides federal, state, and local law enforcement

with information on criminal histories and open warrants. NCIC is not maintained in
real time and is not a substitute for local deconfliction systems.



U.S. Department of Justice                                                          39
Office of the Inspector General
Evaluation and Inspections Division
    Table 5: Information Sharing for Cooperation on Investigations
                           in Eight Cities

                       ATF                 DEA                   FBI                USMS
  CITIES
                 Policy   Comply    Policy   Comply     Policy     Comply     Policy   Comply
Gary               Y          Y*       Y          Y*      Y             Y*      Y          Y*
Camden             Y          Y*       N         N/A*     Y             Y*      N      N/A*
Philadelphia       Y          Y*       Y          Y*      Y             N       N      N/A*
Los Angeles        N         N/A*      Y          Y*      N            N/A*     Y          Y*
Chicago            Y          Y*       Y          Y*      Y             N       Y          N
Las Vegas          N         N/A*      Y          Y*      Y             Y       Y          Y*
Atlanta            Y          Y        N         N/A      N            N/A      N       N/A
Birmingham         N         N/A       Y          Y*      N            N/A      N       N/A

 * Task forces use HIDTA information-sharing systems to coordinate.

        When the task forces use information-sharing systems, they use
 them most often to avoid duplicating investigations rather than to
 cooperate in joint investigations. When task force members identify
 overlapping investigations, one task force’s members usually stop their
 investigation rather than conduct a joint investigation with another task
 force. In the eight cities we visited, ATF task forces cooperated in joint
 investigations in three cities. DEA task forces participated in joint
 investigations in one city, and USMS and FBI task forces conducted joint
 fugitive investigations in one city.

        When we asked why task force members did not conduct more
 joint investigations, the most commonly cited reasons were a lack of
 trust regarding sharing law enforcement sensitive information (such as
 the names of confidential informants), potential interference with other
 investigations, and protection of “turf” from other task forces with
 overlapping areas of responsibility. Task force managers also pointed out
 that their task forces are conducting investigations within their
 particular missions the majority of the time.

       Although we did not find that the components often worked
 together on joint investigations, when they did, we found examples of
 coordination that proved useful:

       •   In Atlanta, an ATF Special Agent assigned to a USMS Regional
           Fugitive Task Force was investigating gun trafficking by a gang

 U.S. Department of Justice                                                                40
 Office of the Inspector General
 Evaluation and Inspections Division
       member when a criminal history check disclosed a warrant for the
       gang member’s arrest. The USMS Regional Fugitive Task Force
       members surrounded the gang member’s house and made the
       arrest. They found a gun inside, and the ATF Special Agent was
       able to make an unlawful possession of a firearm case that
       resulted in a 35-year sentence.

   •   In Camden, the ATF Violent Crime Impact Team and the DEA
       Mobile Enforcement Team agreed to exchange Special Agents. The
       ATF Special Agent assigned to the DEA’s Mobile Enforcement Team
       was able to use the threat of prosecution on federal gun charges to
       facilitate investigations, and the DEA Special Agent on ATF’s
       Violent Crime Impact Team was able to provided critical
       information to an ongoing investigation.

   •   In Gary, a fugitive was wanted by the FBI because he was
       suspected of shooting an Indianapolis police officer. The FBI Safe
       Streets Task Force and the USMS Regional Fugitive Task Force
       planned a joint investigation and arrested the fugitive in East
       Chicago, Indiana. The Chief of Police praised the cooperation
       between the FBI and the USMS in this case.

       Even when task force managers decided to cooperate in joint
investigations, the task forces sometimes had problems working together.
For example, in Chicago, FBI Special Agents and USMS Deputy Marshals
conducted a joint murder investigation in which the USMS Regional
Fugitive Task Force and the USMS Electronic Surveillance Unit were
supporting the investigation with electronic surveillance. The supervisor
of the USMS Electronic Surveillance Unit stated that he and the FBI
supervisor coordinated their efforts but that USMS Deputy Marshals
reported that FBI Special Agents working in the field refused to share
information during the investigation. FBI task force managers stated to
the OIG that the FBI only participates in a joint investigation as the
overall lead agency. They also stated that because the FBI is the lead
agency, FBI Special Agents share information in accordance with FBI
policy.

The critical factor in event deconfliction was task force compliance with
policies mandating the use of a deconfliction system for every event.

      Event deconfliction is the final opportunity to coordinate individual
task force investigations. Deconfliction alerts task force members that
an event may conflict with an event planned by other law enforcement


U.S. Department of Justice                                              41
Office of the Inspector General
Evaluation and Inspections Division
agencies for the same place and time so they can avoid disruptive and
potentially dangerous interference with one another’s operations.
Furthermore, the need for
deconfliction increases when there                    LA Clear
has been less effective coordination
at other levels. When managers              One example of an effective
fail to direct the coordination of      deconfliction system is the
task force operations and task          Los Angeles HIDTA deconfliction
force members do not share              system, LA Clear. Every law
information to avoid duplication or     enforcement agency that operates
conduct joint investigations,           in Los Angeles County has agreed
                                        to use LA Clear for event
deconfliction becomes critical.
                                        deconfliction during felony
                                        investigations. The Special Agents
       We found that members of         and Deputy Marshals we
the Department’s violent crime task     interviewed credited the reliability
forces effectively deconflicted most    and quick response time of
events. DEA task force members          LA Clear for the lack of blue-on-
were the most consistent at             blue incidents, despite the high
deconflicting events in the cities we   number of law enforcement events
visited. DEA task force members         in Los Angeles.
in all eight cities used HIDTA
information-sharing systems. ATF task force members deconflicted
events in seven cities, although deconfliction was only required by policy
in four cities. USMS task force managers established a local policy to
deconflict events in five cities, and task force members complied with the
policy in all five cities. The USMS also deconflicted events in one city
even though no policy required it. FBI task force managers had a local
policy to deconflict events in three cities, but members consistently
complied with the policy in only one of these cities. In addition, FBI task
force members deconflicted events in one city even though no policy
required it.

      Table 6 shows whether the task forces had a policy to deconflict
events, the task forces’ compliance with the policy, and the task forces’
use of HIDTA event deconfliction systems.




U.S. Department of Justice                                                  42
Office of the Inspector General
Evaluation and Inspections Division
               Table 6: Event Deconfliction in Eight Cities

                     ATF                  DEA                 FBI                USMS
   CITIES
               Policy   Comply   Policy    Comply    Policy     Comply     Policy   Comply
Gary             Y         Y*         Y         Y*     Y             Y*      Y          Y*
Camden           N       N/A*         Y         Y*     N            N/A*     N      N/A*
Philadelphia     Y         Y*         Y         Y*     N            N/A      Y          Y*
Los Angeles      N       N/A*         Y         Y*     N            N/A*     Y          Y*
Chicago          Y         Y*         Y         Y*     Y             N       Y          Y
Las Vegas        Y         Y*         Y         Y*     N            N/A      Y          Y*
Atlanta          N       N/A*         Y         Y*     Y             N       N       N/A
Birmingham       N         N/A        Y         Y*     N            N/A      N       N/A

* Task forces use HIDTA information-sharing systems to deconflict.

      Failures to deconflict events can lead to dangerous situations.
Task force members in three cities told us of blue-on-blue incidents that
occurred because not all of the task forces operating there had
deconflicted events:

   •   In Atlanta, a USMS Regional Fugitive Task Force member told us
       that he was conducting surveillance in a fugitive’s neighborhood
       when members of an FBI Safe Streets Task Force, who were also
       conducting surveillance, pulled him over because he was using a
       car similar to one associated with the fugitive. The USMS Regional
       Fugitive Task Force member stated that the FBI Safe Streets Task
       Force members ordered him to exit his car and identify himself.
       Neither the FBI nor the USMS requires its task force members to
       deconflict events, and neither of the task forces’ members
       voluntarily deconflicted their surveillance.

   •   In Chicago, an ATF Assistant Special Agent in Charge stated that
       an ATF confidential informant and an undercover ATF Special
       Agent bought a loaded gun from an FBI Safe Streets Task Force
       confidential informant. After the buy was completed, the ATF
       undercover agent was arrested. A few weeks earlier, FBI Safe
       Streets Task Force members had checked for investigations that
       overlapped those involving the confidential informant, but had not
       deconflicted the planned gun sale.




U.S. Department of Justice                                                                   43
Office of the Inspector General
Evaluation and Inspections Division
   •   In Las Vegas, the ATF Resident Agent in Charge stated that ATF
       conducted an undercover firearms operation at a gun show and
       deconflicted through LA Clear, the HIDTA system that covers
       Las Vegas as well as Los Angeles County. LA Clear did not identify
       any potential conflicts. At the show, ATF arrested an individual
       who made an illegal gun purchase from an undercover ATF agent.
       The individual then claimed to be an FBI confidential informant
       working at the show on behalf of the FBI. According to ATF,
       despite numerous conversations between ATF and the FBI after the
       incident, the FBI refused to explain why FBI Special Agents had
       not deconflicted their undercover operation and refused to confirm
       or deny that the suspect was an FBI confidential informant. An
       FBI Supervisory Special Agent also declined to confirm or deny to
       OIG whether the individual was an FBI informant and stated that
       all agencies are secretive about their confidential informants and
       that many suspects claim they are confidential informants when
       they are not.

Coordination of Task Force Investigations in Eight Cities

      Across the eight cities we visited, the components use a variety of
methods to coordinate task force investigations. In this section, we
describe in detail the combined coordination efforts of the components
and the U.S. Attorneys in each of the eight cities we visited. We begin
with the city that exhibits the highest level of task force coordination
based on our criteria and present information on task force management,
cooperation on investigations, and event deconfliction for each city in
order of the level of coordination.

Gary, Indiana

       The following task forces operate in Gary: an ATF violent crime
task force (not a VCIT), a DEA task force, an FBI Safe Streets Task Force,
and a USMS Regional Fugitive Task Force. The ATF Resident Agent in
Charge, DEA Assistant Special Agent in Charge, FBI Safe Streets Task
Force Supervisor, and the Chief Deputy Marshal credit the coordination
efforts of the U.S. Attorney and local policies requiring the use of the
local HIDTA information-sharing system for the effective coordination of
resources and the minimal duplication of effort in Gary.

      Task Force Management. Three task forces with anti-gang
missions have the potential for duplicating operations in Gary: the FBI
Safe Streets Task Force and two local task forces established by ATF and


U.S. Department of Justice                                             44
Office of the Inspector General
Evaluation and Inspections Division
the DEA. We found consistent coordination efforts by each task force
resulting from guidance provided by the U.S. Attorney and the task
forces’ use of the local HIDTA information-sharing system. The FBI Safe
Streets Task Force Supervisor said, “We have not crossed paths [with
ATF] as far as task force operations are concerned.” The DEA Assistant
Special Agent in Charge said, “We have our paths pretty well defined,
everybody stays in their lanes,” and the ATF Resident Agent in Charge
said, “I feel we’re in a good position. I understand the mission of the FBI
[Safe Streets Task Force] and [the] DEA.”

       Two task forces have fugitive apprehension responsibilities and the
potential for duplicating fugitive investigations – the FBI Safe Streets
Task Force and the USMS Regional Fugitive Task Force – but the two
task forces coordinate fugitive operations. The FBI Safe Streets Task
Force Supervisor said, “There is no reason to fight it. I just hand them
[state and local fugitive investigations] off.” The Chief Deputy
U.S. Marshal said, “We’re not seeing a problem here” with FBI and USMS
fugitive missions and said that the FBI Safe Streets Task Force gives the
USMS every warrant it has. The USMS Regional Fugitive Task Force
Coordinator said, “I haven’t come across a case yet that they [the FBI]
have been working and we’ve been working.”

       The U.S. Attorney’s Office coordinates task force operations to
avoid duplication. Assistant U.S. Attorneys work directly with each task
force and then coordinate their investigations with each other. The
U.S. Attorney said, “After identifying targets, we decide who goes after
them with the existing task forces.” A Special Agent in Charge, a
Resident Agent in Charge, and the Chief Deputy Marshal praised the
coordination efforts of the U.S. Attorney. The ATF Resident Agent in
Charge said, “Our relationship with [the U.S. Attorney] is a beautiful
thing. I love the way they have it set up.”

       Despite the coordinated efforts, each task force actively recruits
local police departments to participate on the task forces and competes
for the limited number of available local police officers. One ATF Group
Supervisor said that ATF has to “put together a hell of a deal” to recruit
local task force members. One Chief of Police told us, “Sure, I’ve had to
turn down federal task forces.” Some task forces have an advantage over
other task forces when recruiting because they are able to provide more
incentives to the local police departments. One local task force officer
said that his department is “in awe” of the resources and equipment
provided by the FBI Safe Streets Task Force and that other officers call



U.S. Department of Justice                                               45
Office of the Inspector General
Evaluation and Inspections Division
the task force to use their mini-cameras, surveillance cars, and other
equipment.

       Cooperation on Investigations. All of the components have local
policies to coordinate investigations, including use of the local HIDTA
information-sharing system, and all of the components comply with the
policies. Task force managers stated that local policies requiring the use
of the HIDTA system prevent duplicate investigations, although we found
some overlapping investigations.

       Although task force members share information, the task forces do
not often conduct joint investigations. Both the ATF task force and the
FBI Safe Streets Task Force have an anti-gang focus. The ATF Resident
Agent in Charge and task force supervisor said the ATF task force only
investigates firearms crimes but acknowledged that most of their
suspects are gang members. The ATF Resident Agent in Charge and task
force supervisor also stated that if task force members determine that a
suspect is under investigation by the FBI Safe Streets Task Force, the
task force members would share intelligence and conduct a joint
investigation. However, the FBI Safe Streets Task Force Supervisor and
task force members said that they do not work with the ATF task force.
They said that they investigate firearms crimes discovered during
ongoing FBI Safe Streets Task Force investigations on their own, rather
than turn intelligence over to ATF.

      Event Deconfliction. The task forces have local policies to
deconflict all events. Special Agents, Deputy Marshals, and local officers
said that task force members comply with this policy because the ATF,
DEA and FBI task forces are required to deconflict events through the
HIDTA. There were no blue-on-blue incidents in Gary.

Camden, New Jersey

       All four task forces operate in Camden: an ATF Violent Crime
Impact Team, a DEA Mobile Enforcement Team, an FBI Safe Streets Task
Force, and a USMS Regional Fugitive Task Force. Although some of the
task forces in Camden have similar missions, local task force managers
avoid duplication of effort through regular meetings and task force
members generally use information-sharing systems to cooperate on
investigations and deconflict events without being required to do so by
local policies.




U.S. Department of Justice                                               46
Office of the Inspector General
Evaluation and Inspections Division
       Task Force Management. The task forces in Camden have
overlapping violent crime and fugitive missions. For example, both the
ATF Violent Crime Impact Team and the FBI Safe Streets Task Force
have anti-gang missions. The Assistant U.S. Attorney who works directly
with the FBI Safe Streets Task Force said that the local HIDTA
information-sharing system and the local Weed and Seed meeting
sponsored by the U.S. Attorney, the Camden County Prosecutor’s Office,
and the Camden Police Department are the two main ways the task
forces coordinate investigations to avoid “stepping on each other’s toes.”
The Law Enforcement Coordinator said that communication in Camden
is “better than it has ever been.”

        The FBI Safe Streets Task Force and the USMS Regional Fugitive
Task Force have overlapping fugitive apprehension responsibilities, but
the two task forces agree that the USMS takes the lead in apprehending
fugitives in Camden. The FBI Safe Streets Task Force Supervisor said
the task force does investigate FBI fugitive cases, but it does not have the
resources to investigate state and local fugitive cases. The Commander
of the USMS Regional Fugitive Task Force said, “I don’t see this Safe
Streets Task Force doing fugitive investigations in Camden. I don’t think
it’s a problem here because they don’t have the people. They are doing a
great job looking at gangs here.”

       Despite the coordinated efforts, some competition for local law
enforcement participation exists among the task forces. The ATF
Resident Agent in Charge said that he has had problems recruiting local
officers for the ATF Violent Crime Impact Team. He said that the local
Sheriff’s Office declined to join the ATF Violent Crime Impact Team and
pulled back its officers on a previous ATF task force. The ATF Resident
Agent in Charge later found out that those same officers had been
reassigned to an FBI task force.

       Cooperation on Investigations. ATF and the FBI have local policies
requiring cooperation on task force investigations. However, most
Special Agents, Deputy Marshals, and local officers voluntarily use the
local HIDTA information-sharing system to coordinate investigations.
One local law enforcement officer assigned to the USMS Regional Fugitive
Task Force said that coordinating his investigation by checking suspects
in the HIDTA system uncovered overlaps between the USMS Regional
Fugitive Task Force and the DEA Mobile Enforcement Team. In most
cases, he said, the USMS Regional Fugitive Task Force stood down to
allow the DEA Mobile Enforcement Team investigation to continue. The
local law enforcement officer also recalled a “few cases” when he checked


U.S. Department of Justice                                               47
Office of the Inspector General
Evaluation and Inspections Division
the HIDTA system and discovered that the fugitive he was attempting to
apprehend had both a state warrant and an FBI warrant open. In these
multiple warrant cases, the local law enforcement officer said that the
FBI and USMS worked together in the subsequent investigation.

      The task forces also share intelligence on an informal basis. One
FBI Special Agent assigned to the FBI Safe Streets Task Force said that
DEA Special Agents with the DEA Mobile Enforcement Team came to him
seeking assistance and intelligence on some suspects and that he shared
information he had. A Supervisory Deputy U.S. Marshal Supervisor said
that the DEA Mobile Enforcement Team frequently used USMS Regional
Fugitive Task Force intelligence resources. The Commander of the USMS
Regional Fugitive Task Force also said that he met with ATF to discuss
what the ATF Violent Crime Impact Team could do to get a “jumpstart”
when it deployed in Camden.

       A DEA Special Agent gave the following example: The DEA
identified a group of suspects that was running heroin from Allentown,
Pennsylvania, to North Camden, New Jersey. The DEA obtained
warrants and captured a significant suspect with the help of the USMS.
The suspect agreed to cooperate and identified other suspects who are
now under investigation by the ATF Violent Crime Impact Team. The
ATF Violent Crime Impact Team determined that one suspect may be
connected to a corrupt police officer, so ATF planned to invite the FBI to
join the investigation.

      Special Agents and Deputy Marshals do not routinely participate
on each other’s task forces in Camden, but in one instance, task forces
coordinated investigations by assigning Special Agents to each other’s
task force. The ATF Violent Crime Impact Team assigned an ATF Special
Agent to the DEA Mobile Enforcement Team, and the DEA assigned a
Special Agent to the ATF Violent Crime Impact Team. The ATF Special
Agent working with both task forces developed firearms cases out of DEA
Mobile Enforcement Team arrests and made undercover firearms
purchases through drug organizations to develop intelligence that
benefited the DEA Mobile Enforcement Team.

      Event Deconfliction. All of the task forces voluntarily use the local
HIDTA information-sharing system to deconflict events. There were no
blue-on-blue incidents in Camden.




U.S. Department of Justice                                               48
Office of the Inspector General
Evaluation and Inspections Division
Philadelphia, Pennsylvania

      An ATF Violent Crime Impact Team, a DEA Mobile Enforcement
Team, and three FBI Safe Streets Task Forces operate in Philadelphia. A
USMS District Fugitive Task Force there works closely with the USMS
Regional Fugitive Task Force located in neighboring Camden. Task force
members regularly attend coordination meetings sponsored by the
U.S. Attorney’s Office and use the local HIDTA information-sharing
system to coordinate gang-related crime, violent crime, and fugitive
investigations and to deconflict events.

       Task Force Management. Every month, the U.S. Attorney’s Office
and the Philadelphia Police Department sponsor a meeting in each of the
six Philadelphia Police Department detective divisions to share
intelligence about violent crime, firearms, and narcotics investigations
and to coordinate operations and investigations among federal, state,
and local law enforcement agencies. At the meetings, investigations are
assigned to the task force best capable of conducting them. An Assistant
U.S. Attorney said all law enforcement agencies in Philadelphia
participate, including ATF, the DEA, the FBI, and the USMS.

      An Assistant U.S. Attorney provided this example of coordination
at one of the meetings: When ATF developed information from one of its
confidential informants about a drug trafficker in the Central Division,
ATF turned the information over to the DEA because the ATF Violent
Crime Impact Team was primarily working in the Southwest Division and
the DEA was willing to open an investigation in the Central Division.

       Some of the task forces in Philadelphia have similar missions. The
ATF Violent Crime Impact Team and an FBI Safe Streets Task Force have
anti-gang missions, creating the potential for duplication. The FBI
Assistant Special Agent in Charge said that the missions of the ATF
Violent Crime Impact Team and FBI Safe Streets Task Force are different
and that there is no duplication because the FBI is not interested in
making felon-in-possession of a firearm cases. Special Agents and
Assistant U.S. Attorneys said any duplication of investigations or task
force disputes are resolved at the monthly coordination meeting and
case-specific meetings with the U.S. Attorney’s Office.

      One of the FBI Safe Streets Task Forces and the USMS District
Fugitive Task Force have duplicate fugitive missions. The USMS created
a multi-agency District Fugitive Task Force in Philadelphia in 1983 to
apprehend violent local, state, and federal fugitives. The FBI created an


U.S. Department of Justice                                             49
Office of the Inspector General
Evaluation and Inspections Division
FBI Safe Streets Task Force there in 1993 as a fugitive squad. According
to the Chief Deputy U.S. Marshal, on the 10th anniversary of the USMS
District Task Force’s creation, the FBI held a press conference
announcing the creation of the FBI Safe Streets Task Force and stating
that the city needed a fugitive task force. Both task forces continue to
operate in Philadelphia, and both adopt violent fugitive investigations
from the Philadelphia Police Department and other local agencies.

       We found one instance in which the coordination of a DEA Mobile
Enforcement Team in Reading, Pennsylvania (outside of Philadelphia),
was only partially effective. According to documents and statements
provided by the DEA, the Reading Chief of Police requested a DEA Mobile
Enforcement Team deployment on March 1, 2005. An Assistant
U.S. Attorney reported to the OIG that after the Chief’s request, there
were coordination difficulties between the DEA, the FBI, and ATF
because ATF and the FBI were already conducting task force operations
in Reading and were concerned that their confidential informants would
be arrested by the DEA Mobile Enforcement Team. In response to the
other components’ concerns, the Philadelphia DEA Special Agent in
Charge met with the Philadelphia FBI and ATF Special Agents in Charge
to better coordinate the deployment.

       On March 16, 2005, a meeting was held to discuss the specifics of
the deployment. Representatives of the U.S. Attorney’s Office; the DEA;
ATF; the Pennsylvania State Police; the Berks County, Pennsylvania,
District Attorney’s Office; and the Reading Police Department attended.
The Reading Police Department officers included a Sergeant who was a
full-time member of the FBI Safe Streets Task Force. The DEA Assistant
Special Agent in Charge believed that the Reading Police Sergeant was
representing the interests of the FBI Safe Streets Task Force. However,
the Sergeant stated to the OIG that he did not represent the FBI at the
meeting and that he stated this at the meeting.

       DEA documents showed that after the March 16 meeting, the DEA
opened a case file to support the DEA Mobile Enforcement Team
deployment to Reading on March 17, 2005. The DEA Philadelphia Field
Division completed the pre-deployment assessment on April 5, DEA
managers approved funding for the deployment on April 6, and the DEA
Mobile Enforcement Team began operations in Reading on
April 18, 2005.

      An FBI Assistant Special Agent in Charge in Philadelphia stated
that there was no cooperation between the FBI and the DEA before or


U.S. Department of Justice                                              50
Office of the Inspector General
Evaluation and Inspections Division
during the deployment of the DEA Mobile Enforcement Team to Reading.
The FBI Special Agent who supervised the FBI Safe Streets Task Force in
Reading stated that the FBI was not invited to the March 16, 2005, pre-
deployment coordination meeting. The supervisor also stated that there
was no cooperation between the DEA Mobile Enforcement Team and the
FBI Safe Streets Task Force prior to, during, or after the deployment.

      An Assistant U.S. Attorney stated that the U.S. Attorney’s Office
had to mediate several meetings involving ATF, the DEA, and the FBI to
determine how federal targets of the Reading DEA Mobile Enforcement
Team deployment would be deconflicted. He also stated that individual
DEA and FBI task force operations were deconflicted by the Berks
County District Attorney’s Office. Despite the coordination issues, an
Assistant U.S. Attorney and an ATF Supervisory Special Agent stated
that ATF, DEA, FBI, and state and local law enforcement operations were
deconflicted during the DEA Mobile Enforcement Team deployment in
Reading.

       All of the components invite local law enforcement to participate on
their task forces. As a result, a Chief Inspector of the Philadelphia Police
Department said that participation on the task forces was becoming a
drain on department resources. The Chief Inspector complained that
there are no efforts by the components to coordinate requests for local
task force participation and said that the Special Agents in Charge
exploit the fact that the police department will not refuse requests for
participation on the task forces.

       Cooperation on Investigations. ATF, the DEA, and the FBI have
local policies requiring the use of information-sharing systems, but the
USMS does not. ATF and FBI Special Agents in Charge said that it was
their local offices’ policy that their task forces use the HIDTA
information-sharing system to coordinate investigations. For example,
the ATF Violent Crime Impact Team and the FBI Violent Gang Safe
Streets Task Force, which had overlapping gang investigations, shared
information to facilitate gang investigations in Philadelphia’s 12th Police
District. The DEA Special Agent in Charge said DEA policy mandates
that all investigations be entered into the HIDTA system. Special Agents,
Deputy Marshals, and local officers stated that all task forces, except for
the FBI task forces, comply with coordination policies. An FBI Special
Agent assigned to an FBI Safe Streets Task Force said there is no
coordination at the early stage of an investigation. Although the USMS
does not have a policy, the Chief Deputy U.S. Marshal said the USMS
uses the HIDTA system to coordinate fugitive investigations. FBI task


U.S. Department of Justice                                               51
Office of the Inspector General
Evaluation and Inspections Division
force members stated that they do not use the HIDTA to coordinate non-
drug investigations but deconflict operations through the Philadelphia
Police Department.

       The FBI and the USMS fugitive task forces duplicate investigations.
The Philadelphia Police Department divides its warrants among its gun
violence squad, the FBI, and the USMS. The Top 10 Most Wanted
fugitives in Philadelphia are divided in half between the FBI and the
USMS. Every Monday, one of Philadelphia’s Top 10 Most Wanted is
advertised in the newspaper – the ad alternates every week with FBI and
USMS fugitives. A telephone number for the appropriate component is
included, but occasionally the newspaper switches the components’
names or telephone numbers. When this happens, the components
must relay the tips that were phoned in to the other component.
Regarding the FBI Safe Streets Task Force and the USMS District
Fugitive Task Force, a Chief Inspector of the Philadelphia Police
Department said, “That’s where the biggest duplication of effort is.” The
FBI and the USMS reported the following examples of duplication:

   •   USMS task force officers were conducting a fugitive investigation
       when task force members found out from a witness that the task
       force was a few hours behind FBI Safe Streets Task Force officers
       who were asking questions about the same fugitive.

   •   Deputy Marshals reported three examples in which the FBI was
       actively attempting to apprehend fugitives under investigation by
       the USMS task force. We confirmed that the FBI had not obtained
       federal Unlawful Flight to Avoid Prosecution warrants for these
       fugitives.

   •   The Philadelphia Police Department requested the FBI Safe Streets
       Task Force’s assistance to find and arrest a rape suspect who the
       USMS task force was already investigating for a parole violation.

      Because of the duplication of effort, there are tensions between the
FBI Safe Streets Task Force and the USMS District Fugitive Task Force.
FBI Special Agents and USMS Deputy Marshals expressed concerns
regarding task forces “stealing” one another’s cases, incorrect statistics,
and failure to honor Memorandums of Understanding regarding fugitive
investigation responsibilities.

     Event Deconfliction. Three of the four components have a policy to
deconflict events using the HIDTA information-sharing system. The ATF


U.S. Department of Justice                                              52
Office of the Inspector General
Evaluation and Inspections Division
Special Agent in Charge said it is his policy to use the local HIDTA
system to deconflict events. The DEA Special Agent in Charge said
nation-wide DEA policy mandates that all events be deconflicted and that
it is local policy to deconflict through the local HIDTA system. A local
officer assigned to the USMS District Task Force said use of the local
HIDTA system for event deconfliction is mandatory because it is a safety
issue. The FBI Violent Gang Safe Streets Task Force has a policy and
uses the HIDTA system to deconflict events. The FBI Safe Streets Task
Force that focuses on fugitives does not have a policy requiring the use of
the HIDTA system for deconfliction. Instead, this task force deconflicts
state and local fugitive investigations through the Philadelphia Police
Department. No blue-on-blue incidents were reported in Philadelphia.

Los Angeles, California

      All four types of task forces operate in Los Angeles: an ATF Violent
Crime Impact Team, two DEA Mobile Enforcement Teams, two FBI Safe
Streets Task Forces, and a USMS Regional Fugitive Task Force. We
found coordination of task force investigations to be mixed. Because
federal, state, and local law enforcement agencies routinely use LA Clear
to deconflict events, the task forces have been successful in avoiding
blue-on-blue incidents.

       Task Force Management. The U.S. Attorney does not directly
coordinate task force operations through regular meetings or other
efforts. Instead, Assistant U.S. Attorneys work with the FBI Violent Gang
Safe Streets Task Force and the ATF Violent Crime Impact Team to
coordinate individual gang-related crime investigations. ATF and FBI
Special Agents stated that they compete in Los Angeles because the two
gang task forces work with the same Los Angeles Police Department
officers. However, task force supervisors and members said that because
Los Angeles and its gang problem are so large, task force members
believe that each task force has more than enough work and the chance
of overlapping investigations is small. A U.S. Attorney’s Office official
told the OIG that she believes, “Overlaps never happen,” and the
possibility that investigations will overlap “is an absurd notion.”

       There are two task forces with fugitive missions: an FBI Safe
Streets Task Force and a USMS Regional Fugitive Task Force. The FBI
Special Agent in Charge, the U.S. Marshal, and local police supervisors
said that, although both are fugitive task forces, the task forces pursue
different types of fugitives. But we found tensions between the two task
forces, and FBI Special Agents told the OIG that the USMS misrepresents


U.S. Department of Justice                                              53
Office of the Inspector General
Evaluation and Inspections Division
the FBI when meeting with other law enforcement agencies: “The USMS
tells the locals that the FBI isn’t doing fugitives anymore, but that’s not
true.”

       Cooperation on Investigations. Task force members stated that
they coordinate investigations through LA Clear and that this
coordination helps them avoid duplicate investigations. The task forces
also cooperate through the implementation of Memorandums of
Understanding and occasionally conduct joint investigations. For
example, the USMS Regional Fugitive Task Force supports ATF and DEA
task forces by investigating their fugitives, and ATF and the DEA
assigned Special Agents to the USMS Regional Fugitive Task Force to
assist in fugitive investigations.

       Despite the Department’s policy on fugitive investigations, the FBI
Safe Streets Task Force and the USMS Regional Fugitive Task Force
failed to coordinate an international fugitive investigation with each
other.




U.S. Department of Justice                                               54
Office of the Inspector General
Evaluation and Inspections Division
          THE FBI AND THE USMS FAILED TO COORDINATE AN
               INTERNATIONAL FUGITIVE INVESTIGATION
The Los Angles County District Attorney’s Office requested the FBI’s
assistance in capturing a fugitive, and the FBI obtained a federal Unlawful
Flight to Avoid Prosecution warrant. The following conflicting accounts
provided by the FBI and USMS task forces describe the uncoordinated
attempts to apprehend the same fugitive.
     FBI Safe Streets Task Force           USMS Regional Fugitive Task Force

In 2005, a source told a Deputy           In 2005, the Los Angles County
Marshal on the Regional Fugitive          District Attorney’s Office called the
Task Force that the fugitive had fled     USMS Regional Fugitive Task Force
to Mexico. The FBI had Special            and requested assistance in locating
Agents in Mexico waiting to make the      and apprehending a fugitive. The
arrest. However, the Los Angeles          Regional Fugitive Task Force
County District Attorney had not          determined that the fugitive was the
agreed to allow the FBI to state to the   subject of an FBI federal warrant, so
Mexican authorities that California       the USMS advised the District
would not seek the death penalty, as      Attorney’s Office that, because of the
required by the extradition treaty        FBI’s federal warrant, the Regional
between the United States and             Fugitive Task Force would not
Mexico. Meanwhile, the USMS told          investigate. The District Attorney’s
the local District Attorney that it       Office informed the FBI that its
could get the defendant out of Mexico     assistance in the investigation was no
immediately. Deputy Marshals and          longer desired and requested that the
Mexican authorities arrested the          federal warrant based on their local
fugitive, and he was returned to the      charges be quashed. For several
United States. The FBI Special Agent      months, up through the issuance of a
in Charge of the Safe Streets Task        provisional arrest warrant for the
Force stated that he had informed the     fugitive in Mexico, the FBI continued
USMS that its proposed action was         to insist that it would maintain
dangerous and that he told the FBI        control of the investigation, despite
Special Agents in Mexico to stand         the District Attorney’s Office’s desire
down so that no one would get hurt.       to have the USMS arrest the fugitive
When the FBI Special Agent in             and arrange for his return to the
Charge of the Safe Streets Task Force     United States. With the District
asked the Deputy Marshals to justify      Attorney’s approval, Deputy Marshals
their actions, they initially denied      and Mexican authorities made the
that the incident had occurred. FBI       arrest, and the fugitive was returned
Special Agents stated that incidents      to the United States.
like this one make it more difficult to
coordinate future task force
investigations.


U.S. Department of Justice                                                    55
Office of the Inspector General
Evaluation and Inspections Division
       Event Deconfliction. The task forces routinely use LA Clear to
deconflict events. Even though there are multiple task forces in
Los Angeles – an ATF Violent Crime Impact Team, two DEA Mobile
Enforcement Teams, two FBI Safe Streets Task Forces, and a USMS
Regional Fugitive Task Force – the task forces’ members stated that
because their task forces use LA Clear to deconflict events, there had
been no blue-on-blue incidents in Los Angeles. An ATF Special Agent
emphasized the lesson he learned when he failed to deconflict a law
enforcement event: A team of ATF Special Agents had a residence under
surveillance all night before they noticed other government cars. One of
the ATF Special Agents recognized an FBI Special Agent in one of the
cars, so they made some phone calls and verified that it was the FBI.
The ATF Special Agent acknowledged that he had not called LA Clear
before the operation to deconflict the event.

Chicago, Illinois

      Chicago has a DEA Mobile Enforcement Team, three FBI Safe
Streets Task Forces, and a USMS Regional Fugitive Task Force. There is
also a local ATF task force in Chicago. Although anti-gang task force
investigations are well coordinated through the U.S. Attorney’s Office, the
components are reluctant to cooperate on other violent crime and fugitive
investigations.

       Task Force Management. Although both ATF and two of the FBI
Safe Streets Task Forces have anti-gang crime missions, there is little
duplication of effort because the U.S. Attorney coordinates all gang
investigations through a monthly gang strategy meeting called the
“Top 20” meeting. At the Top 20 meetings, representatives from ATF, the
DEA, the FBI, and the Chicago Police Department share intelligence on
their gang targets and, based on the intelligence, update the Top 20 gang
targets. The component with the best intelligence on a target normally
leads the investigation, and the other components share information with
that component. An ATF Special Agent stated that sometimes there was
“head butting” over who had the best intelligence, but the U.S. Attorney
decides which component leads the investigation.

       Even if a gang target does not attain Top 20 status, the
components coordinate gang investigations through the U.S. Attorney’s
Office. Individual Assistant U.S. Attorneys are assigned to specific
gangs. If there is an overlapping investigation, the U.S. Attorney’s Office
decides which task force will handle the investigation.



U.S. Department of Justice                                               56
Office of the Inspector General
Evaluation and Inspections Division
       ATF, DEA, and FBI Special Agents told us that the components
and task force members have developed close partnerships with the local
police department and that the local police department serves as the
coordinating mechanism for task force efforts. As a result of the Top 20
meetings and the coordination efforts of the local police, we found little
overlap in the anti-gang operations of federal task forces in Chicago.
However, we found limited efforts to coordinate fugitive task force efforts.

       For example, the creation of a new USMS Regional Fugitive Task
Force overlapped with an existing FBI Safe Streets Task Force. The FBI
Safe Streets Task Force began solely as a fugitive unit, with the USMS,
the Chicago Police Department, and the Cook County Sheriff’s Office as
partners. When the USMS Regional Fugitive Task Force was created, the
U.S. Marshal and the Chicago Police Department reassigned the Deputy
Marshals and the entire Chicago Police Department Fugitive Squad from
the FBI Safe Streets Task Force to the USMS Regional Fugitive Task
Force. An FBI Special Agent stated that a task force member from the
Cook County Sheriff’s Office gave him only a day’s notice that he was
leaving for the USMS Regional Fugitive Task Force. The FBI has been
invited to participate on the USMS Regional Fugitive Task Force on
several occasions, but the FBI has always declined.

       The components also compete for local participation on their task
forces. An ATF Special Agent pointed out that there are five police
officers assigned to the FBI task force, as opposed to the two that are
assigned to his task force. The ATF Special Agent also stated that he
believed that the difference was a result of the FBI’s bigger budget and
other incentives, such as asset sharing from seizures.

       Cooperation on Investigations. All the components have policies
mandating that investigations be coordinated to avoid duplication of
effort. ATF, DEA, and FBI policies dictate the use of the local HIDTA
information-sharing system to coordinate investigations. But we found
that only ATF and the DEA comply with their policies. Moreover, the
components do not often cooperate on joint investigations. An ATF
Special Agent stated that his component does “not make a habit of
working with the other components.” An FBI Special Agent stated, “If I
can avoid it, I won’t work any joint investigations with other federal
agencies.” The FBI Special Agent went on to state that he believed his
agency does “10 times a better job” than other components and that he
believes that other agencies have tried to steal his cases.




U.S. Department of Justice                                               57
Office of the Inspector General
Evaluation and Inspections Division
       There is the potential for fugitive task forces in Chicago to conduct
overlapping investigations on state and local cases. Under Illinois law,
“investigative alerts” (instead of warrants) are issued for fugitives. Unlike
warrants, investigative alerts cannot be entered into NCIC. Therefore, to
coordinate fugitive investigations, the FBI Safe Streets Task Force that
conducts fugitive investigations and the USMS Regional Fugitive Task
Force have agreed that the task force that gets a case first investigates it.
To determine if the USMS is already investigating a case, the FBI Safe
Streets Task Force asks the local agency referring the investigation if the
USMS Regional Fugitive Task Force is involved. The USMS Regional
Fugitive Task Force also has agreed not to investigate if the FBI has
obtained a federal Unlawful Flight to Avoid Prosecution warrant recorded
in the Warrant Information Network. However, FBI Safe Streets Task
Force preliminary investigations to determine whether a federal Unlawful
Flight to Avoid Prosecution warrant is necessary are not entered into the
federal Warrant Information Network or NCIC, which creates the
potential for duplication of effort and conflict of operations with the
USMS task force.

       USMS Regional Fugitive Task Force members acknowledged that
there had been conflicts with the FBI in the past, but they believed that
the problems had been “quashed” and were now “almost non-existent.”
However, interviews with FBI Special Agents indicate that the
relationship is still strained and coordination is difficult. An FBI Special
Agent stated that the USMS was “less professional” than the FBI, was
only interested in “door-kicking cases,” was “in a numbers game,” and
arrested “low-level criminals.” Another FBI Special Agent stated that the
creation of the Regional Fugitive Task Force had caused “nothing but
problems.”

      Event Deconfliction. All four components have local event
deconfliction policies, but the FBI does not consistently deconflict events.
ATF, DEA, and FBI policies mandate the use of the local HIDTA
information-sharing system for event deconfliction. The USMS Regional
Fugitive Task Force calls other agencies to alert them to upcoming
operations. ATF, DEA, and USMS task forces comply with their
deconfliction policies. However, one FBI Safe Streets Task Force does not
comply with FBI policy to use the local HIDTA system and does not
contact other agencies either. An FBI Special Agent stated that if he told
the Chicago Police Department that he was “hitting a place,” the
investigation would be stolen.




U.S. Department of Justice                                                58
Office of the Inspector General
Evaluation and Inspections Division
      A blue-on-blue incident occurred in Chicago in December 2005
between ATF and the FBI when an ATF confidential informant and an
undercover ATF Special Agent bought a loaded gun from an FBI Safe
Streets Task Force confidential informant. After the buy was completed,
the ATF undercover agent was arrested.

       The ATF Special Agent responsible for the undercover operations
said that he used the local HIDTA deconfliction system to check the
location of the gun sale and the nicknames associated with the seller;
there were no hits. Meanwhile, the FBI Special Agent who supervised the
FBI Safe Streets Task Force stated that the FBI assumed that the
Chicago Police Department would deconflict the sale of the gun by the
FBI confidential informant because the Chicago Police Department would
be arresting the buyer.

       The FBI Special Agent said that the Chicago Police Department did
not deconflict the sale because an FBI source had provided the
information that led to the investigation and they though the FBI would
handle the deconfliction. In the end, neither the FBI nor the Chicago
Police Department deconflicted the undercover sale. The gun buy went
through and was followed by a traffic stop of the undercover ATF agent,
engineered by the FBI and the Chicago Police Department. Both the
undercover ATF Special Agent and the FBI’s confidential informant were
arrested. Afterwards, ATF, the FBI, and the Chicago Police Department
met to discuss the incident, and an FBI Supervisory Special Agent told
us that the FBI strengthened its policy to require deconfliction and
reiterated the need for deconfliction to all task force members “to avoid a
similar mistake.”

Las Vegas, Nevada

      All four types of task forces operate in Las Vegas: an ATF Violent
Crime Impact Team, a DEA Mobile Enforcement Team, two FBI Safe
Streets Task Forces, and a branch office of the USMS Pacific Southwest
Regional Fugitive Task Force. The task forces’ missions overlap, and
Special Agents, Deputy Marshals, and task force officers were unable to
provide specific examples of successful coordination or deconfliction. To
the contrary, they provided several examples of failure to coordinate
investigations and described one blue-on-blue incident.

      Task Force Management. Although the task forces in Las Vegas
have overlapping gang missions, the U.S. Attorney’s Office does not
coordinate task force operations and instead resolves disputes on an


U.S. Department of Justice                                               59
Office of the Inspector General
Evaluation and Inspections Division
ad hoc basis. Both the ATF Violent Crime Impact Team and the FBI Violent
Gang Safe Streets Task Force focus on reducing gang-related violent
crime, sometimes in the same neighborhoods. When their investigations
overlap, the U.S. Attorney decides which task force’s investigation should
take the lead. Local police supervisors told us that they could not
differentiate between the ATF Violent Crime Impact Team’s and the FBI
Violent Gang Safe Streets Task Force’s operations.

       Two fugitive task forces also operate in Las Vegas: an FBI Safe
Streets Task Force, known locally as the Criminal Apprehension Team
(CAT), and a joint USMS Regional Fugitive Task Force-District Task
Force, known locally as the Fugitive Investigative Strike Team (FIST).
Prior to the creation of the FIST, a Deputy Marshal was assigned to the
CAT. However, tensions are now high between the two task forces
because both conduct fugitive investigations based on state warrants
that the task forces receive from the local police department. FBI Special
Agents and Deputy Marshals as well as the local Sheriff recognized the
duplication of effort and acknowledged tensions between the two
agencies. One FBI Supervisory Special Agent said the USMS “doesn’t
have the capability to chase fugitives.” A Supervisory Deputy Marshal
said that the FBI should shut down its fugitive efforts because it does not
make sense to have two task forces and added, “We want to be in charge
of the FBI’s fugitives because that’s what we do.”

       Competition also exists for local participation on the task forces.
The Sheriff stated that there had been times when he declined
participation on a violent crime task force because his department was
already participating on a similar task force. The Sheriff said that he
recently declined to participate on an FBI task force and that there had
been a “flare up” with the USMS because the U.S. Marshal wanted one or
two more police officers for the USMS task force.

       Cooperation on Investigations. The cooperation on task force
investigations in Las Vegas is poor. ATF, DEA, and FBI Special Agents
do not regularly share information on specific suspects under
investigation and do not conduct joint investigations. The DEA field
office specifically declined to work with the FBI Safe Streets Task Force
because of tension between the two agencies. The DEA Assistant Special
Agent in Charge stated that the DEA’s relationship with the FBI was
strained because of the FBI’s actions in previous overlapping
investigations and because of disputes regarding the operation of a local
intelligence center. He explained that the DEA, in cooperation with the
USMS FIST, had conducted fugitive and criminal investigations on


U.S. Department of Justice                                              60
Office of the Inspector General
Evaluation and Inspections Division
members of a local motorcycle gang. The FBI Safe Streets Task Force
arrested the DEA targets while the DEA task force was planning its
arrest operation. However, DEA headquarters reported that the strained
relationship in Las Vegas did not directly involve DEA Mobile
Enforcement Team operations and that the cooperation level between the
FBI and the DEA in Las Vegas is improving.

      We also found open hostility between FBI and USMS fugitive task
force members, with both conducting investigations of fugitives wanted
on state warrants only. The lack of coordination between the CAT and
the FIST has created several duplications of effort, for example:

   •   In the Ohio freeway sniper investigation, both the CAT and the
       FIST received leads from outside Nevada. The FBI Special Agents
       and USMS Deputy Marshals both told us that they argued over
       which task force would attempt to apprehend the suspect but that
       they never agreed. Eventually, the CAT apprehended the suspect.

   •   An escapee from a Nevada state prison was believed to have
       committed a series of violent robberies. The U.S. Attorney received
       requests for warrants from both the FBI and the USMS to tap and
       trace cell phones and had to resolve the conflict.

The HIDTA Executive Director noted the animosity between members of
the USMS and FBI task forces and stated that “something must be done
to ensure officer safety.”

       When pressed for an example of coordination, an FBI Special Agent
on the CAT said that the FBI recently learned from a confidential
informant that a suspect was wanted on a DEA warrant. The FBI did not
contact either the DEA or the USMS regarding the lead and instead
arrested the suspect. Once the arrest had been made, the FBI contacted
the USMS and reported that the defendant was in custody. The USMS
told the FBI that the DEA had not transferred the warrant to the USMS
and advised the FBI to contact the DEA to assume custody of the
defendant. Neither the USMS Deputy Marshals nor the DEA Special
Agents involved consider this to be an example of coordination.

       Event Deconfliction. All of the components except the FBI have
local policies requiring the deconfliction of events. ATF, the DEA, and
the USMS comply with their policies by deconflicting through the LA
Clear HIDTA system. All of the components and local law enforcement
agencies stated that the FBI Safe Streets Task Forces does not use


U.S. Department of Justice                                                61
Office of the Inspector General
Evaluation and Inspections Division
LA Clear. Some FBI Special Agents stated that task force members do
use the system, but other FBI Special Agents stated that task force
members do not use LA Clear to deconflict, specifically during fugitive
investigations.

      ATF and DEA Special Agents reported several incidents in which
the FBI failed to deconflict operations, including one blue-on-blue
incident:

   •   The ATF Resident Agent in Charge stated that in June 2005, ATF
       conducted an undercover firearms operation at a gun show. ATF
       submitted the operation to LA Clear for deconfliction. LA Clear did
       not identify any potential conflicts. At the show, ATF arrested an
       individual for making an illegal gun purchase from an undercover
       ATF Special Agent. This individual claimed to be an FBI
       confidential informant working at the show on behalf of the FBI.
       According to ATF, despite numerous conversations between ATF
       and the FBI after the incident, the FBI refused to explain why FBI
       Special Agents had not deconflicted their undercover operation and
       refused to confirm or deny that the suspect was an FBI
       confidential informant. An FBI Supervisory Special Agent also
       declined to confirm or deny to OIG whether the individual was an
       FBI informant and stated that all agencies are secretive about their
       confidential informants and that many suspects claim they are
       confidential informants when they are not.

   •   A local task force officer stated that his task force was making an
       undercover drug buy that had been deconflicted through LA Clear.
       An FBI Special Agent showed up at the same address and at the
       same time to execute a search warrant. The task force officer said
       that the FBI had not used LA Clear.

Atlanta, Georgia

      All four task forces operate in Atlanta: an ATF Violent Crime
Impact Team, a DEA Mobile Enforcement Team, two FBI Safe Streets
Task Forces, and a USMS Regional Fugitive Task Force. Overall, we
found that task force investigations are not well coordinated.

      Task Force Management. We found limited direction of task force
operations and target areas in Atlanta. The U.S. Attorney’s Office holds
monthly meetings attended by representatives from all federal law
enforcement agencies, as well as bimonthly law enforcement leadership


U.S. Department of Justice                                                62
Office of the Inspector General
Evaluation and Inspections Division
meetings attended by the ATF, the DEA, and the FBI Special Agents in
Charge and representatives from the State Attorney General’s Office and
the Georgia Bureau of Investigation. However, task force managers and
Assistant U.S. Attorneys told us that task force operations are discussed
at these meetings only in general terms.

      With respect to coordinating anti-gang task forces, the Assistant
U.S. Attorney who is the Anti-Gang Coordinator and also works with the
FBI Safe Streets Task Force stated, “We are involved very early on to
coordinate targets and who should investigate them.” The Assistant
U.S. Attorney assigned to the ATF Violent Crime Impact Team stated that
members of the task force would inform her of their suspects from the
beginning of an investigation. However, task force managers stated that
the U.S. Attorney’s Office does not have a significant role in the
coordination of other violent crime task force investigations.

      Although the creation of the ATF Violent Crime Impact Team was
coordinated through the U.S. Attorney and the Office of the Deputy
Attorney General, ATF did not effectively coordinate with the other
component field offices in Atlanta. The ATF Special Agent in Charge
admitted that there was potential for their investigations to duplicate one
another and stated, “We’re doing the same thing.” An FBI Supervisory
Special Agent stated, “I am truly concerned that we are seriously going to
be duplicating [each other’s investigations of] gangs.”

       The fugitive missions of a second FBI Safe Streets Task Force and
the USMS Regional Fugitive Task Force also overlap. An Atlanta Police
Department Officer assigned to the USMS Regional Fugitive Task Force
explained to us that both task forces receive warrants from the Atlanta
Police Department, and on occasion, the Atlanta Police Department has
unintentionally assigned the same warrant to both task forces. The FBI
Safe Streets Task Force also increases the probability of duplication of
effort by investigating state and local fugitives without first obtaining a
federal Unlawful Flight to Avoid Prosecution warrant, as required by FBI
policy. Both FBI Special Agents and USMS Deputy Marshals admitted
that there has been friction between the two task forces but also stated
that relations have improved.

      ATF invited the DEA and the USMS to participate on the ATF
Violent Crime Impact Team. In return, both agencies provided points of
contact, and ATF provided a full-time member to the USMS Regional
Fugitive Task Force. ATF did not approach the FBI because, according to
the ATF Special Agent in Charge, both components investigate violent


U.S. Department of Justice                                               63
Office of the Inspector General
Evaluation and Inspections Division
crime, so cross-participation on the task forces would “wash each other
out.” The DEA Mobile Enforcement Team invited other agencies to join
its deployments and conduct joint investigations.

       Cooperation on Investigations. Only ATF has a local policy to
coordinate investigations, but all of the components’ task force members
said that they attempt to coordinate through word of mouth. Cooperative
efforts are limited because the Atlanta HIDTA information-sharing
system does not have the capability to support information sharing to
avoid duplicate investigations of the same suspect. A HIDTA official
reported that he proposed expanding the HIDTA’s deconfliction capability
to include an information-sharing system to help avoid duplicate
investigations by the components. The HIDTA official told us and the FBI
task force managers confirmed that the FBI declined to participate, and
because HIDTA’s operations require consensus by all law enforcement
agencies involved, the proposal was not implemented.

       The task forces in Atlanta rely on the local police departments for
coordination. The fugitive-focused FBI Safe Streets Task Force and the
USMS Regional Fugitive Task Force rely on the Atlanta Police
Department to coordinate warrants. The DEA Mobile Enforcement Team
relies on local police officials to “spread the word” and coordinate the
planned deployment with all law enforcement agencies in the area. As a
result, the FBI was not aware of a DEA Mobile Enforcement Team
deployment to a small town outside Atlanta until a local law enforcement
agency told the FBI that the DEA Mobile Enforcement Team was
interested in suspects that the FBI was actively investigating. After the
FBI became aware of the DEA Mobile Enforcement Team deployment, the
DEA and the FBI coordinated and investigated the suspects jointly.

       The task forces work together occasionally. For example, USMS
Regional Fugitive Task Force members reported that they worked with
members of the fugitive-focused FBI Safe Streets Task Force on a high-
profile investigation. However, a USMS Regional Fugitive Task Force
officer stated, “The case didn’t go well at all.” He stated that although
most of the legwork was done by one group of Atlanta Police Department
personnel on the USMS Regional Fugitive Task Force, another group of
Atlanta Police Department personnel assigned to the FBI Safe Streets
Task Force stepped in during the arrest and took credit for it.

      Event Deconfliction. Although the Atlanta HIDTA system does not
have the capability to support information sharing to avoid duplicate
investigations, it can support deconfliction of task force events. The DEA


U.S. Department of Justice                                             64
Office of the Inspector General
Evaluation and Inspections Division
and the FBI have local policies requiring their task forces to use the
HIDTA system to deconflict drug-related events. Neither ATF nor the
USMS have policies requiring their task forces to deconflict events in
Atlanta. The ATF Violent Crime Impact Team Coordinator stated that he
instructs his task force officers to use the HIDTA system for event
deconfliction. He provided the following example: The ATF Violent Crime
Impact Team was on standby at a location to “hit” a house and called the
HIDTA to report the event. Another agency was also preparing to serve a
warrant at the same house. Because that agency also called the HIDTA
to deconflict, a blue-on-blue was avoided.

       Although the FBI has a local deconfliction policy, it covers only
events associated with drug investigations. The FBI Violent Gang Safe
Streets Task Force has not used the HIDTA information-sharing system
to deconflict, and, according to the FBI task force manager, has crossed
paths with other task forces. Moreover, because the FBI and the USMS
fugitive task forces do not deconflict their law enforcement events, a
blue-on-blue incident occurred in Atlanta: A USMS Regional Fugitive
Task Force member reported that he was conducting surveillance on a
fugitive’s house when he was “pulled over” by members of the FBI Safe
Streets Task Force because he was in a car that was similar to the
fugitive’s car. The Task Force member told us that he had to get out of
his car during the surveillance and identify himself to the FBI Safe
Streets Task Force members.

      A similar situation occurred between an FBI Safe Streets Task
Force and the DEA. An FBI Special Agent stated that the FBI Safe
Streets Task Force members were conducting surveillance on a house
when task force officers noticed that DEA Special Agents were
conducting surveillance on the same house. When FBI Safe Streets Task
Force members met with the DEA to discuss the situation, the FBI Safe
Streets Task Force members learned that the DEA had been investigating
the targeted gang for a long time for drug trafficking before the FBI Safe
Streets Task Force began a murder-for-hire investigation on the same
gang. The FBI Special Agent stated that DEA Special Agents were angry
that the FBI Safe Streets Task Force wanted to move forward with its
investigation. FBI task force managers told us that the U.S. Attorney
had to referee between the two components. Both components have
continued with their separate investigations, but said that they
coordinate and deconflict on a daily basis.




U.S. Department of Justice                                             65
Office of the Inspector General
Evaluation and Inspections Division
Birmingham, Alabama

       In Birmingham, the FBI and USMS each have a task force in
operation, and two more task forces were planned – an ATF Violent
Crime Impact Team and an FBI Violent Gang Safe Streets Task Force.
ATF and the DEA also have local task forces there. The task forces’
missions overlap, there are no established procedures for coordination
and deconfliction, and the local police department is unable to provide
officers to all of the task forces. We found that task force investigations
in Birmingham are the least well coordinated of any city we visited.

       Task Force Management. The U.S. Attorney’s Office sponsors only
two meetings a year to set priorities and coordinate investigations that
could overlap with Organized Crime Drug Enforcement Task Force
(OCDETF) investigations. 31 With the exception of these biannual
OCDETF meetings, the U.S. Attorney’s Office does not routinely meet
with the components to coordinate targets, priorities, or investigations
but does coordinate investigations on an ad hoc basis after a duplication
of effort has been identified. For example, the FBI was investigating a
gang for bank robbery and murder, and the DEA was investigating the
same gang for drug-related crimes. When the FBI task force members
realized that the gang was involved with drugs, they called the local DEA
Special Agents, and the components discovered they were investigating
the same people. The DEA was already working with an Assistant
U.S. Attorney, so the FBI called that Assistant U.S. Attorney, who then
coordinated the two investigations.

      At the time of our visit, ATF and the FBI had proposed anti-gang
task forces in the same precincts, but were not coordinating to ensure
the task forces do not overlap. An Assistant U.S. Attorney predicted that,
with the increasing number of task forces, there would be more
duplication and that the U.S. Attorney’s Office would have to referee
more often.

      Additionally, the FBI and the USMS do not work together when
establishing agreements with local law enforcement agencies regarding
assistance with fugitive investigations. Instead, the FBI Safe Streets
Task Force and the USMS Regional Fugitive Task Force have separate
cooperative agreements with the police departments in Birmingham and
the adjacent suburb of Hoover. These agreements make investigations

       31 OCDETF is a federal drug enforcement program that focuses resources on the

disruption and dismantling of major drug trafficking organizations.



U.S. Department of Justice                                                       66
Office of the Inspector General
Evaluation and Inspections Division
more difficult when a fugitive travels back and forth between
Birmingham and Hoover.

      Cooperation on Investigations. The DEA is the only component
that has a policy requiring its task forces to use the local HIDTA
information-sharing system to coordinate investigations. ATF and DEA
Special Agents reported that their task forces routinely share
information, but a DEA official stated that the DEA’s task force personnel
coordinate with the FBI only “when they have to.”

      The DEA’s local task force and the FBI Safe Streets Task Force
have overlapping missions. The DEA task force has been investigating
the gang element in Birmingham’s methamphetamine epidemic. At the
same time, the mission of the FBI Safe Streets Task Force – historically a
violent crime task force that targeted major theft, carjackers, bank
robbers, and fugitives – changed to focus not only on gangs but also on
criminal enterprises that are involved with drugs. A DEA official believed
that the FBI Safe Streets Task Force may be “a backend for the FBI to
investigate drug dealers by calling them violent enterprises.” He added
that the task forces in Birmingham were all looking at the same thing
but at different stages.

       On fugitive investigations, FBI and USMS task force members do
not work together to provide assistance to local law enforcement.
Because the FBI and the USMS did not cooperate in establishing the
fugitive task force agreements described above, when a fugitive flees from
Birmingham to Hoover, or vice versa, the fugitive task force responsible
for assisting local law enforcement changes. The U.S. Marshal and the
Hoover Chief of Police told us that this arrangement made fugitive
investigations more difficult. However, the FBI does cooperate with the
USMS on specific investigations involving federal Unlawful Flight to Avoid
Prosecution warrants. FBI Special Agents stated that to ensure the
appropriate allocation of FBI resources, they would not investigate a
state fugitive case without first obtaining a federal Unlawful Flight to
Avoid Prosecution warrant.

      Event Deconfliction. Only the DEA has an event deconfliction
policy mandating the use of the HIDTA information-sharing system. One
DEA task force officer stated that task force members could accomplish
deconfliction nearly as effectively by “yelling over their cubicles.” The
other task forces deconflict operations by calling local police departments
individually. Because only the DEA uses the HIDTA system, one DEA
task force officer explained that to deconflict a reverse buy, he had to
make 10 phone calls. The USMS Regional Fugitive Task Force’s

U.S. Department of Justice                                              67
Office of the Inspector General
Evaluation and Inspections Division
members stated that they deconflicted events by running a warrant
check and then calling the other components and local law enforcement
agencies to alert them to upcoming operations. There were no reported
blue-on-blue incidents in Birmingham.




U.S. Department of Justice                                          68
Office of the Inspector General
Evaluation and Inspections Division
             CONCLUSION AND RECOMMENDATIONS


       The Department has increased the use of different types of task
forces to help reduce violent crime. At the end of FY 2005, there were 84
cities with more than 1 violent crime task force operated by the
Department and its components, up from 20 cities at the beginning of
FY 2003.

      As the number of cities with multiple task forces has increased,
concerns have also risen among Department officials, members of
Congress, and local police chiefs that the Department’s task force
investigations must be well coordinated to avoid duplication of effort. In
the Conference Report on the Department’s FY 2006 appropriations bill,
the Appropriations Committees directed the OIG to assess the
coordination of investigations conducted by 210 violent crime task forces.

      The Department operates violent crime task forces with
overlapping missions in the same city without requiring the components
to coordinate task force operations, cooperate during investigations, or
deconflict events. In August 2005, the Department issued a policy
requiring the components to obtain the Deputy Attorney General’s
approval to conduct anti-gang programs and activities in new locations.
To implement the 2005 policy, in June 2006 the Office of the Deputy
Attorney General established a detailed application process for new anti-
gang activities requiring support from and a recommendation by the U.S.
Attorney for the jurisdiction in which any new anti-gang task force would
operate.

       However, outside of anti-gang activities, there are still no
Department policies requiring the coordination of the operations of other
types of violent crime task forces. As a result, we found inconsistent and
inadequate cooperation and deconfliction among the Department’s
violent crime task forces we reviewed. U.S. Attorneys and component
task force managers in four of the eight cities we visited do not actively
coordinate task force operations. In some cities, task forces fail to use
information-sharing systems and, as a result, conduct duplicate
investigations. Interviews with Special Agents and Deputy Marshals in
six of the eight cities as well as our review of nation-wide arrest data
showed that task forces do not often cooperate in joint investigations.
While task force members generally deconflict specific events during
investigations, we learned of three serious blue-on-blue incidents that



U.S. Department of Justice                                             69
Office of the Inspector General
Evaluation and Inspections Division
demonstrated the need to improve deconfliction efforts to ensure officer
safety.

      Our analysis of nation-wide task force arrest data also indicated
that the components’ coordination of task force investigations was
limited. We found 1,288 arrests had been reported by more than one
task force from FYs 2003 through 2005. Only 520 of these arrests
resulted from joint investigations, while 768 resulted from duplicate
investigations by two task forces.

      We believe that the Department should establish policies governing
the coordination of all task forces and their operations. Specifically, we
recommend that the Department:

   1. Require that the U.S. Attorney’s Office and the components’ task
      force managers in each jurisdiction with multiple violent crime
      task forces implement guidance for coordinating task force
      operations.

   2. Require each component to use national and local information-
      sharing and deconfliction systems to coordinate investigations and
      protect officer safety.

   3. Require the components to submit all proposed violent crime or
      fugitive task forces to an assessment and approval process similar
      to that used by the Anti-Gang Coordination Committee.

   4. Require each component to examine compliance with Department
      and component policies on task force coordination during periodic
      internal management reviews.




U.S. Department of Justice                                                70
Office of the Inspector General
Evaluation and Inspections Division
        APPENDIX I: TASK FORCE LOCATIONS AS OF 9/30/05


                                      ATF    DEA      FBI   USMS
LOCATION
                                      VCIT   MET*    SSTF   RFTF**
                      CITIES WITH FOUR TASK FORCES
Camden, NJ
Los Angeles, CA
Washington, DC
                     CITIES WITH THREE TASK FORCES
Atlanta, GA
Baltimore, MD
Chicago, IL
Gainesville, GA
Houston, TX
Las Vegas, NV
Long Beach, CA
New Orleans, LA
Richmond, VA
San Diego, CA
                      CITIES WITH TWO TASK FORCES
Allentown, PA
Alton, IL
Anaheim, CA
Annapolis, MD
Asbury Park, NJ
Atlantic City, NJ
Azusa, CA
Barrow County, GA
Baton Rouge, LA
Calverton, MD
Chattanooga, TN
Colton, CA
Compton, CA
Corona, CA



U.S. Department of Justice                                       71
Office of the Inspector General
Evaluation and Inspections Division
                                      ATF    DEA     FBI   USMS
LOCATION
                                      VCIT   MET*   SSTF   RFTF**
Dalton, GA
Elizabeth, NJ
Elkridge, MD
Escondido, CA
Fontana, CA
Garden Grove, CA
Garret Mountain, NJ
Gary, IN
Hampton Roads, VA
Hartford, CT
Hempstead, NY
Imperial Beach, CA
Indianapolis, IN
Inglewood, CA
Jamaica, NY
Joliet, IL
La Grange, IL
La Porte, IN
Lake Charles, LA
Laurel, MD
Lawrenceville, GA
Lisle, IL
Miami, FL
Middletown, NY
Milledgeville, GA
Milwaukee, WI
Mobile, AL
Moline, IL
Mount Vernon, NY
New York, NY
Newark, NJ
Norfolk, VA
Oceanside, CA
O'Fallon, IL


U.S. Department of Justice                                      72
Office of the Inspector General
Evaluation and Inspections Division
                                      ATF    DEA     FBI   USMS
LOCATION
                                      VCIT   MET*   SSTF   RFTF**
Orange, NJ
Peoria, IL
Perth Amboy, NJ
Petersburg, VA
Philadelphia, PA
Phoenix, AZ
Pittsburgh, PA
Portland, OR
Prince George’s County, MD
Reading, PA
Riverdale, IL
Riverside, CA
Rome, GA
Santa Ana, CA
Seattle, WA
Tampa, FL
Terre Haute, IN
Texas City, TX
Thomasville, GA
Tulsa, OK
Waukegan, IL
White Plains, NY
Yonkers, NY
                       CITIES WITH ONE TASK FORCE
Abilene, TX
Adams County, CO
Aguadilla, PR
Albuquerque, NM
Ascension Parish, LA
Auburn, WA
Austin, TX
Avondale, AZ
Benton Harbor, MI
Bethlehem, PA


U.S. Department of Justice                                      73
Office of the Inspector General
Evaluation and Inspections Division
                                      ATF    DEA     FBI   USMS
LOCATION
                                      VCIT   MET*   SSTF   RFTF**
Billings, MT
Birmingham, AL
Boise, ID
Boston, MA
Boulder County, CO
Bridgeport, CT
Bristol Township, PA
Buffalo, NY
Canton, OH
Cataño, PR
Ceiba, PR
Charleston, SC
Charleston, WV
Charlotte, NC
Chester, PA
Chico, CA
Cleveland, OH
Clovis, NM
Cochise County, AZ
Colorado Springs, CO
Columbia County, FL
Columbia, SC
Columbus, OH
Corpus Christi, TX
Covington, KY
Dallas/Ft. Worth, TX
Dayton, OH
Daytona Beach, FL
Denver, CO
Detroit, MI
Dover, DE
Durham, NC
East Lansing, MI
East Palo Alto, CA


U.S. Department of Justice                                      74
Office of the Inspector General
Evaluation and Inspections Division
                                      ATF    DEA     FBI   USMS
LOCATION
                                      VCIT   MET*   SSTF   RFTF**
El Paso, TX
Erie, PA
Farmington, NM
Ferris, TX
Fitchburg, MA
Flint, MI
Fort Myers, FL
Framingham, MA
Franklin County, MO
Fresno, CA
Gainesville, TX
Galveston County, TX
Gloucester, MA
Grand Rapids, MI
Great Falls, MT
Greensboro, NC
Greenville, TX
Guaynabo, PR
Hallandale Beach, FL
Harrisburg, PA
Henderson, NV
Hobbs, NM
Hollenbeck, CA
Huntington, WV
Jackson, MS
Jacksonville, FL
Jefferson County, CO
Jefferson County, NY
Jefferson Parish, LA
Kansas City, KS
Kansas City, MO
Key West, FL
Kingston/Ulster, NY
Knoxville, TN


U.S. Department of Justice                                      75
Office of the Inspector General
Evaluation and Inspections Division
                                      ATF    DEA     FBI   USMS
LOCATION
                                      VCIT   MET*   SSTF   RFTF**
Lake County/Clermont, FL
Lancaster, PA
Larimer County, CO
Las Cruces, NM
Lewiston, ME
Little Rock, AR
Marlin, TX
Martinsburg, WV
Mayagüez, PR
McAllen, TX
Memphis, TN
Merced, CA
Midland, TX
Minneapolis, MN
Mohave County, AZ
Monahan/Odessa, TX
Monroe, LA
Montgomery County, NY
Montgomery County, TX
Mount Pleasant, MI
Nampa, ID
Nashville, TN
Navajo County, AZ
New Kensington, PA
Oakland, CA
Ogden, UT
Oklahoma City, OK
Omaha, NE
Opa-locka, FL
Orange County, FL
Orangeburg, SC
Palm Beach, FL
Pascagoula, MS
Peoria, AZ


U.S. Department of Justice                                      76
Office of the Inspector General
Evaluation and Inspections Division
                                      ATF    DEA     FBI   USMS
LOCATION
                                      VCIT   MET*   SSTF   RFTF**
Pocola, OK
Ponce, PR
Providence, RI
Provincetown, MA
Pueblo, CO
Raleigh, NC
Rehoboth Beach, DE
Richmond, CA
Richmond, TX
Riviera Beach, FL
Roswell, NM
Sacramento, CA
Salt Lake City, UT
San Antonio, TX
San Francisco, CA
San Jose, CA
San Juan, PR
Santa Rosa, CA
Scottsdale, AZ
Seatac, WA
Shreveport, LA
Silver City, NM
Smith County, TX
Snohomish County, WA
Springfield, MA
Springfield, MO
St. Joseph, MI
St. Louis, MO
St. Thomas, VI
Stockton, CA
Steubenville, OH
Surprise, AZ
Tacoma, WA
Toledo, OH


U.S. Department of Justice                                      77
Office of the Inspector General
Evaluation and Inspections Division
                                      ATF     DEA          FBI       USMS
LOCATION
                                      VCIT    MET*        SSTF       RFTF**
Troy, NY
Tucson, AZ
Tyler, TX
Upper Darby, PA
Vallejo, CA
Westfield, CT
White Center, WA
Williamsport, PA
Wilmington, DE
Windsor, CA
Windsor, CT
Yolo County, CA
Youngstown, OH

* Mobile Enforcement Teams temporarily deploy to locations for an
average of 6 months. This table indicates deployments from FYs 2003
through 2005.

** Regional Fugitive Task Forces cover entire federal judicial districts,
not just individual cities. This table identifies cities within those judicial
districts that have at least one of the other three task forces.




U.S. Department of Justice                                                  78
Office of the Inspector General
Evaluation and Inspections Division
          APPENDIX II: METHODOLOGY TO IDENTIFY DUPLICATE ARRESTS


                To analyze task forces’ efforts to coordinate investigations involving
         the same target, we asked each component to provide the name, date of
         birth, Social Security Number, and FBI Number (identifiers) of every
         individual who was arrested by one of the task forces during FYs 2003
         through 2005. Table 7 shows the search criteria used by the
         components to generate these lists of individuals.

                              Table 7: Components’ Search Criteria

                                                                                                      Number
                   Database
Component                                                 Data Provided                              of Arrests
                   Searched
                                                                                                     Identified
                                   ATF first identified all investigations in N-Force that had
                                   been flagged with a Violent Crime Impact Team code. For
                                   those investigations, ATF provided identifiers for all
   ATF              N-Force                                                                              1,678*
                                   defendants who were either (1) arrested before 10/01/2005
                                   or (2) whose investigations were closed before 10/01/2005
                                   without arrest.
                Priority Target    The DEA first identified all Mobile Enforcement Team
                    Activity       deployments completed during FYs 2003 through 2005.
                   Resource        For those investigations, the DEA provided identifiers for all
  DEA             Reporting                                                                               4,024
                                   defendants who were either (1) arrested or (2) whose
                    System         investigations were closed before 10/01/2005 without
                   (PTARRS)        arrest.

                 Integrated        The FBI first reviewed its list of case classifications and
                  Statistical      identified 71 classifications that were most likely to have
                Reporting and      been investigated by a Safe Streets Task Force.** Within
   FBI             Analysis        those classifications, the FBI provided identifiers for all           24,265
                 Application       defendants who were arrested during FYs 2003 through
                                   2005 in a field division that included one or more Safe
                    (ISRAA)        Streets Task Forces.
                                   The USMS first identified all districts that participate in a
                   Warrant         Regional Fugitive Task Force. The USMS then identified all
  USMS           Information       individuals who were arrested by the USMS during FYs                  67,261
                Network (WIN)      2003 through 2005 and whose warrants had been issued in
                                   one of those districts.
         * The VCIT program began in June 2004. Therefore, ATF provided only 16 months of
         arrest data, while the other components provided 3 years of arrest data.
         ** FBI case classifications identify the type of crime being investigated. The case
         classifications identified for this analysis were part of the Violent Incident Crimes
         Program, Violent Gangs Program, Major Theft Program, or Fugitive Program.
               We entered the identifiers of every individual who was arrested by
         one of the task forces during FYs 2003 through 2005 into SPSS 14.0 and

         U.S. Department of Justice                                                                 79
         Office of the Inspector General
         Evaluation and Inspections Division
used the “Identify Duplicate Cases” feature to identify possible overlaps
among the components. The feature allows the user to identify one or
more fields that SPSS will compare to determine matches. The content of
the fields must be identical for SPSS to declare a match. To ensure that
differences in formatting did not lead SPSS to reject matching cases, we
reformatted the lists from the components before importing them into
SPSS.

      We compared the lists to each other in the following pairs: USMS
v. FBI, USMS v. DEA, USMS v. ATF, FBI v. DEA, FBI v. ATF, and DEA v.
ATF. At least two “Identify Duplicate Cases” analysis runs were
performed on each pair. First, each pair was compared using both the
Name and Date of Birth fields. For cases to match on this analysis, both
components needed to record the same name, using the same spelling,
and record the same date of birth. We reviewed the results of each
analysis and copied each pair of duplicate cases that contained one
record from each component into a separate file for further analysis. 32

      The initial analysis could not identify matches involving names
with different spellings (Steven v. Stephen), or matches where one
component had recorded the defendant’s middle name while the other
component had not. We performed a second “Identify Duplicate Cases”
analysis run on each pair, comparing a different field, to identify cases
that were not be captured in the first analysis.

       An individual’s FBI Number is a unique identification number
assigned to each individual who has a record in the FBI’s Integrated
Automated Fingerprint Identification System (IAFIS), a nation-wide
database of fingerprint and criminal history records of individuals who
have been arrested. Every time an individual is arrested, he or she is
fingerprinted, and the prints are submitted to IAFIS for comparison. If
the prints match prints already in the system, the new arrest is
appended to the existing criminal history record. We determined that a
matching FBI Number represents the best possible way to identify a
positive match between two records because it is tied to the fingerprint
record and is therefore less susceptible to identity fraud than a date of
birth or a Social Security Number.


        32 Most of the matches identified by SPSS were internal duplicates, where a

single component arrested the same individual more than once. Because our review did
not focus on the potential for intra-component duplication, we did not include these
matches in our analysis.



U.S. Department of Justice                                                       80
Office of the Inspector General
Evaluation and Inspections Division
      For the second analysis run, we compared the components using
the FBI Number field. The FBI Number comparison was performed on
the USMS v. DEA, USMS v. ATF, and DEA v. ATF pairs. We could not
perform this analysis on pairings that included the FBI because the FBI
Number is not tracked in ISRAA and therefore was not included in the
FBI’s data response. For the pairings including the FBI, we performed
the second analysis run using the Social Security Number field. The
Social Security Number comparison was done on the USMS v. FBI and
FBI v. ATF pairs. 33

       We were concerned that our inability to compare FBI and DEA
arrests on any field besides name and date of birth might lead us to
underestimate the number of potential duplicates between those two
components. At our request, employees of the FBI’s Criminal Justice
Information Services Division (CJIS) conducted an offline search of the
National Crime Information Center’s (NCIC) data for the FBI Numbers of
the individuals identified in the FBI’s data response. 34 We sent an exact
copy of the FBI’s original ISRAA data to CJIS, which returned the data
with an FBI Number field added to each record. Once we had received
this information, we performed a final analysis on the USMS v. FBI, FBI
v. DEA, and FBI v. ATF pairs, using the FBI Number for comparison.

      We gave the components spreadsheets indicating which of their
arrests were also reported by another component and asked them to
provide details on the circumstances surrounding the arrests. We
analyzed the components’ responses to determine the number of arrests
reported by multiple components that were the results of joint
investigations. Based on the components’ explanations, we developed 12
categories of reasons why arrests could be recorded by multiple
components: 6 categories indicating cooperative efforts, 4 categories
indicating duplication of effort without cooperation, and 2 neutral
categories indicating other reasons for the duplication. We sorted the
overlapping cases into these 12 categories and were able to determine the

       33 The DEA’s list of arrestees did not include Social Security Numbers because
that information was not tracked in the PTARRS database. As a result, only the Name
and Date of Birth analysis was performed on the FBI v. DEA pair at this stage.

        34 NCIC is a database that provides information on criminal histories and open

warrants for police officers and special agents. The FBI Number is one of the identifiers
stored in this database. NCIC is commonly used by police officers during traffic stops,
allowing them to learn if the driver is wanted or if the vehicle is stolen. It is also used
by police officers and Special Agents at various stages of an investigation to determine
whether a suspect has a criminal history.



U.S. Department of Justice                                                              81
Office of the Inspector General
Evaluation and Inspections Division
percentage of overlapping investigations that were the result of
cooperation and the percentage of overlapping investigations resulting
from duplication of effort.

       We also asked the components to provide identifiers for individuals
under investigation by the task forces during FYs 2003 through 2005 in
which no arrest has been made. ATF, the DEA, and the USMS were able
to provide this information, but the FBI could not. The FBI provided the
identifiers of individuals arrested by FBI Safe Streets Task Forces from
its Integrated Reporting and Statistical Software database, but this
database does not contain information on investigations in which no
arrest has been made. A random check of the identifiers for individuals
under investigation provided by the FBI from the FBI Automated Casefile
System, which does maintain information on individuals prior to arrest,
showed the information provided by the FBI was not sufficient for
comparison. Because FBI investigations accounted for 80 percent of the
arrests reported by more than one task force we concluded that
attempting to identify the suspects under investigation by more than one
task force using identifiers from the FBI Automated Casefile System
would not have any efficacy.




U.S. Department of Justice                                               82
Office of the Inspector General
Evaluation and Inspections Division
   APPENDIX III: OFFICE OF THE DEPUTY ATTORNEY GENERAL
                         RESPONSE




U.S. Department of Justice                               83
Office of the Inspector General
Evaluation and Inspections Division
U.S. Department of Justice            84
Office of the Inspector General
Evaluation and Inspections Division
U.S. Department of Justice            85
Office of the Inspector General
Evaluation and Inspections Division
U.S. Department of Justice            86
Office of the Inspector General
Evaluation and Inspections Division
U.S. Department of Justice            87
Office of the Inspector General
Evaluation and Inspections Division
        APPENDIX IV: OIG ANALYSIS OF THE OFFICE OF THE
             DEPUTY ATTORNEY GENERAL RESPONSE


      In a memorandum dated March 23, 2007, the Office of the Deputy
Attorney General responded to the report’s four recommendations on
behalf of the Department of Justice (Department). As a result of that
response, Recommendations 2 and 3 are resolved and remain open.
Based on actions taken and reported by the Office of the Deputy Attorney
General, Recommendations 1 and 4 are closed.

     Recommendation 1. Require that the U.S. Attorney’s Office
and the components’ task force managers in each jurisdiction with
multiple violent crime task forces implement guidance for
coordinating task force operations.

       Status. Resolved − closed.

       Summary of the Office of the Deputy Attorney General
Response. The Office of the Deputy Attorney General concurred with
this recommendation and stated that it has asked the Violent Crime
Subcommittee of the Attorney General’s Advisory Committee to review a
draft Office of the Deputy Attorney General directive to all U.S. Attorneys
that will require that they periodically assess the cooperation and
coordination of violent crime task forces working in their districts. The
draft directive would also require U.S. Attorneys to report to the
Department on violent crime task force coordination efforts, the nature of
any coordination problems identified, and the guidance or policies
adopted or revised to address those problems.

       OIG Analysis. The Office of the Deputy Attorney General agreed
that the U.S. Attorney in each district can assess and, if necessary,
correct problems arising from the operation of more than one
Department-led violent crime task force in the same district. Subsequent
to the March 23, 2007, response from the Office of the Deputy Attorney
General, the committee completed its review of the draft directive, and
the directive was issued on May 11, 2007. The actions taken by the
Office of the Deputy Attorney General are responsive to our
recommendation. Recommendation 1 is closed.




U.S. Department of Justice                                              88
Office of the Inspector General
Evaluation and Inspections Division
      Recommendation 2. Require each component to use national
and local information-sharing and deconfliction systems to
coordinate investigations and protect officer safety.

       Status. Resolved − open.

       Summary of the Office of the Deputy Attorney General
Response. The Office of the Deputy Attorney General concurred with
this recommendation and provided a memorandum from the Deputy
Attorney General, dated March 23, 2007, directing the components to
adopt a policy requiring the use of information-sharing and deconfliction
measures to coordinate investigations in geographical areas where more
than one Department-led violent crime task force operates. The Deputy
Attorney General required each component to certify by June 1, 2007,
that it has policies and procedures in effect that mandate coordination
with other violent crime task forces, including the use of information-
sharing and deconfliction measures.

       OIG Analysis. The new Department policy issued by the Deputy
Attorney General requires that each component certify by June 1, 2007,
that it has policies and procedures in effect that mandate coordination
with other Department-led violent crime task forces, including the use of
national and local information-sharing and deconfliction measures. The
actions taken and planned by the Office of the Deputy Attorney General
are responsive to our recommendation. So that we may close this
recommendation, please provide the OIG with a copy of each
component’s certification by June 15, 2007.

     Recommendation 3. Require the components to submit all
proposed violent crime or fugitive task forces to an assessment and
approval process similar to that used by the Anti-Gang Coordination
Committee.

       Status. Resolved − open.

       Summary of the Office of the Deputy Attorney General
Response. The Office of the Deputy Attorney General concurred with
this recommendation and directed the Attorney General’s Anti-Gang
Coordination Committee to develop recommendations for an assessment
and approval process for violent crime and fugitive task forces by
September 1, 2007. The response of the Office of the Deputy Attorney
General noted that some Department task forces are mandated by
Congress and that some task forces established by local law enforcement


U.S. Department of Justice                                             89
Office of the Inspector General
Evaluation and Inspections Division
include federal law enforcement officers. Such congressionally mandated
or local task forces are not fully within the purview of a Departmental
approval process. Accordingly, the Office of the Deputy Attorney General
directed the Committee to “propose parameters” to establish which task
forces should be subject to the Department’s assessment and approval
process.

      OIG Analysis. The actions planned and taken by the Office of the
Deputy Attorney General are responsive to our recommendation. The
OIG agrees that the assessment process created in response to this
recommendation must recognize that Congress mandates some
Department-led task forces and that the Department’s Special Agents
and Deputy Marshals sometimes participate on local law enforcement
task forces. So that we may assess the Department’s progress in
implementing this recommendation, please provide the OIG with
documentation of the assessment and approval process for violent crime
and fugitive task forces by October 1, 2007.

     Recommendation 4. Require each component to examine
compliance with Department and component policies on task force
coordination during periodic internal management reviews.

       Status. Resolved − closed.

       Summary of the Office of the Deputy Attorney General
Response. The Office of the Deputy Attorney General concurred with
this recommendation. The March 23, 2007, Office of the Deputy
Attorney General memorandum responding to a draft of this report
directed the components to expand their periodic internal management
reviews to include evaluating compliance with policies concerning task
force coordination, information sharing, and deconfliction.

      OIG Analysis. The actions taken by the Office of the Deputy
Attorney General are responsive to our recommendation.
Recommendation 4 is closed.




U.S. Department of Justice                                           90
Office of the Inspector General
Evaluation and Inspections Division
                        APPENDIX V: ATF RESPONSE




U.S. Department of Justice                         91
Office of the Inspector General
Evaluation and Inspections Division
       APPENDIX VI: OIG ANALYSIS OF THE ATF RESPONSE


      In a memorandum dated March 12, 2007, ATF responded to the
OIG request for formal comments on the draft report. In addition, as
noted above, in a memorandum dated March 23, 2007, the Office of the
Deputy Attorney General concurred with the report’s four
recommendations on behalf of the Department.

      Summary of the ATF Response. ATF expressed support for the
OIG efforts to ensure that Department violent crime task forces
coordinate their law enforcement efforts. ATF strongly agreed that
collaboration and coordination among the Department’s law enforcement
components are critical to officer safety and to the efficient use of limited
resources. ATF also agreed to work with the Department and other law
enforcement components to implement improvements to the coordination
process and to coordinate individual task force investigations.

      OIG Analysis. ATF’s willingness to work with the Department and
to coordinate with the other law enforcement components is consistent
with the findings and recommendations in our report.




U.S. Department of Justice                                                92
Office of the Inspector General
Evaluation and Inspections Division
                       APPENDIX VII: DEA RESPONSE




U.S. Department of Justice                          93
Office of the Inspector General
Evaluation and Inspections Division
U.S. Department of Justice            94
Office of the Inspector General
Evaluation and Inspections Division
U.S. Department of Justice            95
Office of the Inspector General
Evaluation and Inspections Division
U.S. Department of Justice            96
Office of the Inspector General
Evaluation and Inspections Division
U.S. Department of Justice            97
Office of the Inspector General
Evaluation and Inspections Division
U.S. Department of Justice            98
Office of the Inspector General
Evaluation and Inspections Division
U.S. Department of Justice            99
Office of the Inspector General
Evaluation and Inspections Division
U.S. Department of Justice            100
Office of the Inspector General
Evaluation and Inspections Division
       APPENDIX VIII: OIG ANALYSIS OF THE DEA RESPONSE


      In a memorandum dated March 28, 2007, the DEA responded to
the OIG request for formal comments on the draft report. In addition, as
noted above, in a memorandum dated March 23, 2007, the Office of the
Deputy Attorney General concurred with the report’s four
recommendations on behalf of the Department.

       In its comments, the DEA expressed three main concerns with the
draft report. First, it contended that the criteria used by the OIG to
evaluate task force management coordination should not have been
applied to DEA Mobile Enforcement Teams. Second, the DEA asserted
that the OIG changed the scope of the review after the components had
commented on the OIG’s working draft of this report. The DEA stated
that the OIG expanded the scope to include information on DEA state
and local task forces when discussing locations where there were no
Mobile Enforcement Team deployments. Third, the DEA disagreed that
the deployment of a Mobile Enforcement Team in Reading, Pennsylvania,
was not effectively coordinated. We discuss these three concerns below.

Task Force Management

       Summary of the DEA Response. The DEA stated that, because
not all of the criteria the OIG used to assess task force management
coordination were applicable to the mission of the DEA Mobile
Enforcement Teams, the assessment did not accurately reflect the
coordination of those teams’ operations. For example, the DEA stated
that a Mobile Enforcement Team “is not a violent crime task force.” The
DEA also stated that the Mobile Enforcement Teams do not have the
option to routinely participate on other components’ task forces because
“approximately 92 percent of the deployments were in areas with either
no federal law enforcement presence or with only one other federal task
force.” Further, the DEA stated that the teams usually cannot provide
formal training because of the nature of their mission and operations.

       OIG Analysis. The OIG disagrees with the DEA contention that
the criteria we used to assess task force management coordination did
not fairly reflect the mission of Mobile Enforcement Teams. First, the
DEA’s comments are contradicted by prior information the DEA provided
regarding the teams’ mission. In response to our November 3, 2005,
request that the DEA describe the roles and missions of Mobile
Enforcement Teams, the DEA stated, “The DEA created the Mobile


U.S. Department of Justice                                           101
Office of the Inspector General
Evaluation and Inspections Division
Enforcement Team Program as an ambitious and far-reaching effort
aimed at attacking violent drug-related crime, while reaffirming [the DEA]
commitment to community-based policing.” Specifically, the DEA
provided the following statement of the roles and missions of Mobile
Enforcement Teams:

       Working in support of federal, state, local, and tribal law
       enforcement, [Mobile Enforcement Teams] will pursue the
       following objectives:

              •   Identify the highest level of drug traffickers and
                  organizations in a particular community who
                  engage in homicide and other violent crime.
              •   Focus resources to ultimately disrupt or
                  dismantle those targeted drug organizations.
              •   Collect, analyze, and share intelligence with state
                  and local counterparts.
              •   Develop investigations against violent drug
                  offenders, gangs and drug trafficking
                  organizations . . .
              •   Remove violent drug offenders and gang
                  members from the community by assisting local
                  law enforcement agencies in their arrest.
              •   Seize the assets of violent drug offenders, gangs
                  and drug trafficking organizations.
              •   Provide appropriate support to local and federal
                  prosecutors.

       Our observations of the DEA’s field operations in eight cities were
also consistent with the DEA’s prior descriptions of the mission and
operation of the Mobile Enforcement Teams as violent crime task forces
and illustrated that the criteria listed above are applicable. The specific
results of our observations of the DEA’s Mobile Enforcement Teams
under each criterion follow:

       •   Criterion 1: Do violent crime task force missions overlap?

           Result: DEA Mobile Enforcement Team operations
           overlapped with other violent crime task forces in four
           cities and did not overlap in four cities.

       •   Criterion 2: Do fugitive task force missions overlap?



U.S. Department of Justice                                              102
Office of the Inspector General
Evaluation and Inspections Division
           Result: The DEA fugitive mission did not overlap with
           other fugitive task forces in any of the eight cities because
           the DEA delegates fugitive apprehension responsibility to
           the USMS if a DEA fugitive is not arrested within 48
           hours of the issuance of an arrest warrant.

       •   Criterion 3: Do the components routinely invite local
           agencies to participate on task forces?

           Result: The DEA invited local law enforcement agencies
           to participate in all eight cities.

       •   Criterion 4: Do the components routinely invite other
           federal agencies to participate on task forces?

           Result: The DEA invited other federal law enforcement
           agencies to participate in three cities. DEA and FBI
           Special Agents who participated in one of these
           deployments cited remarkable success in their joint effort.

       •   Criterion 5: Do the components routinely participate on
           other federal agencies’ task forces?

           Result: The DEA participated on another violent crime
           task force in one city.

       •   Criterion 6: Do the components coordinate task force
           locations with local or other federal agencies?

           Result: The DEA coordinated the location of its task force
           activities in three of the eight cities.

       •   Criterion 7: Do the components routinely attend
           coordination meetings?

           Result: The DEA routinely sent representatives to
           coordination meetings in seven cities.

       •   Criterion 8: Do the components use training as an
           incentive to encourage task force participation by local
           law enforcement agencies?




U.S. Department of Justice                                                 103
Office of the Inspector General
Evaluation and Inspections Division
           Result: The DEA used training as a participation
           incentive in only one city, even though DEA guidelines
           direct Mobile Enforcement Team to provide training to
           state and local agencies.

       •   Criterion 9: Do the components provide other incentives
           (such as use of cars or funding for overtime) to encourage
           task force participation by local law enforcement
           agencies?

           Result: The DEA did not provide such incentives in any
           of the eight cities.

       As demonstrated above, eight of the nine criteria were met in some
or all of the eight cities we visited. With regard to the ninth criterion,
although the DEA did not use incentives in any of the eight cities we
reviewed, the criterion is applicable because the DEA is not prohibited
from using incentives and does so for other task forces. Consequently,
we considered it appropriate to apply all nine task force management
criteria to Mobile Enforcement Team operations in each of the eight cities
and to include these findings in the report.

       Finally, we considered the DEA’s statement that, because
“approximately 92 percent of the deployments were in areas with either
no federal law enforcement presence or with only one other federal task
force,” the Mobile Enforcement Teams do not have the option to routinely
participate on other components’ task forces. We identified how many of
the 125 DEA Mobile Enforcement Team deployments occurred in
locations in which another of the four types of task forces under review
was operating. In almost 40 percent (49 of 125) of those deployments,
there was another task force in operation. We did not examine in how
many cases there was another type of “federal law enforcement presence”
(such as a USMS District Fugitive Task Force or a state violent crime
task force with federal participation). Consequently, we believe that the
DEA has considerably more opportunities to invite other components to
participate on Mobile Enforcement Team deployments, as well as to join
with other component task forces, than the DEA response indicates.
Moreover, in our review, which focused on cities in which those
opportunities were present, we found that the DEA participated with
other component task forces in only one of the eight cities.




U.S. Department of Justice                                              104
Office of the Inspector General
Evaluation and Inspections Division
Scope of the Review

       Summary of the DEA Response. The DEA stated that the OIG
revised and expanded the scope of the review after receiving the DEA’s
response to the working draft. In that response, the DEA requested that
references to state and local DEA task forces in Las Vegas and
Birmingham be deleted because such task forces were not within the
scope of the OIG review. Further, the DEA asserted that, because the
report did not address the operations of its state and local task forces in
all eight cities, references to its Las Vegas and Birmingham task forces
should be omitted.

       OIG Analysis. Contrary to the DEA’s claims, the scope of the
review remained constant throughout the review. In cities that did not
have all four types of task forces that Congress directed us to review, we
interviewed personnel in the field offices for each component about all
task force operations in their geographic area. We also asked about
coordination of their operations with investigations conducted by any of
the four types of task forces under review that operated in the area.
During our entrance conference for this review, we explained to the
DEA’s and other components’ representatives that the review would
involve as assessment of the coordination of multiple components, not
the operations of a single task force or team. We also advised the
components that we would be requesting data on general agency
operations in those cities that lacked one or more of the four types of
task forces.

       We collected information on DEA Mobile Enforcement Team
operations in the six cities we visited where they had deployed. In the
remaining two cities we visited where no Mobile Enforcement Team had
deployed, we collected information on coordination efforts of other DEA
state and local task forces with any of the other types of Department task
forces examined in this review that were present in those cities. We used
this same approach for other components’ operations, when applicable.
For example, we used this approach to assess ATF’s operations in
Birmingham and Chicago, and to assess the USMS’s operations in
Philadelphia. Moreover, we added information to this final report to
describe how we conducted the analysis in those cities that did not have
all four types of task forces.

       We did not agree with the DEA’s assertion that our report should
have addressed DEA state and local task force efforts in all eight cities we
visited. Examining all of the types of state and local task forces that the


U.S. Department of Justice                                              105
Office of the Inspector General
Evaluation and Inspections Division
components have in all eight cities would have significantly expanded the
scope of the review beyond Congress’s request and would have
lengthened the time period for this review. Consistent with the
methodology described in the previous paragraph, we examined only the
operations of the DEA’s state and local task forces in the two cities that
had no Mobile Enforcement Team deployments. In those cities, we did
not examine the state and local task forces, but only examined how their
operations were coordinated with the operations of the other
components’ task forces that were within the scope of our review.

Mobile Enforcement Team Deployment to Reading, Pennsylvania

       Summary of the DEA Response. The DEA stated that the
working draft of the report included a finding that in FY 2005 the DEA
failed to coordinate the operations of a Mobile Enforcement Team in
Reading, Pennsylvania, with other Department components, which
created tensions there and delayed the Mobile Enforcement Team’s
operations. The DEA noted its previous request that the OIG remove
references to the Mobile Enforcement Team deployment in Reading and
stated that the DEA provided the OIG with documentation that the
findings in the draft report were based on inaccurate and misleading
statements by an Assistant U.S. Attorney. The DEA also presented a list
of revisions to the draft report that the DEA asserted demonstrate that
the “OIG has consistently altered the Reading [Mobile Enforcement Team]
deployment section to fit their version of events.” The DEA concluded
this section of its response by stating that:

       DEA is troubled that OIG has decided to put more weight
       into a statement made by a FBI Task Force supervisor over
       the statements of DEA and ATF Special Agents in Charge,
       the [Executive Office for U.S. Attorneys], and the
       U.S. Attorney’s Office, Eastern District of Pennsylvania. It
       should be noted, that this MET deployment originated as a
       result of a Reading Police officer being killed in the line of
       duty. The Philadelphia DEA SAC offered funding, resources,
       and manpower to the Reading PD in an attempt to further
       combat their violent drug trafficking problem. The FBI Safe
       Streets Task Force represented to DEA that the assistance of
       the DEA MET was not wanted or needed and that the FBI
       Safe Streets Task Force had the situation fully under control.
       This is evidenced by the comments made to OIG by the
       AUSA that was the FBI Safe Streets Coordinator. It is the
       position of DEA that this is not an example of DEA’s failure


U.S. Department of Justice                                              106
Office of the Inspector General
Evaluation and Inspections Division
       to deconflict, but rather the FBI Safe Street[s] Task Force’s
       failure to embrace DEA’s MET resources as an ally as
       opposed to an adversary. In addition to DEA’s request to
       remove this section, the [Executive Office for U.S. Attorneys]
       also requested its removal since DEA did deconflict,
       coordinate, and cooperate prior to the MET deployment.

       OIG Analysis. The OIG disagrees with the DEA’s contention that
we have altered portions of the report to fit our “version of events”
regarding the Reading Mobile Enforcement Team deployment. Our
findings are based on multiple interviews and the review of documents
provided to us. Moreover, we did not, as the DEA suggests, “put more
weight into a statement made by a FBI Task Force supervisor over the
statements of DEA and ATF Special Agents in Charge, [Executive Office
for U.S. Attorneys], and the U.S. Attorney’s Office, Eastern District of
Pennsylvania.” Rather, we concluded that the Reading deployment was
not well coordinated because the ATF, DEA, and FBI task force managers
provided conflicting accounts regarding the Mobile Enforcement Team
deployment that clearly indicated a lack of coordination. We also
received conflicting accounts from DEA headquarters, the U.S. Attorney’s
Office for the Eastern District of Pennsylvania, and the Executive Office
for U.S. Attorneys on the coordination of the Mobile Enforcement Team
deployment with the FBI Safe Streets Task Force in Reading.

       One example of the conflicting accounts involves a meeting among
the ATF, DEA, and FBI Special Agents in Charge. Everyone we
interviewed agreed that the meeting took place and that the topic was
deployment of the Mobile Enforcement Team. However, recollections
regarding the timing and purpose of the meeting varied. The DEA’s
comments characterized the meeting as evidence of effective
coordination, while the FBI Special Agent in Charge, an Assistant U.S.
Attorney, and a local task force officer stated that the meeting was held
to resolve various issues caused by the DEA’s initial lack of coordination.

      After assessing the conflicting information provided by the
components, we concluded that there were coordination issues between
the FBI Safe Streets Task Force and the DEA Mobile Enforcement Team
in Reading throughout the deployment, and that the meeting of the
Special Agents in Charge was necessary to resolve coordination issues.
The DEA’s comments actually confirm the coordination issues, which the
DEA asserted were caused by the FBI’s “failure to embrace DEA’s MET
resources as an ally as opposed to an adversary.” We do not affix blame
in our discussion of the Reading issues (or in any of our discussions of


U.S. Department of Justice                                              107
Office of the Inspector General
Evaluation and Inspections Division
coordination issues), but present them as evidence of the need for better
guidance on coordinating task force operations.

       The DEA’s comments also misstate the Executive Office for U.S.
Attorneys' response to the OIG draft report. The Executive Office for U.S.
Attorneys' comments, included in Appendix IX of this report, did not ask
the OIG to remove references to the DEA Mobile Enforcement Team in
Reading. Rather, the Executive Office for U.S. Attorneys commented that
the OIG discussion of coordination issues in Reading “overstates the
resulting delay in task force operations.” However, as we report in
Appendix X, in response to additional information provided by the DEA,
we deleted the discussion related to delays in task force operations from
the report because we did not affix blame in our discussion of
coordination issues in Reading. We did not remove the discussion of the
Reading Mobile Enforcement Team deployment for the reasons cited in
this section.




U.S. Department of Justice                                            108
Office of the Inspector General
Evaluation and Inspections Division
                     APPENDIX IX: EOUSA RESPONSE




U.S. Department of Justice                         109
Office of the Inspector General
Evaluation and Inspections Division
U.S. Department of Justice            110
Office of the Inspector General
Evaluation and Inspections Division
U.S. Department of Justice            111
Office of the Inspector General
Evaluation and Inspections Division
       APPENDIX X: OIG ANALYSIS OF THE EOUSA RESPONSE


      In a written response dated March 26, 2007, EOUSA provided
formal comments to the OIG’s report. In addition, as noted above, in a
memorandum dated March 23, 2007, the Office of the Deputy Attorney
General concurred with the report’s four recommendations on behalf of
the Department.

      In its response, EOUSA agreed that greater coordination between
and among the components’ task forces results in more efficient use of
federal resources and further reduces the risk of a blue-on-blue
incident. With regard to the report’s specific findings, EOUSA’s
comments addressed eight issues.

U.S. Attorney Coordination of Task Force Investigations

      Summary of the EOUSA Response. EOUSA commented that the
report understates the limits on the ability of U.S. Attorneys to
coordinate task force investigations. EOUSA pointed out that the
U.S. Attorneys do not control the personnel and resources of ATF, the
DEA, the FBI, and the USMS.

      OIG Analysis. With regard to the assertion that the report
overstates the ability of U.S. Attorneys to coordinate task force
investigations, we note with agreement a statement made by the Office of
Deputy Attorney General in response to this report (Appendix III):

       The United States Attorneys are in a unique position −
       even without direct authority over other federal law
       enforcement components − to assess and, if necessary,
       address any coordination concerns arising from the
       operation of multiple violent crime task forces in their
       districts. As your report recognizes, in some districts they
       are doing so effectively.

Tension Among Components

       Summary of the EOUSA Response. EOUSA observed that our
report includes anecdotes derived from “conversations with investigative
agents regarding the activities of other investigative agencies” and that “it
is not clear if all sides of the issue are fully presented.” EOUSA



U.S. Department of Justice                                               112
Office of the Inspector General
Evaluation and Inspections Division
expressed concern that the format of our report “may lend itself to the
possibility of causing tension” between the components.

      OIG Analysis. We believe that the report provides a balanced
presentation regarding the level of cooperation among the components.
The report discusses specific law enforcement events and provides
perspectives from the participants in those events. During our review,
we interviewed 234 officials involved in task force operations, including:

       •   Headquarters managers responsible for task force operations
           from all the components;
       •   Senior ATF, DEA, FBI, and USMS managers in field offices;
       •   Attorneys from U.S. Attorneys’ Offices;
       •   Chiefs of Police and other law enforcement officials;
       •   Associate and Assistant Deputy Attorneys General; and
       •   ATF, DEA, and FBI Special Agents; Deputy Marshals; and local
           officers.

Based on those interviews, we reported specific law enforcement events
that were examples of effective coordination or the lack thereof. For
example, the report’s descriptions of blue-on-blue incidents were based
on the information provided to us by the Special Agents, Deputy
Marshals, and local task force members actually involved in the
incidents.

       We also presented these descriptions to all of the components
involved in a working draft and asked them to comment on accuracy.
When the components supplied additional information on specific
coordination issues, we assessed the additional information, compared it
with information provided by the other components, and included
relevant portions in our descriptions. We then provided all the
components with a formal draft of this report and requested that they
provide written comments on the issues presented. We included all of
the formal comments provided by the components in this final report.
Consequently, we believe that we have made reasonable efforts to ensure
that our report provides all sides of the issues.

       The OIG acknowledges EOUSA’s concern that some statements
Special Agents and Deputy Marshals made about other components may
cause tensions between the components. However, we believe the use of
specific comments and opinions of the task force participants was
essential to illustrate coordination issues. Moreover, the tensions that
EOUSA is concerned about already exist, as we found in our field work.


U.S. Department of Justice                                             113
Office of the Inspector General
Evaluation and Inspections Division
Our report includes recommendations to improve coordination, which, if
followed, should reduce tensions among the components.

U.S. Attorney Coordination of Fugitive Investigations

       Summary of the EOUSA Response. The EOUSA stated that the
U.S. Attorneys tend to have less involvement with the coordination of
fugitive investigations than they do with investigations of an “unfolding
criminal case.” EOUSA noted that 77 percent of the duplicate arrests we
cited in our report were fugitive investigations. Further, EOUSA
commented that the report does not make clear how many of the
duplicate fugitive investigations involved state rather than federal
charges.

       OIG Analysis. We agree that U.S. Attorneys’ Offices tend to be
more involved with criminal cases than with fugitive investigations.
However, the U.S. Attorney is the chief federal law enforcement officer in
each district and has authority to seek the federal warrants that the FBI
must obtain to apprehend state fugitives under federal Unlawful Flight to
Avoid Prosecution statutes. Accordingly, we recommended that the
U.S. Attorney’s Office and the components’ task force managers in each
jurisdiction with multiple violent crime task forces implement guidance
for coordinating task force operations. The EOUSA comment that the
report does not identify how may of the federal fugitive investigations
were based on state charges is not material because the U.S. Attorneys’
Offices are responsible for ensuring that federal task forces coordinate all
of their fugitive investigations, as made clear in the Deputy Attorney
General’s May 11, 2007, memorandum.

Coordinated Anti-Gang Task Force Efforts in Spokane and Tulsa

      Summary of the EOUSA Response. EOUSA stated that
notwithstanding the FBI’s initially uncoordinated efforts in Spokane and
coordination problems in Tulsa, the U.S. Attorneys in both cities believe
that coordination has significantly improved.

       OIG Analysis. We accept, but have not independently verified,
EOUSA’s report of recent cooperation by the FBI in a local anti-gang task
force in Spokane and the resolution of coordination problems in Tulsa.
Notwithstanding any recent improvements, during the time period
examined in this review we found coordination issues in both cities, and
we reported on these issues and made recommendations for
improvement.


U.S. Department of Justice                                              114
Office of the Inspector General
Evaluation and Inspections Division
Delays Caused by Coordination Issues in Reading

       Summary of the EOUSA Response. EOUSA commented that the
report overstates the delay in task force operations resulting from conflict
involving deployment of a DEA Mobile Enforcement Team in Reading,
Pennsylvania, and understates the DEA’s coordination efforts in that
city. In addition, EOUSA said that deconfliction efforts worked well in
the Reading deployment.

      OIG Analysis. As noted above, in response to additional
information provided by the DEA, we deleted the discussion related to
delays in task force operations from the report. Regarding EOUSA’s
comments that we understated the DEA’s coordination efforts in Reading
and that deconfliction efforts worked well, an Assistant U.S. Attorney
reported that the U.S. Attorney’s Office had to mediate several meetings
involving the DEA, the FBI, and ATF to determine how federal targets of
the Reading Mobile Enforcement Team deployment would be
deconflicted. In the report, we also noted that individual DEA and FBI
task force operations were deconflicted by the Berks County District
Attorney’s Office rather than by direct communication between the DEA
and the FBI.

Task Force Operations in Las Vegas

      Summary of the EOUSA Response. EOUSA stated that our
report of tensions between the FBI and DEA in Las Vegas is “not helpful”
because the components are “currently working well together,” the
leadership of all the components’ field offices in Las Vegas has changed
since our site visits, and the overall tenor of the report’s discussion of
Las Vegas does not correspond to the “facts on the ground now.” EOUSA
also commented that the report is “somewhat misleading” because a DEA
Mobile Enforcement Team is not currently operating in Las Vegas.

      OIG Analysis. We believe the description of events we presented is
accurate. The report reflected the situation in the Las Vegas field offices
during the time period encompassed by our review as reported to the OIG
by Special Agents, Deputy Marshals, local HIDTA officials, and local law
enforcement officials. We have not independently assessed the
improvements that EOUSA asserted have been made since the
conclusion of our field work.




U.S. Department of Justice                                              115
Office of the Inspector General
Evaluation and Inspections Division
ATF Violent Crime Impact Team and FBI Safe Streets Task Force
Operations in Atlanta

       Summary of the EOUSA Response. EOUSA stated that the
report juxtaposes quotes from ATF and the FBI that appear to overstate
the duplication of effort by the ATF Violent Crime Impact Team and the
multiple FBI Safe Streets Task Forces in Atlanta. EOUSA stated that the
ATF Violent Crime Impact Team is focused on the city of Atlanta where
there are few gangs, while only one of the FBI Safe Streets Task Forces
operates in Atlanta and instead focuses mostly on areas outside the city
limits.

       OIG Analysis. We disagree with EOUSA’s assessment that the
report overstates the degree of duplication of effort by the ATF Violent
Crime Impact Team and the multiple FBI Safe Streets Task Forces in
Atlanta. Our interviews with ATF and FBI Special Agents revealed a
significant mission overlap and a lack of coordination between the task
forces. Regarding EOUSA’s statement that the task forces operate in
different geographic areas, although the task forces may focus on
different areas, their operations overlap in some cases. For example, the
Coordinator of the FBI Safe Streets Task Force in Atlanta told us that the
FBI has an active Racketeer Influenced and Corrupt Organizations Act
investigation of a gang in Atlanta and that the ATF is also investigating
members of the same gang in Atlanta.

Inclusion of Birmingham in the Coordination Analysis

      Summary of the EOUSA Response. EOUSA stated that the
report’s discussion of task force coordination efforts in Birmingham
should be clarified because the OIG reviewed data from FY 2003 through
FY 2005 and Birmingham had only one national task force in operation
at the close of FY 2005. EOUSA also stated that our finding that “task
forces in Birmingham are the least well coordinated seems primarily
based on anecdotal worries of future overlap rather than historical
evidence.”

       OIG Analysis. A USMS Regional Fugitive Task Force was created
in Birmingham during our review. After six site visits to cities with three
or more task forces, we asked the components to recommend additional
cities for inclusion in our review. The components recommended several
cities, and we chose Birmingham from among them. The USMS Regional
Fugitive Task Force and ATF Violent Crime Impact Team that is planned
for Birmingham would make it the eleventh city in the country with three


U.S. Department of Justice                                             116
Office of the Inspector General
Evaluation and Inspections Division
types of Department violent crime task forces. Our site visit to
Birmingham provided us with an opportunity to evaluate the
coordination of investigations and operations of violent crime task forces
at an earlier stage than in the other cities we visited.

       The EOUSA comment that we based our finding that Birmingham
was the least well coordinated city primarily on potential future overlap
is incorrect. We assessed coordination based on the operations of the
task forces in Birmingham and seven other cities during the period from
FY 2003 through FY 2006. There was no element related to any “future
overlap” in our criteria. Hence, our finding that Birmingham was the
least well coordinated of the eight cities was based on our observations
and interviews, not on a concern about future overlap.




U.S. Department of Justice                                             117
Office of the Inspector General
Evaluation and Inspections Division
                       APPENDIX XI: FBI RESPONSE




U.S. Department of Justice                         118
Office of the Inspector General
Evaluation and Inspections Division
U.S. Department of Justice            119
Office of the Inspector General
Evaluation and Inspections Division
U.S. Department of Justice            120
Office of the Inspector General
Evaluation and Inspections Division
U.S. Department of Justice            121
Office of the Inspector General
Evaluation and Inspections Division
U.S. Department of Justice            122
Office of the Inspector General
Evaluation and Inspections Division
U.S. Department of Justice            123
Office of the Inspector General
Evaluation and Inspections Division
U.S. Department of Justice            124
Office of the Inspector General
Evaluation and Inspections Division
         APPENDIX XII: OIG ANALYSIS OF THE FBI RESPONSE


      The FBI provided its written response to the OIG’s draft report on
May 3, 2007. In addition, as noted above, in a memorandum dated
March 23, 2007, the Office of the Deputy Attorney General concurred
with the report’s four recommendations on behalf of the Department.

       In its response, the FBI stated that it remains committed to
improving task force coordination and asserted that the OIG’s report
suggests that “FBI and DOJ component task force coordination is
generally very effective” because it does not establish “more than nominal
duplication of effort or risk to officer safety.” The FBI expressed concerns
about the OIG’s methodology and disagreed with aspects of the OIG
report’s findings related to FBI headquarters’ guidance on coordination,
duplicate investigations, information sharing and deconfliction, and
cooperation on investigations. Although the FBI agreed with elements of
the OIG recommendations, it differed with various conclusions and
statements in the report. Summaries of each of the FBI’s main points
follow, accompanied by the OIG’s response.

OIG Methodology and Criteria

Use of Anecdotes

      Summary of the FBI Response. The FBI stated that the OIG
made extensive use of anecdotes and presented them without
perspective, balance, or context. The FBI also stated that written survey
instruments are often used to provide balance and context based on
multiple perspectives, but that the OIG did not conduct a survey for this
report.

      OIG Analysis. We disagree with the FBI’s statements that the OIG
report used anecdotes that lacked perspective, balance, or context. The
report discussed specific law enforcement events and provided multiple
perspectives from participants in those events regarding the level of
cooperation among components. We discussed those events and our
presentation of them with knowledgeable individuals from the various
task forces, including the FBI and the U.S. Attorneys’ Offices. During
our review, we interviewed 234 officials involved in task force operations,
including:




U.S. Department of Justice                                              125
Office of the Inspector General
Evaluation and Inspections Division
       •   Headquarters managers responsible for task force operations
           from all the components;
       •   Senior ATF, DEA, FBI, and USMS managers in field offices;
       •   Attorneys from U.S. Attorneys’ Offices;
       •   Chiefs of Police and other law enforcement officials;
       •   Associate and Assistant Deputy Attorneys General; and
       •   ATF, DEA, and FBI Special Agents; Deputy Marshals; and local
           officers.

       While written surveys may be used during reviews to solicit a
broader response, they do not necessarily provide a balanced, contextual
description of specific events – that requires interviewing knowledgeable
participants regarding the event, which was our methodology in this
review. Further, the FBI response ignores the fact that, to supplement
our extensive interviews, we conducted a voluntary survey with the FBI’s
support using the FBI’s own Law Enforcement Online (LEO) system. To
provide an opportunity for law enforcement officers and Special Agents to
participate in our review, we invited the more than 35,000 law
enforcement officers and Special Agents who have access to LEO to
identify task force coordination issues or to provide specific examples of
task force coordination. We created a task force coordination “special
interest group” on LEO and posted an invitation to participate on the
LEO “splash page.” However, we received very few responses to our
voluntary survey and did not include the results in our report.

       Moreover, to ensure that our descriptions of events in the report
were accurate, we provided the FBI, the Office of the Deputy Attorney
General, and the other components with a working draft of the report
and allowed significant time for them to review it and provide any
comments or additional information. Based on the comments and
information we received from the FBI and the other components, we
supplemented or revised our report’s descriptions of specific task force
events when appropriate. The FBI’s final comments of May 3, 2007, did
not include any additional information regarding any of the specific task
force events we describe.

Responses to Interviewees’ Comments

       Summary of the FBI Response. The FBI stated that the OIG
included statements by individuals regarding the performance or actions
of other individuals or components, but rarely included a response from
the referenced individual or component.



U.S. Department of Justice                                            126
Office of the Inspector General
Evaluation and Inspections Division
       OIG Analysis. The FBI is correct that the OIG report does not
include responses to every statement made by ATF, DEA, and FBI
Special Agents, Deputy Marshals, Assistant U.S. Attorneys, or local task
force members regarding task force coordination. We included the
opinions of these task force participants regarding the general level of
coordination to illustrate their attitudes and perceptions regarding the
level of coordination with other components. Given the need for
communication and coordination, we believe the general opinions of
knowledgeable officers and agents working on these task forces are an
important aspect to examine in assessing the level of cooperation among
various Department task forces. In each case, we presented the
statements in context, accompanied by the position, title, or duties of the
person expressing the opinion.

      However, in contrast to opinion statements, when individual
statements related to factual matters, such as descriptions of what
occurred during blue-on-blue incidents, we presented comments from
other individuals involved, including the FBI, to provide a complete
description of what occurred.

FBI Headquarters Program Management Input

      Summary of the FBI Response. The FBI stated that the OIG
reached conclusions about policy and coordination efforts “without first
consulting the policymakers,” such as the Assistant Director and the
Deputy Assistant Director of the FBI Criminal Investigative Division. The
FBI stated that the OIG’s efforts would have benefited from earlier input
by these officials.

       OIG Analysis. Again, we disagree with the FBI's response. To
identify the FBI’s policy and its policy makers, during the entrance
conference that we conducted at the outset of our review we asked the
FBI to provide:

       •   Descriptions of coordination efforts and activities by each
           Safe Streets Task Force;
       •   Copies of FBI policies on coordination of task force
           operations, including Memorandums of Understanding
           with federal, state, and local law enforcement;
       •   Copies of FBI policies regarding the deconfliction of task
           force investigations; and
       •   Contact information for headquarters employees
           responsible for Safe Streets Task Force operations.


U.S. Department of Justice                                               127
Office of the Inspector General
Evaluation and Inspections Division
       We reviewed the policies the FBI provided and interviewed the sole
headquarters manager the FBI identified in response to our written
request. That individual identified another headquarters manager
involved in task force program management, whom we also interviewed.
Neither manager suggested any higher-level policy makers that we
should consult. To the contrary, both stated that the Special Agent in
Charge of each field office is responsible for task force operations and
coordination (which the FBI’s May 3, 2007, comments confirmed). We
asked to interview the FBI Special Agent in Charge at each of the eight
sites we visited, and we interviewed three of them. Finally, during the
review we provided three formal briefings on the progress of the review to
the components and gave the components the opportunity to provide
information or identify other officials we should interview. The liaisons
and managers the FBI sent to these briefings also did not suggest that
we interview the Assistant Director and the Deputy Assistant Director of
the FBI Criminal Investigative Division.

      Only after receiving the working draft report did the FBI identify
these two headquarters managers as being responsible for Safe Streets
Task Force operations and complain that they had not been interviewed.
We met with the Deputy Assistant Director of the FBI Criminal
Investigative Division, who provided a minimal amount of new
information. We included that information in the report along with other
information from the FBI’s written response.

Definition of Terms and Interpretation of Data and Policy

       Summary of the FBI Response. Regarding arrest data, the FBI
stated that the OIG wrongly equated components’ cooperation on a
specific arrest with coordination on the larger investigation that
produced the arrest. The FBI stated that the OIG’s findings on duplicate
arrests relied on “self-reporting by individuals” who may have been
unaware of coordination of investigations involving those individuals that
occurred at higher levels of the task forces. Regarding the OIG’s analysis
of task force coordination, the FBI stated that an “absence of any
rationale for the relevance of some of the criteria” the OIG used as
performance elements in its review “detracts from the validity of the
conclusions.”

      OIG Analysis. The FBI misconstrued the OIG’s analysis of arrests
reported by more than one task force. To identify instances of
cooperation or duplication of effort among the task forces, we examined


U.S. Department of Justice                                            128
Office of the Inspector General
Evaluation and Inspections Division
data from FY 2003 through FY 2005 to find instances in which more
than one component task force investigated the same individual. We
then used statistical analysis software to compare lists of task force
arrestees provided by each component to identify instances in which
more than one task force reported making the same arrest. We provided
this information to the components that reported the arrests and asked
them to review their case files and explain why both they and another
component had reported the arrest. The components decided who would
conduct the case file reviews, and each component had the opportunity
to review the explanations before providing them to us. None of the
component responses to these questions constituted “self-reporting by
individuals” as asserted by the FBI’s response, but rather were provided
by the FBI and the other components through designated liaison
channels.

       Regarding the FBI’s comments on “performance elements,” the
rationale for our criteria is explained in detail on pages 11, 12, and 31 of
the report, and those explanations were included in the draft reviewed by
the FBI. The criteria were developed based on information provided by
managers and task force members (including FBI Special Agents) in
response to a series of questions designed to identify the most important
actions they took to ensure that task force investigations were well
coordinated. From their answers, we developed 28 criteria to assess the
components’ efforts to coordinate their task force investigations on three
levels – task force management, cooperation during investigations, and
law enforcement event deconfliction. Apart from its general statement,
the FBI does not challenge the relevance of any specific criterion or
describe any particular flaws in the OIG’s assessment of the FBI’s
performance against any of the criteria. Consequently, we made no
changes in response to the FBI’s general comment.

FBI Headquarters Guidance on Task Force Coordination

       Summary of the FBI Response. The FBI stated that the report
incorrectly concludes that the FBI does not have a nation-wide task
force coordination policy. The FBI asserted that it does have a nation-
wide policy for coordination but does not instruct individual field offices
in the means to most effectively accomplish such coordination. The FBI
stated that elsewhere in the report the OIG recognizes the existence of
this FBI policy, which requires that proposals for new FBI task forces
include “a list of existing task forces in the area with whom the new FBI
Safe Streets Task Force would have to coordinate.” The FBI also stated
that approval of a proposal for a new task force is “contingent upon the
proposal’s inclusion of a satisfactory plan to achieve such coordination.”

U.S. Department of Justice                                              129
Office of the Inspector General
Evaluation and Inspections Division
       OIG Analysis. The FBI policy referenced in the FBI comments was
issued in 1993 and is not a nation-wide coordination and deconfliction
policy because it does not address coordination of existing task forces,
FBI coordination with new task forces created by the other Department
components, or FBI participation in or coordination of investigations with
violent crime task forces led by other Department components. Our
report describes the FBI’s 1993 policy, which contains the requirements
for establishing and operating multi-jurisdictional FBI Safe Streets Task
Forces made up of federal, state, and local agencies. The FBI policy
requires that proposals for new FBI Safe Streets Task Forces list other
law enforcement agencies in the area with which the new FBI Safe
Streets Task Force would have to coordinate. However, the policy does
not address the coordination or deconfliction of Safe Streets Task Force
investigations with the investigations conducted by other federal violent
crime task forces.

       Moreover, FBI headquarters managers told us, and we observed in
the field, that the FBI policies described in the FBI’s response are
directed at managing FBI task forces, not at ensuring coordination with
other Department task forces. As the FBI states, its policy does not
“instruct individual field offices in the means to most effectively
accomplish coordination.” Rather, the FBI’s policy leaves to the
discretion of the local Special Agents in Charge whether and how to
coordinate task force investigations. As our report demonstrates, in the
absence of a uniform FBI policy some Special Agents in Charge have
established local coordination and deconfliction policies while others
have not. Consequently, the FBI claim that it has a nation-wide policy
regarding coordination of task force investigations is not supported either
by the letter of its policy or by the activities of its field offices.

       Regarding the FBI’s statement that approval of a proposal for a
new FBI task force is “contingent upon the proposal’s inclusion of a
satisfactory plan to achieve such coordination,” no such requirement was
included in any documents provided during our review, nor was any
such requirement identified to us during interviews.

Duplicate Investigations

      Summary of the FBI Response. The FBI stated that the OIG
conclusion that duplicate arrest statistics indicate duplicate
investigations is incorrect because it is more likely that the OIG identified
duplicate reporting from multiple or disparate investigations.
Specifically, the FBI stated that 81 of the 1,288 arrests identified by the
OIG were improperly counted as duplicates by the OIG because one of

U.S. Department of Justice                                               130
Office of the Inspector General
Evaluation and Inspections Division
the components became involved “after the arrest.” The FBI also stated
that “the OIG establishes that 99.2 percent of the nearly 100,000
component arrests proceeded without duplication of any kind” because
the arrests labeled as duplicate by the OIG make up only 0.78 percent of
all arrests by the components.

       OIG Analysis. The FBI’s statement that the 1,288 overlapping
arrests we identified were “duplicate reporting” is incorrect. Appendix II
of this report explains in detail the steps we took to eliminate duplicate
reporting. We also explained to FBI headquarters staff in meetings
discussing the report why we believe there is no duplicate reporting
among the 1,288 arrests.

       Regarding the 81 arrests that the FBI questions, we believe these
were correctly characterized as “duplicate investigations.” We
characterized these arrests as duplication because the explanations
provided by the components showed that, even after the arrest, one or
both of the components remained unaware that warrants had been
issued or investigations were being conducted by another component.
In contrast, we characterized other duplicate arrests as “joint
investigations” because both components reported working together
after the suspect’s arrest (98 arrests) or using information-sharing
systems to identify fugitives and close additional warrants after a task
force arrested a suspect for a federal crime (92 arrests).

      The FBI’s statement that “99.2 percent of the nearly 100,000
component arrests proceeded without duplication of any kind” is not
correct. It is based on the faulty assumption that, because none of the
other 95,940 arrests were reported by more than one task force, none of
the individuals arrested were being investigated by more than one task
force. In fact, instances in which task forces had been investigating the
same individual were reported to us during our review by Deputy
Marshals and Special Agents.

Information Sharing and Deconfliction

       Summary of the FBI Response. The FBI agreed with the need for
effective deconfliction to ensure officer safety and the effective use of
resources, but stated that it disagreed that “effective deconfliction can
only be achieved if law enforcement agencies deconflict every law
enforcement action” (emphasis in original). In addition, the FBI
disagreed with the OIG’s conclusion that the FBI’s existing deconfliction
efforts are inadequate. The FBI also expressed concern that the OIG’s
recommendation that the Department “require each component to use
national and local information-sharing and deconfliction systems to

U.S. Department of Justice                                             131
Office of the Inspector General
Evaluation and Inspections Division
coordinate investigations and protect officer safety” could “cause
confusion” given that some systems are not acceptable to all
participating agencies. Finally, the FBI stated that because no injuries to
“law enforcement officers or members of the public” resulted from the
blue-on-blue incidents the OIG identified, our findings do not support
deconfliction of every planned law enforcement event.

      OIG Analysis. Our report does not recommend that the
Department require the components to deconflict all events. While our
analysis demonstrated that event deconfliction is most effective when
task forces use a common deconfliction system for every event, we also
recognize that adequate systems to conduct such deconfliction are not
available to every task force. Consequently, we recommended that the
Department “require each component to use national and local
information-sharing and deconfliction systems to coordinate
investigations and protect officer safety.” We also disagree that such
deconfliction would cause confusion, or that because injuries from blue-
on-blue incidents have not yet occurred that the current level of
deconfliction is adequate. The Department should not wait until injury
or death occurs to improve its deconfliction activities.

       The Deputy Attorney General concurred, and in a memorandum
dated March 23, 2007, implemented the OIG recommendation by
directing the FBI and the other components to:

       [U]tilize, where available and effective, information sharing
       and deconfliction measures to coordinate investigations in
       geographical areas where more than one DOJ-led violent
       crime task force operates. Each component should also
       adopt, to the extent it does not already have one, a policy
       consistent with this directive that requires all of its violent
       crime task forces to utilize information sharing and
       deconfliction measures.

To ensure compliance with his directive, the Deputy Attorney General is
requiring each of the components to:

       [C]ertify, no later than June 1, 2007, that it has policies and
       procedures in effect at the national and local level that
       mandate coordination with other violent crime task forces,
       including where effective and available, participation in
       information sharing and deconfliction measures.



U.S. Department of Justice                                               132
Office of the Inspector General
Evaluation and Inspections Division
We have accepted the Deputy Attorney General’s actions as addressing
our recommendation. We will continue to monitor the Department’s
effort to ensure that the components comply with this directive.

Cooperation on Investigations

       Summary of the FBI Response. The FBI disagreed with what it
deemed an OIG notion that activities between task forces beyond
deconfliction “is an appropriate goal or represents an efficient use of task
force resources.” The FBI stated that Department components exercise
sound judgment and cooperate when necessary, but are properly
conducting investigations within their respective missions the majority of
the time. When two task forces find that they are investigating the same
individual, according to the FBI, one “steps aside.”

       The FBI also objected to two specific examples in the OIG report
that dealt with the issue of joint investigations. The first was that of an
FBI Safe Streets Task Force supervisor in Gary, Indiana, who told us his
task force works firearms cases on its own, rather than turning firearms-
related intelligence over to ATF. In its response, the FBI stated that while
it investigates firearms violations that may be part of gang and violent
crimes investigations, it does not independently investigate felon-in-
possession or illegal firearms cases. The FBI stated that it had contacted
the supervisor in question and determined that the OIG interview
question the supervisor responded to fell in the category of an “umbrella
drug investigation,” not an investigation specific to firearms violations.
The second example involved simultaneous FBI and DEA investigations
of a gang in Atlanta. The FBI stated that the example represented
effective resolution and good law enforcement partnership rather than
poor coordination.

       OIG Analysis. The FBI’s implication that activity between task
forces beyond deconfliction is not an appropriate goal and is an
inefficient use of resources is both short-sighted and inconsistent with
Department policy, as reflected in the Deputy Attorney General’s
June 17, 2005, anti-gang activity policy. We believe that the appropriate
approach to cooperative efforts between task forces depends on the facts
and circumstances of each case. We believe that decisions on the
appropriate form of coordination should be made jointly by all the task
forces involved and in consultation with the U.S. Attorney. Our report
seeks to help improve coordination by recommending the use of
processes and systems to facilitate those coordination decisions.

      To respond to the FBI's comments about firearms investigations in
Gary, Indiana, we added the following statement to the draft report: “The

U.S. Department of Justice                                              133
Office of the Inspector General
Evaluation and Inspections Division
FBI Safe Streets Task Force Supervisor and task force members said that
they do not work with the ATF task force. They said they investigate
firearms crimes discovered during ongoing FBI Safe Streets Task Force
investigations on their own, rather than turn intelligence over to ATF”
(emphasis added).

       With regard to the Atlanta example, the situation described to the
OIG by the FBI Special Agents showed a failure to deconflict law
enforcement events. Accepting the FBI’s premise that the existence of
two separate investigations was appropriate owing to the differing
underlying criminal activities being investigated, this incident still
demonstrates the need to deconflict such surveillance activities as well
as to better coordinate overlapping investigations between task forces.




U.S. Department of Justice                                            134
Office of the Inspector General
Evaluation and Inspections Division
                     APPENDIX XIII: USMS RESPONSE




U.S. Department of Justice                          135
Office of the Inspector General
Evaluation and Inspections Division
U.S. Department of Justice            136
Office of the Inspector General
Evaluation and Inspections Division
U.S. Department of Justice            137
Office of the Inspector General
Evaluation and Inspections Division
       APPENDIX XIV: OIG ANALYSIS OF THE USMS RESPONSE


      The USMS provided written comments to the OIG draft report in a
memorandum dated March 9, 2007. In addition, as noted above, in a
memorandum dated March 23, 2007, the Office of the Deputy Attorney
General concurred with the report’s four recommendations on behalf of
the Department.

      The USMS commented on five areas of the report and on the
allocation of fugitive apprehension responsibilities within the
Department. We address each of these issues below.

Site Visits

      Summary of the USMS Response. The USMS commented that
the OIG’s review of eight selected cities is not representative of USMS
task force coordination throughout the United States because of what
USMS regards as insufficient sampling. The USMS noted that we
included three cities that did not have Regional Fugitive Task Forces at
the time of our review – Birmingham, Las Vegas, and Philadelphia.
Instead, the OIG included information on USMS District Fugitive Task
Forces operating in those cities. The USMS stated that it has District
Fugitive Task Forces operating in 71 other cities and that these sites
would have provided a “broader and better sampling of locations.”

       OIG Analysis. We disagree with the USMS assertion that the
report should have included a greater number of USMS District Fugitive
Task Forces. Examining a greater number of USMS District Fugitive
Task Forces would have significantly expanded the scope of the review
beyond Congress's request and would have lengthened the time period
for this review.

       Pursuant to congressional direction, the OIG focused on USMS
Regional Fugitive Task Forces and included seven cities with these task
forces. However, we also included the activities of District Fugitive Task
Forces in three cities for the reasons that follow. We included the USMS
District Fugitive Task Force in Birmingham because a Regional Fugitive
Task Force was created there during our fieldwork. We included the
USMS District Fugitive Task Force in Philadelphia because it operates in
the same metropolitan area as the Regional Fugitive Task Force in
Camden, New Jersey, just across the Delaware River. We included the
USMS District Fugitive Task Force in Las Vegas because a Deputy


U.S. Department of Justice                                             138
Office of the Inspector General
Evaluation and Inspections Division
Marshal in Las Vegas is specifically assigned to assist with Pacific
Southwest Regional Fugitive Task Force investigations.

Nation-Wide Arrest Data

       Summary of the USMS Response. The USMS stated that it
disagreed with our report’s statement that “the task forces were more
likely to duplicate another task force’s investigation than to cooperate in
a joint investigation.” The USMS commented that this statement
misrepresented the statistical findings of the OIG review of arrests made
by the components’ violent crime task forces because the duplicate
investigations represented less than 1 percent of the task force arrests.

      OIG Analysis. Regarding the USMS’s objection to a statement that
task forces were more likely to conduct duplicate than joint
investigations, we note that the quoted material was contained in a
working draft of the report, but not in the formal draft or in this final
report. In the formal draft and in the final report we state, “Nonetheless,
our analysis of arrests that were reported by more than one component
demonstrated that the task forces were more likely to duplicate another
task force’s investigation than to cooperate in a joint investigation.” This
makes it clear that our conclusion represents only the findings of our
analysis of 1,288 duplicate arrests.

       The USMS conclusion that the 768 duplicate investigations we
identified among the 1,288 duplicate arrests we examined represent all of
the duplicate investigations among the 97,228 arrests made by the task
forces is incorrect. It is based on the faulty assumption that, because
none of the other 95,940 arrests were reported by more than one task
force, none of the individuals arrested were being investigated by more
than one task force. In fact, instances in which task forces had been
investigating the same individual were reported to us during our review
by Deputy Marshals and Special Agents. When such duplications of
effort were identified, one task force generally ceased its investigation.

Los Angeles Coordination Example

      Summary of the USMS Response. The USMS said that the OIG
referenced a Los Angeles case in which the USMS and the FBI became
involved in an investigation to locate a fugitive wanted for the murder of
a deputy sheriff. The USMS stated that the manner in which this case
appears in the OIG report implies a lack of cooperation by the USMS,
which is contrary to the facts of the case. The USMS stated that if the
OIG had contacted the Los Angeles County District Attorney’s Office or
had reviewed the case files, it would have had a more thorough


U.S. Department of Justice                                              139
Office of the Inspector General
Evaluation and Inspections Division
understanding of this matter that would have demonstrated the USMS’s
cooperation.

       OIG Analysis. The OIG examined the Los Angeles case because
the USMS provided a written description of it as one of several examples
of fugitive investigations in which coordination issues arose between the
USMS and the FBI. The USMS description included an explanation of
the role of the Los Angeles County District Attorney’s Office. We
interviewed USMS and FBI personnel in Los Angeles about this
investigation and confirmed that there had been a lack of coordination
in this case. The USMS provided documentation of its coordination with
local law enforcement on this case, but there were differences of opinion
between the USMS and the FBI regarding who should have been the
lead component in this investigation. Consequently, even if the
Los Angeles County District Attorney’s Office confirmed that the USMS
cooperated, there were still coordination issues between the USMS and
the FBI.

Use of Deputy Marshal and Special Agent Statements

       Summary of the USMS Response. The USMS stated that
throughout our report references are made to quotes from individuals
interviewed as part of the review that have little or no relevance to the
issue of coordination.

       OIG Analysis. As noted above, we included opinion statements
from Special Agents, Deputy Marshals, and local task force members to
demonstrate the prevailing attitudes and perceptions regarding
coordination with other components. We asked individuals we
interviewed for their opinion, and we presented the opinions in context
and accompanied by the position, title, or duties of the person expressing
the opinion. When individual statements related to factual matters, such
as descriptions of blue-on-blue incidents, we presented comments from
other individuals involved in order to provide a complete description of
what occurred. The OIG believes the comments are relevant to the issue
of task force coordination. These comments, both positive and negative,
reflected the coordination efforts of the task forces in the cities we visited.

Adherence to Internal USMS Policy

      Summary of the USMS Response. The USMS stated that USMS
policy requires a district to obtain the approval of the local U.S. Attorney
for USMS participation in any fugitive task force. The USMS also stated
that prior to establishing the Regional Fugitive Task Forces, senior
USMS managers coordinated with the U.S. Attorneys’ Offices and

U.S. Department of Justice                                                  140
Office of the Inspector General
Evaluation and Inspections Division
provided them with a mission statement for the task forces.

       OIG Analysis. The USMS comment does not identify any
disagreement with the report. We reported that the USMS put its own
policies in place for coordinating task force operations, particularly the
Memorandums of Understanding between the USMS and the DEA and
the USMS and ATF. We also reported on the remaining coordination
issues between the FBI and the USMS based on the operations of the six
Regional Fugitive Task Forces and the FBI Safe Streets Task Forces.




U.S. Department of Justice                                             141
Office of the Inspector General
Evaluation and Inspections Division
